<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2015

                              ----------                              


                         WEDNESDAY, MAY 7, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:57 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Udall (chairman) presiding.
    Present: Senators Udall, Johanns, Moran, and Mikulski.

 The President's Fiscal Year 2015 Funding Request for and Oversight of 
               Federal Information Technology Investments


                 opening statement of senator tom udall


    Senator Udall. Good afternoon. I am pleased to convene this 
hearing of the Appropriations Subcommittee on Financial 
Services and General Government on the request for and 
oversight of Federal information technology investments.
    First I want to welcome my ranking member, Senator Mike 
Johanns, and I think we will have other colleagues joining us 
as we move through these proceedings.
    And with us today are four distinguished witnesses, the 
Federal Chief Information Officer, Steve VanRoekel; the 
Administrator of the General Services Administration, Dan 
Tangherlini; the Director of the Office of Personnel 
Management, Katherine Archuleta; and the Director of 
Information Technology Management Issues at the GAO, the 
Government Accountability Office, David Powner.
    Thank you for your service, and I look forward today to 
hearing all of your testimony.
    With the agencies here today that all play a Governmentwide 
role, I want to mention that this week is Public Service 
Recognition Week. I would like to take this opportunity to 
salute our public servants and the valuable work they do. And I 
think many of you have many of those valuable public servants 
within your agencies and organizations.
    Today's hearing is important because updating our 
information technology systems is crucial. Our Government 
should be using cutting-edge, 21st century technology. Too 
often, it isn't. And that affects all of us.
    Across the Federal Government, agencies rely on information 
technology, including financial management systems to track 
payments and manage funds, handheld devices and e-mail systems 
to communicate with each other, Internet Web sites to 
communicate with the public and share information on what the 
Government is doing.
    The technology is moving forward, but the Federal 
Government is falling behind.
    Agencies operate on old systems, often with multiple 
programs that cannot speak to each other, and with outdated, 
obsolete technologies.
    We also need to make sure that money is well spent. The 
Federal Government spends $80 billion a year on information 
technology (IT) investments--every year--to operate outmoded 
systems agencies currently rely on and develop new ones. But 
$80 billion a year, and we know there is waste and duplication.
    We need to get the most out of every dollar. And too often, 
we don't.
    The Federal Government's IT Dashboard identifies 201 major 
IT investments totaling more than $12 billion, with significant 
concerns that need management attention.
    Let me repeat that: 201 Federal IT investments. $12 billion 
in question marks. That is not acceptable to any of us.
    There are numerous examples of expensive multiyear projects 
over budget and delayed, of investments that ultimately failed, 
wasting taxpayer money and crippling the Government's ability 
to do its job.
    At a time of tight budgets, we cannot afford to waste 
funds. We should not be paying more and getting less. Agencies 
need IT investments that are efficient and effective, that help 
them complete their missions.
    Agencies have identified savings from duplication and waste 
within IT portfolios totaling over $2.5 billion in the next 3 
years. The Government Accountability Office (GAO) has 
identified additional savings by consolidating data centers. 
There are many opportunities to improve the way the Federal 
Government spends money on IT. We need to make the most of 
them.
    At the same time, we need well-trained experts to do the 
work. For these investments to succeed, there are some existing 
and new tools being used by Federal agencies, but there may be 
more that can be done to train, recruit, and retain qualified 
IT specialists.
    I want to make sure that citizens can depend on the Web to 
interact with their Government. IT is not a luxury. It is 
essential for individuals and for businesses. Small companies 
from places like Albuquerque and Las Cruces should be able to 
go online and find what Federal Government opportunities exist, 
and to be able to submit bids to compete for those 
opportunities.
    American taxpayers should be confident that their money is 
being spent wisely and efficiently.
    I look forward to hearing testimony today on how the fiscal 
year 2015 budget will advance oversight of IT investments and 
what more could be done. I am hoping that this hearing will 
help to guide this subcommittee's efforts as we evaluate the 
President's budget request and craft our appropriations bill.
    I am also pleased to be working with my subcommittee 
colleagues, Ranking Member Johanns and Senator Moran, on 
bipartisan legislation to empower Federal agency chief 
information officers to drive more effective IT investments 
with more flexibility, transparency, and accountability.
    And so with that, I turn to my ranking member, Senator 
Johanns, for any remarks he would like to make.


                   statement of senator mike johanns


    Senator Johanns. Thank you, Mr. Chairman. I want to say how 
much I appreciate you holding this important hearing today. As 
members of this committee, we, of course, have a responsibility 
to conduct oversight to ensure that hard-earned tax dollars of 
millions of Americans are spent appropriately, thoughtfully, 
wisely.
    One area in need of this oversight is the $82 billion the 
Federal Government will spend on IT in the fiscal year 2014. 
Given the resources at stake and the importance of the 
projects, it is imperative that the Office of Management and 
Budget (OMB) and other Federal agencies appropriately manage 
these acquisitions and improve transparency and efficiency.
    We can all name the project that ended with failure or with 
serious problems. I can name healthcare.gov.
    While a crisis makes news, also troubling are the accounts 
that simply don't grab headlines. They don't have the high 
profile, like projects with ongoing costs that grow year after 
year.
    Long-term investments must represent good value. We must be 
able to assure our citizens that it is good value. So we have 
to have safeguards in place to ensure that oversight of these 
projects is consistent; that problems are anticipated, ideally 
before they occur; and, most importantly, that someone is 
accountable, someone is responsible.
    Often, large, complex information technology projects drag 
on. Sometimes they outlast the administration that initiated 
them, and the employees responsible for managing them.
    In our Financial Services and General Government bill 
alone, billions have been spent over the years on trying to 
modernize tax systems at the Internal Revenue Service (IRS). 
That work has just gone on and on and on. While these projects 
appear to be back on track now, past problems generated 
millions in costs and years of delay.
    As recent press reports have reminded us, the Office of 
Personnel Management (OPM) has a long history of unsuccessful 
retirement modernization initiatives.
    Recognizing the need to modernize its retirement processing 
in the late 1980s, OPM began initiatives aimed at automating 
its antiquated paper-based processes. However, following 
attempts over more than 2 decades, the agency has not yet been 
successful in achieving the modernized retirement system 
envisioned.
    These results, or lack thereof, are the type that anger our 
constituents who see hard-earned tax dollars being squandered 
on seemingly endless failed initiatives, and they have a right 
to be concerned.
    According to the Government Accountability Office (GAO), 
across the Government, IT projects too often go over budget, 
fall behind schedule, and don't deliver sufficient value. 
Responsibility for oversight of information technology projects 
is oftentimes fragmented throughout the specific agency owning 
the project, and the projects and spending receive insufficient 
oversight, maybe from Congress, but also from the Office of 
Management and Budget.
    Unfortunately, when it comes to IT spending, it appears 
there is not a lot of management or effective budgeting going 
on at OMB.
    Whether issues relate to program requirements, performance, 
spending, security, there are lots of people involved, but 
oftentimes no clear lines of accountability.
    So, Mr. Chairman, I think this hearing is enormously 
important. I look forward to the testimony of the witnesses.
    We welcome you here. We hope you can enlighten us today 
with your testimony. I look forward to the opportunity to ask 
questions.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you very much, Senator Johanns.
    And we are delighted today to be joined by our chairwoman 
of the Appropriations Committee, Senator Mikulski.
    Senator Mikulski, if you would like to do an opening 
statement, we would be ready for that at this point.


                statement of senator barbara a. mikulski


    Senator Mikulski. Mr. Chairman, I know we want to get on 
with our hearing, so I am going to welcome the witnesses, but I 
am going to thank you and Senator Johanns for convening this 
hearing.
    For some time, both in my role as chair of the subcommittee 
on Commerce, Justice, Science, to now my chair of the full 
committee, I have become increasingly concerned about what I 
call techno-boondoggles.
    Part of the job of the Appropriations Committee is to be a 
quiet guardian of the purse. Well, I intend to be a not-so-
quiet guardian of the purse. And what I worry about is that we 
spend billions and zillions on technology projects that are 
often ineffective or lacking in utility to, often, dysfunction.
    Just two examples, as the chair of the Commerce, Justice, 
we had a tremendous fiasco over the funding of the census, so 
much so that Secretary Gutierrez, who I have great admiration 
for as CEO of a major corporation, called me aghast, and we 
went back, taking the census by hand after billions.
    We had a Federal Bureau of Investigation (FBI) project in 
which all the computers were supposed to talk, connect the 
dots. Again, a boondoggle. Had to go back and do it again.
    And yet, I fear one of the greatest boondoggles could be 
now with our Veterans Administration, in which so many agencies 
have to talk to each other in order to get to where our 
veterans do not stand in line, disability claims, something I 
know you are both interested in.
    So we have to get a handle on what is happening on these, 
and in these financial services with the particular people here 
to testify. The Federal Government has spent more than $600 
billion on IT investments over the last decade. And often, we 
end up doing it again and then again and then again. And I 
think it is time we get our arms around this.


                           prepared statement


    The Appropriations Committee has to do it because we see 
everything and we fund everything. So let's get on with it. But 
I want you to know, working with Senator Shelby, we want to 
have a smart Government and a frugal Government, and IT could 
be one of our biggest challenges here. So thank you.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    Thank you to Senators Udall and Johanns for convening this hearing. 
The American people are shocked--and so am I--every time it is 
discovered that billions of dollars have been wasted on what I call 
techno boondoggles.
    These techno boondoggles are technology projects that should in 
theory make the Government more effective and efficient in providing 
services, but instead turn out to be complete flops.
    The result of these flops is a lot of wasted time and taxpayer 
money. When things go wrong, we always see the 3 Bs--Big money, Big 
projects and Big failures.
    This Committee has a responsibility to provide oversight of the 
funding for these projects to ensure that we get the most bang for our 
buck.
    According to the General Accounting Office, the Federal Government 
has spent more than $600 billion on technology or information 
technology (IT) investments over the last decade. Unfortunately, I 
don't think we have gotten a good return on this investment.
    We have spent billions of dollars on projects that have languished 
for years, only to be canceled or replaced with something else. This is 
inexcusable!
    One of the best examples of this type of techno boondoggle comes 
from the Air Force, which tried to replace 240 outdated computer 
networks with one system. In theory, that sounds like a great idea. But 
in reality, the agency spent $1 billion and wasted 5 years before 
eventually terminating the project altogether in 2012.
    Senator McCain described it as ``one of the most egregious examples 
of mismanagement'' he had ever seen.
    Another example comes from the Department of Homeland Security 
attempt to create a new passenger screening system for people traveling 
by plane.
    After spending $42 million and 8 years, they scrapped the whole 
project and replaced it with a different new screening system.
    Those are just two examples--sadly, I could cite dozens of others.
    Today I would like to hear how we can stop this kind of unnecessary 
spending. As Chairwoman of the Appropriations Committee, I'm committed 
to providing significant oversight of these projects and I believe this 
hearing is a good first step.
    Last week, I convened a hearing on the importance of innovation and 
research. Those investments save lives, improve national security and 
create jobs. Innovation can also improve the performance of Federal 
agencies and help the Government better serve our constituents.
    When a techno boondoggle occurs, we not only waste tax dollars, but 
we hamper the delivery of services to the American public that depends 
on them.
    For example, the Department of Veterans Affairs processes and 
distributes disability payments to millions of veterans across the 
country. The Social Security Administration provides disability 
payments to millions of Americans, while the Office of Personnel 
Management manages Federal employee retirement benefits for millions of 
people, including many of my constituents.
    My staffers who handle casework for these three agencies are some 
of the busiest people I know because of the ongoing backlogs. These 
backlogs weren't created by failed IT systems, but they were certainly 
made worse.
    At a time of smaller budgets and difficult spending decisions, we 
have to make sure every dollar is spent wisely. When the Federal 
Government signs an IT contract, we are not only signing a contract 
with a company to build a program or implement a system. We are signing 
a contract with the American people that promises their tax dollars 
will be spent wisely and in a way that advances the mission of the 
agency.
    I take this responsibility very seriously and look forward to 
hearing from our witnesses.

    Senator Udall. Thank you, Madam Chairwoman. We really 
appreciate your involvement in this. I know that this is 
something you have cared about passionately for a long time.
    Mr. VanRoekel, I would like you to present your remarks on 
behalf of the Office of Management and Budget.
STATEMENT OF HON. STEVEN VanROEKEL, CHIEF INFORMATION 
            OFFICER, OFFICE OF MANAGEMENT AND BUDGET
    Mr. VanRoekel. Thank you, sir. Chairman Udall, Ranking 
Member Johanns, and Chairwoman Mikulski, thank you for the 
opportunity to testify on the President's fiscal year 2015 
budget request for the improvement of Federal information 
technology investments and oversight.
    It is important to consider this request in the context of 
the President's overall fiscal year 2015 budget request for the 
Office of Management and Budget, which is $93.5 million and 480 
full-time equivalent employees.
    This request would enable OMB to address the growing 
workload while more effectively overseeing program management 
and funding across more than 100 Federal agencies and 
departments. This is a critical investment with returns in the 
form of improved program management, budgetary savings, and 
smarter regulations, some of the many critical outcomes that 
the administration, Congress, and the American people look to 
OMB to help ensure.
    The Office of E-Government and Information Technology's 
work is core to achieving each of those aims. I would like to 
take a minute to discuss what our work has achieved to date and 
what our focus will be moving forward.
    Every day during my nearly 20 years in the private sector, 
I focused on improving and expanding core services and customer 
value while also cutting costs. When I joined the 
administration in 2009, I found willing partners in this 
mission and have spent the past 3 years in OMB focused on 
maximizing the return on investments in Federal information 
technology, driving innovation to meet customer needs, and 
establishing a foundation for securing and protecting our 
information systems.
    In the decade prior to this administration, the Federal IT 
budget increased at the compound annual growth rate of 7.1 
percent a year. If spending had increased at the same rate 
during this administration, our current budget IT request would 
total $117 billion, not the roughly $80 billion that is being 
requested for information technology across the Federal 
Government in fiscal year 2015.
    Throughout the President's first term and into today, we 
have focused on establishing mechanisms to stop this growth in 
IT spending. We have flatlined IT spending, and since 2012, our 
PortfolioStat data-driven accountability sessions have resulted 
in over $2.5 billion in identified cost savings and $1.9 
billion in realized savings, showcasing the results of the 
administration's Governmentwide policies to drive this 
efficiency.
    With these efficiency efforts firmly underway in fiscal 
year 2014 and fiscal year 2015, the administration is 
increasing its efforts to deliver smarter, more effective 
applications of technology. This work, which the President's 
fiscal year 2015 budget supports as part of the President's 
management agenda, focuses on ensuring the Federal Government 
has three things: one, the best talent working inside 
Government; two, the best companies working with Government; 
and three, the best processes in place to make sure everyone 
involved can do their best work and, more importantly, be held 
accountable for delivering excellent results to the American 
people.
    To support this work, the fiscal year 2015 budget requests 
$20 million for the Information Technology Oversight and Reform 
Fund. This fund will use data, analytics, and digital services 
to improve the efficiency, effectiveness, and security of 
Government operations and programs. This funding will also 
allow OMB to continue the work of PortfolioStat, enhance 
cybersecurity capabilities, and create the Digital Service, a 
centralized, world-class team made up of our country's 
brightest digital talent. These people will be charged with 
removing barriers to exceptional Government service delivery 
and remaking the digital experiences that citizens and 
businesses have with their Government.
    The Digital Service, in close partnership with the General 
Services Administration's (GSA's) 18F delivery team, will 
establish standards to bring the Government's digital services 
in line with the best private sector service experiences, to 
identify gaps in their service capability, and to provide 
oversight and accountability to ensure we see results.
    It will work side-by-side with agencies to ensure they have 
the resources and talent needed to deliver great services on 
time, on spec, on budget, and with optimal user functionality.
    This capability, which will drive effectiveness across key 
citizen-facing services, is being incubated now under my office 
in OMB in fiscal year 2014 and, if funded, will expand in 
fiscal year 2015.
    The fiscal year 2015 Information Technology Oversight and 
Reform (ITOR) request, this fund, represents a modest 
investment in comparison to the total Federal IT spending of 
approximately $80 billion annually. And through the ITOR fund, 
and the help of this subcommittee in both the Senate and the 
House, we have delivered tangible results in Government 
technology efficiency. And we look forward to accelerating this 
return on investment as we apply these efforts to effectiveness 
of technology in 2015.
    In conclusion, it is apparent, in today's world, we can no 
longer separate the outcomes of our Federal programs from the 
smart use of technology. By increasing emphasis on customer 
needs and making it faster and easier for individuals and 
businesses to complete transactions with their Government, 
online or off-line, we can deliver the world-class services 
that they expect.

                           PREPARED STATEMENT

    I am excited to continue working with this subcommittee on 
our shared goals and look forward to our conversation and 
questions. Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Steven VanRoekel
    Chairman Udall, Ranking Member Johanns, and members of the 
subcommittee, thank you for the opportunity to testify on the 
President's fiscal year 2015 request for the improvement of Federal 
information technology (IT) investments.
    During my 20 years in the private sector, I woke up every day 
focused on improving and expanding core services and customer value 
while also cutting costs. I brought this focus with me to the Federal 
Government. When I joined the administration in 2009, and the Office of 
Management and Budget (OMB) in 2011, I found willing partners in this 
mission and have spent the past 3 years at OMB focused on driving 
innovation to meet customer needs, maximizing our return on investments 
in Federal information technology, and establishing a trusted 
foundation for securing and protecting our information systems.
    Before discussing the administration's fiscal year 2015 request for 
the Information Technology Oversight and Reform (ITOR) fund and Office 
of E-Government, I want to raise OMB's overall fiscal year 2015 budget 
request. The President's fiscal year 2015 budget for OMB requests $93.5 
million and 480 full-time equivalents (FTEs) to address growing 
workloads while making targeted investments to enable OMB to more 
effectively oversee program management and funding across more than 100 
agencies and departments throughout the Federal Government. The budget 
request would bring OMB back up to a staffing level comparable to 2009, 
though well below 2010, and support our expanded role in a number of 
key priority areas for this subcommittee. This is a critical investment 
with large returns in the form of improved program management, 
budgetary savings, and smarter regulations--some of the many critical 
outcomes that the administration, Congress, and the American people 
look to OMB to help ensure. While OMB has taken on a number of new 
functions and responsibilities in recent years, our funding and 
staffing levels have been significantly constrained and have not kept 
pace with our counterparts at the Congressional Budget Office. Today, 
OMB is 11 percent smaller than as recent as fiscal year 2010, with a 
fiscal year 2014 estimated FTE level of 470. As a result of 
sequestration, OMB employees were required to take 8 furlough days last 
year--the most of any agency in the Federal Government. While the 
funding restored in fiscal year 2014 appropriations was a step in the 
right direction, and we thank the subcommittee for its support, there 
is still work to be done. The requested funding will allow OMB to 
continue to play a central role in supporting the development and 
execution of a wide range of crucial programs and policies and managing 
critical Government functions. Today more than ever, OMB has a central 
role to play in our efforts to move our economy forward by creating 
jobs, growing the economy, and promoting opportunity for all.
                          focus on efficiency
    Constantly improving the state of Federal technology is a priority 
for this administration and is a mission that OMB takes seriously. In 
these times of fiscal constraint, this means we must drive innovation 
while controlling spending--by maximizing effectiveness and efficiency 
in everything we do. The administration's first term efforts largely 
focused on establishing mechanisms to stop out of control IT spending, 
promoting new technologies such as cloud computing and mobile, opening 
up Federal Government data for private sector use, enhancing cyber 
capabilities, and deploying Federal technology as a tool to increase 
efficiency to allow Government to do more with less.
    In the decade prior to this administration, the Federal IT budget 
increased at the compound annual growth rate of 7.1 percent. If 
spending increased at the same rate during this administration, our 
current IT budget request would total $117 billion. However, through 
PortfolioStat data-driven accountability sessions, and with the help of 
this subcommittee, Federal agencies enhanced analytical approaches to 
more effectively manage Federal IT portfolios and improve IT cost 
oversight. The Office of E-Government established a rigorous, 
continuous process for agencies to drive and measure information 
technology savings through the consolidation of duplicative services 
and other tactics to fund investment in innovation.
    The result is over $2.5 billion of identified cost savings and $1.9 
billion of realized savings through the PortfolioStat process and a 
consolidation of commodity IT. During this administration, we flatlined 
Federal IT spending, driving efficiencies and fueling innovation across 
the Federal technology portfolio, through initiatives like data center 
consolidation, cloud computing and the administration's Digital 
Government strategy, all the while working to keep Federal data safe 
and secure. Through these efforts and others, Federal agencies began to 
seize upon productivity gains seen in the private sector and apply 
technology to improve efficiency of our Government.
                         focus on effectiveness
    With our actions to drive efficiency across IT portfolios firmly 
underway, the administration is also increasing its efforts to deliver 
smarter, more effective applications of technology to improve the 
delivery of Federal services, information, and benefits. In doing so, 
we are applying the same rigor and data-driven analytical capabilities 
we used to drive efficiency across Federal IT to ensure agencies use IT 
effectively to deliver on their core missions.
    To deliver citizens the services they expect from their Government, 
we must shift the focus of Federal Government IT projects from 
compliance and process to meeting user needs. We must be intensely 
user-centered and agile, involve top talent from the private sector in 
Government IT projects, and ensure agency leadership is actively 
engaged and accountable to the public for the success of the digital 
services of their agency. To support this effort, the administration's 
Smarter IT Delivery Agenda seeks to improve the value we deliver to 
citizens through Federal IT, and the speed and cost-effectiveness with 
which it is delivered.
    The work of the Smarter IT Delivery Agenda builds upon the progress 
of reshaping the delivery of information technology already underway, 
as well as introduces new approaches and tools to transform the 
Government IT landscape. To do this, we are focused on a three-part 
agenda focused on ensuring the Federal Government has: (1) the best 
talent working inside Government; (2) the best companies working with 
Government; and, (3) the best processes in place to make sure everyone 
involved can do their best work and be held accountable for delivering 
excellent results for our customers, the American people.
    The Smarter IT Delivery Agenda aims to increase customer 
satisfaction with top Government digital services; decrease the 
percentage of Government IT projects that are delayed or over budget; 
and increase the speed with which we hire and deploy qualified talent 
to work on Government IT projects.
    There are several key projects already underway, and we will 
undertake additional projects in the coming months as the agenda 
continues to evolve.
      focus area 1: get the right talent working inside government
    IT excellence starts with having the best people executing IT in 
Government. While there are many talented IT professionals across 
Government, it is clear that we need to broaden and deepen this talent 
pool to meet present and future needs.
    We must also work to solve the current challenges facing Government 
when it comes to quickly hiring qualified technical talent. IT is 
already one of the most competitive job markets in our economy, but 
Government hiring processes make competing for that talent even more 
challenging. Today, the average hiring cycle for IT specialists in the 
Federal Government is over 100 days. The norm for leading private 
sector companies is 7-14 days. Given the competitive markets for 
technical talent, Government is often unable to acquire top candidates 
given the current hiring process.
The Digital Service
    To accelerate the pace of change, we are standing up a Digital 
Service--a centralized, world-class capability that is part of the 
Federal Chief Information Officer (CIO) Team made up of our country's 
brightest digital talent, which we will pilot with existing funds in 
2014, and scale in 2015 according to the President's fiscal year 2015 
budget. The team will be charged with removing barriers to exceptional 
Government service delivery and remaking the digital experiences that 
citizens and businesses have with their Government.
    Through a modest team of people housed within the E-Government 
office at OMB, the Digital Service will establish standards to bring 
the Government's digital services in line with the best private sector 
service experiences, define common platforms for re-use that will 
provide a consistent user experience, collaborate with agencies to 
identify gaps in their delivery capacity to design, develop, and deploy 
excellent citizen-facing services, and provide oversight and 
accountability to ensure we see results. The Digital Service is a close 
partnership with the 18F delivery team at the U.S. General Services 
Administration (GSA), and will work side-by-side with agencies to 
ensure they have the resources and talent needed to deliver great 
services on time, on spec, on budget, and with optimal user 
functionality.
Flexible Hiring Authority Options for IT Talent
    Building on the success of the Presidential Innovation Fellows 
program--a program that is delivering low cost, innovative solutions 
like RFP-EZ, advancing open data initiatives at agencies and more--the 
administration is pursuing flexible hiring authority options for IT 
talent, reducing barriers to the hiring of key digital experts in 
Government. The program is being developed in partnership with the 
Office of Personnel Management, and would be phased in with agencies 
such as GSA.
      focus area 2: get the best companies working with government
    The administration is also taking steps to reduce barriers and 
burdens in Federal procurement and increase the ability for innovative 
and non-traditional companies to work with the Federal Government with 
FBOpen--a new platform that allows easier access to Federal 
opportunities. In addition, OMB recently worked with GSA and 
procurement experts across Government on an open dialogue \1\ to reduce 
barriers and burdens in Federal procurement.
---------------------------------------------------------------------------
    \1\ http://www.gpo.gov/fdsys/pkg/FR-2014-04-23/pdf/2014-09129.pdf.
---------------------------------------------------------------------------
Open Dialogue
    The open dialogue was a joint effort between the Chief Acquisition 
Officers Council, OMB, GSA, and the Chief Information Officers Council 
to engage all stakeholders in the acquisition community to better 
understand the opportunities and challenges they face when doing 
business with the Federal Government. The focus of the dialogue was to 
generate solutions in three areas: streamlining reporting and 
compliance requirements, identifying industry best practices, and 
increasing participation by qualified non-traditional Government 
contractors. We anticipate that we will have recommendations for 
actions emerging from this work, and are eager to work with Congress on 
developing a whole-of-Government approach to improving Federal 
acquisitions.
 focus area 3: put the right processes and practices in place to drive 
                      outcomes and accountability
    Complicated Federal IT projects often face similar challenges: (1) 
they lack visibility and real-time communication among the technical or 
IT staff, the mission or business owner, and the executive team; (2) 
they use the outdated waterfall approach to technology development, 
which includes long lead requirements setting rather than the agile 
approaches--where products are developed in rapid, iterative cycles--
that have made the consumer Internet so successful; and (3) there is 
responsibility and accountability regarding compliance issues, but not 
enough end-to-end responsibility for the project actually working for 
its intended users at targeted investment levels. Taken together, these 
qualities can result in sub-optimal outcomes and high costs.
    To address these issues, the administration will focus its efforts 
on driving accountability for customer service, mission results and 
cost; sharing best practices; and guiding agencies and contractors in 
delivering great digital services.
Tech FAR Guide
    The administration will develop a compilation of the 21st century, 
agile aspects of the Federal Acquisition Regulation (FAR) that will 
guide agencies in soliciting services in new ways--ways that more 
closely match techniques used by the private sector--such as using 
challenges and crowdsourcing approaches to involve citizens, writing 
requirements that allow for more flexible execution, or a pay-for-
service model. In particular, the guide will include FAR-allowed 
processes used by agencies that have successfully implemented IT 
projects, many of which are currently underutilized.
Digital Service Playbook
    The administration will develop a Digital Service Playbook to share 
best practices for effective IT service delivery in Government. This 
playbook will build on successes both within and outside Government and 
will guide both technical and business owners within agencies. It will 
include best practices for building modern solutions across the 
implementation of the technology, how to measure customer input and 
manage customer expectations, and how to share solutions across 
Government.
PortfolioStat 2014
    This spring, the administration is implementing PortfolioStat 2014, 
the third year of this successful program. PortfolioStat 2014 will not 
only continue the rigorous data-driven focus on finding efficiencies in 
agencies that has resulted in $1.9 billion in savings since 2012, but 
also adds a new focus on accountability around service delivery to 
ensure agencies are accountable for delivering on their highest impact 
IT investments. As I have testified previously, the PortfolioStat 
process brings together technology experts with the agency's senior 
accountable officials and Deputy Secretary to evaluate agency 
performance against measured outcomes and increase accountability and 
responsibility within agencies.
   the information technology oversight and reform fund and enhanced 
                             cybersecurity
    To support this work, the fiscal year 2015 budget requests $20 
million for the Information Technology Oversight and Reform (ITOR) 
fund. This fund, previously known as the Integrated, Efficient, and 
Effective Uses of Information Technology (IEEUIT), will use data, 
analytics and digital services to improve the efficiency, effectiveness 
and security of Government operations and programs.
    With the funding requested for fiscal year 2015, OMB would continue 
the work of PortfolioStat and enhance cybersecurity capabilities that 
will ensure we can protect our country's national digital assets. The 
additional funding represented in ITOR will enable OMB to better 
leverage analytics and industry expertise to conduct targeted, risk-
based oversight reviews of agencies' cybersecurity activities. The 
result of these efforts will inform future Federal information security 
policies, metrics, and Cross Agency Priority (CAP) goals, and will 
ensure successful implementation of important policy work underway with 
continuous diagnostics, anti-phishing, and identity management 
initiatives. The fiscal year 2015 ITOR request represents a modest 
investment in comparison to the total Federal IT spending of 
approximately $80 billion annually. Through the ITOR fund and the help 
of the subcommittee, we have delivered tangible results in Government 
technology efficiency. We look forward to delivering the same return on 
investment from these funds as we apply them to effectiveness of 
technology in fiscal year 2015.
                               conclusion
    In conclusion, it is apparent that in today's world we can no 
longer separate the effectiveness of our Federal programs from the 
smart use of IT. By increasing emphasis on customer needs and making it 
faster and easier for individuals and businesses to complete 
transactions with the Government--online or offline--we can deliver the 
world-class services that citizens expect. To do this it is imperative 
that we get the best talent working inside Government, the best 
companies working with Government, and the best processes in place to 
deliver results for our customers, the American people.
    Mr. Chairman and members of the subcommittee, thank you for holding 
this hearing and inviting me to speak today. I appreciate this 
subcommittee's interest and ongoing support and I am excited to 
continue working with the subcommittee on our shared goal of improving 
the efficiency and effectiveness of our Government. I would be pleased 
to answer any questions you may have at this time.

    Senator Udall. Thank you very much, Mr. VanRoekel.
    Administrator Tangherlini, I invite you now to present your 
remarks on behalf of the General Services Administration.
STATEMENT OF HON. DAN TANGHERLINI, ADMINISTRATOR, 
            GENERAL SERVICES ADMINISTRATION
    Mr. Tangherlini. Thank you very much and good afternoon, 
Chairman Udall, Ranking Member Johanns, full committee Chair 
Mikulski, members and staff of the committee. My name is Dan 
Tangherlini, and I am the administrator of the U.S. General 
Services Administration, or GSA.
    Before focusing on the topic of today's hearing, I would 
like to do two things, first, introduce our new deputy 
administrator, Denise Roth, who as chief operating officer will 
focus, among other duties, on internal GSA information 
technology. And next, I would like to thank the chairman, the 
ranking member, committee members, and staff for your hard work 
on the fiscal year 2014 Consolidated Appropriations Act, 
especially in the current funding environment.
    This legislation represented a positive step forward for 
our Nation and for our economy. Among its many provisions, the 
act made available more than $9.3 billion in funding for GSA to 
invest in our Nation's public building infrastructure, pay rent 
for our leased buildings, consolidate offices to save money, 
and upgrade land ports of entry to secure our borders.
    GSA's fiscal year 2015 budget request looks to continue 
these efforts. And I want to sustain our partnership to make 
sure this is not an isolated investment, but a foundation for a 
long-term, sound management of our Government's real property 
infrastructure.
    The challenges of technology procurement and delivery 
facing the Government have been a focus for better management 
and oversight throughout this administration. Given GSA's 
mission to deliver the best value in real estate acquisition 
and technology services to the Government and the American 
people, we believe we are uniquely positioned to help make a 
difference in these efforts.
    Through better management of our own IT investments, as 
well as offerings GSA provides Governmentwide, GSA can support 
the administration's efforts to better manage IT.
    Since my arrival at GSA, we have been focused on 
consolidating and streamlining major functions within the 
agency to eliminate redundancy, improve oversight, and increase 
accountability. As part of GSA's top-to-bottom review, GSA 
brought together all IT functions, budgets, and authorities 
from across the agency under an accountable, empowered GSA 
Chief Information Officer (CIO) in line with the best practices 
followed by most modern organizations today.
    GSA now has one enterprise-wide process for making IT 
investments, which ensures that investments are geared toward 
the highest priorities in support of agencies' strategic goals.
    We set internal goals to reduce ongoing operating costs to 
allow the organization to make better long-term investments 
using our enterprise-wide, data-driven IT budget process.
    Consolidation also provides an opportunity to adopt the 
best forward-leaning practices in supporting investments. In 
recognition of the need to modernize not just applications, but 
how we support IT, and consistent with broader Federal efforts, 
GSA instituted a cloud-first policy that prompts all 
application development initiatives to look first to the GSA 
cloud platforms before considering legacy platforms with higher 
operational costs.
    The focus of our transition has not been limited to what we 
build, but also how we build. Our move to an agile development 
shop has resulted in a significant increase in our ability to 
rapidly deploy and scale.
    Consolidated IT governance is also helping GSA realize a 
high-performing IT environment as effectively and efficiently 
as possible while also providing a level of transparency and 
accountability that will lead to continuous, ongoing 
improvement.
    GSA also looks for opportunities to help agencies adopt new 
technologies and take advantage of digital services that 
improve mission delivery and enhance their interactions with 
the public.
    For example, we recently announced the creation of 18F, the 
digital delivery team within GSA that aims to make the 
Government's digital and Web services simple, effective, and 
easier to use for the American people.
    By using lessons from our Nation's top technology startups, 
these public service innovators are looking to provide support 
for our Federal partners in delivering better digital services 
at reduced time and cost, and making us a better consumer of 
IT.
    GSA's internal IT reforms, acquisition solutions, and 
digital services are in keeping with our mission to deliver the 
best value in information technology solutions to Government 
and the American people.

                           PREPARED STATEMENT

    GSA still has a lot of work ahead of us, and I am grateful 
for the subcommittee's support for our reform efforts. I 
appreciate the opportunity to appear before you today, and I am 
happy to answer any questions that you have. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Dan Tangherlini
    Good afternoon, Chairman Udall, Ranking Member Johanns, and members 
of the subcommittee. My name is Dan Tangherlini, and I am the 
Administrator of the U.S. General Services Administration (GSA).
    The challenges of technology procurement and delivery facing the 
Government have been a focus for better management and oversight 
throughout this administration. They present an opportunity to deliver 
better outcomes for the American people in a more efficient manner. 
Given the U.S. General Services Administration's mission to deliver the 
best value in real estate, acquisition, and technology services to the 
Government and the American people, we believe we are uniquely 
positioned to help make a difference in these efforts. Through better 
management of our own information technology (IT) investments, as well 
as offerings GSA provides Governmentwide, GSA can support the 
administration's efforts to better manage IT and help to continue 
improving some of these longstanding challenges.
                       gsa information technology
Empowering the Chief Information Officer
    Since my arrival at GSA, we have been focused on consolidating and 
streamlining major functions within the agency to eliminate redundancy, 
improve oversight, and increase accountability. Consistent with the 
administration's push to strengthen Chief Information Officer (CIO) 
authorities, GSA brought together all IT functions, budgets, and 
authorities from across the agency under an accountable, empowered GSA 
CIO, in line with the best practices followed by most modern 
organizations today. GSA has moved from 17 different regional and 
bureau CIOs to one enterprise CIO office. To improve management and 
accountability, GSA established the Investment Review Board co-chaired 
by the GSA CIO and Chief Financial Officer (CFO) with oversight and 
authority over all GSA IT spending. Prior to this consolidation, GSA's 
business lines and often the regions had separate IT systems and 
budgets, providing limited visibility and oversight into proposed 
investments and creating significant redundancy and inefficiency.
Enterprise Planning
    GSA now has one enterprisewide process for making IT investments, 
which ensures that investments are geared toward the highest priorities 
in support of the agency's strategic goals. We are now able to more 
comprehensively look at the portion of spending that is focused on 
operating and maintaining existing systems. We have set internal goals 
to reduce ongoing operating costs to allow the organization to make 
better long-term investments using our enterprisewide, data driven 
zero-based IT budgeting process.
Zero-based IT Budgeting
    GSA is beginning to leverage an internal zero-based IT budgeting 
(ZBB) process to develop the IT budget. ZBB is a budgeting method that 
requires justification for all expenses in each new fiscal period. This 
method will ensure budgeting processes align to the organization's 
strategy by tying budget line items to specific strategic goals and 
initiatives. For instance, GSA used to maintain multiple systems to 
track engagements with partner Federal agencies. Through these changes, 
GSA's major business lines will share these tools, facilitating a two-
fold win. From an IT perspective, we eliminated the cost of maintaining 
redundant systems, resulting in lower operations and maintenance costs. 
From the mission execution side, we improved engagement with partner 
Federal agencies by putting a more complete picture of who we work with 
in the hands of our staff.
Enhanced Use of Cloud Computing and Consolidation of Data Centers
    Consolidation also provides an opportunity to adopt the best 
forward-leaning practices not just in where and what IT investments are 
made, but also how we support these investments. In recognition of the 
need to modernize not just applications but how we support IT, and 
consistent with broader Federal efforts, GSA instituted a ``cloud 
first'' policy that prompts all application development initiatives to 
look first to the GSA cloud platforms available as technology solutions 
before evaluating legacy platforms with higher operational costs. In 
doing this, GSA has saved money not only in the areas of reduced 
infrastructure costs, but also through the reuse of previously 
developed functionality. This initiative in part has also allowed us to 
consolidate 1,700 legacy applications into fewer than 100 cloud-based 
applications between 2011 and 2013. GSA's use of cloud services has 
saved $15 million\1\ over the past 5 years. GSA has also been 
aggressive in shutting down unneeded data centers as part of the 
Federal Data Center Consolidation Initiative. In fiscal year 2013, GSA 
shut down 37 data centers, meeting our goal, and we intend to shut down 
an additional 24 this fiscal year.
---------------------------------------------------------------------------
    \1\ Savings resulting from use of cloud services, such as 
Salesforce Platform as a Service, and E-mail as a Service.
---------------------------------------------------------------------------
Agile Development
    The focus of our transition has not been limited to what we build, 
but also how we build. GSA IT has moved away from the world of 
waterfall application development methodologies that have historically 
led to higher costs and poor product quality, to an agile methodology 
which allows us to work better, faster, and leaner than we ever have 
before. Our move to an agile development shop has resulted in a 
significant increase in our ability to rapidly deploy and scale. As a 
result, beginning in 2013, GSA's development cycle time has been 
reduced to 6 to 8 weeks from 8 to 12 months.
    These IT reform initiatives have resulted in more efficient 
allocation of IT resources. In fiscal year 2013, GSA spent $698 million 
in IT spending. In fiscal year 2015, GSA requested $572 million, a 
reduction of nearly 18 percent. We have cut 45 full time equivalent 
positions in the IT area and identified several duplicative systems in 
the regions and between various offices that are now being 
consolidated. In addition, GSA's strategic hiring plan is focused on 
obtaining IT skills through Government hires to allow us to decrease 
the reliance on contractors in some areas.
    Consolidated IT governance helps GSA realize a high performing IT 
environment as effectively and efficiently as possible. Enterprise IT 
governance will ensure GSA is investing in the right initiatives at the 
right time, allow greater oversight of key IT investments, and promote 
interoperability and transparency through the GSA enterprise. It also 
allows a level of transparency and accountability that will lead to 
continuous ongoing improvement.
                        it acquisition solutions
    In addition to our efforts to better manage internal GSA IT 
investments and policies, we also offer acquisition solutions to 
agencies that deliver savings and enable them to focus more on core 
mission activities.
    GSA aggregates and leverages the Federal Government's buying power 
to obtain a wide range of information technology and telecommunications 
products and services in support of agency missions across Government 
through contract vehicles like Schedule 70 and Networx. Schedule 70 is 
an indefinite delivery/indefinite quantity (IDIQ) multiple award 
schedule that provides direct access to products, services, and 
solutions from more than 5,000 certified industry partners. Networx 
provides cost-effective solutions for partner agencies' communications 
infrastructure and service needs. Through better pricing of these and 
other similar acquisitions, GSA helped agencies save more than $1 
billion in fiscal year 2013, and will help them save an additional $1 
billion in fiscal year 2014 on these acquisitions.\2\
---------------------------------------------------------------------------
    \2\ Compared to commercial pricing for comparable services and 
terms and conditions.
---------------------------------------------------------------------------
    Additionally, GSA is currently developing the Prices Paid Portal. 
This proof of concept tool is intended to provide greater visibility 
into the prices paid by Government agencies for commonly purchased 
goods and services. Currently, the system is being populated with 
initial data on simple commodities such as office supplies, with data 
on more complex items to follow. Allowing the Federal acquisition 
community to see and analyze the cost of these goods and services is 
intended to drive better pricing for all future Federal procurements. 
Our hope is to replicate our purchasing experience as individuals where 
comparative market pricing information is widely available, such as 
many e-commerce, travel and secondary market portals.
              innovative technologies and digital services
    GSA also looks for opportunities to help agencies adopt new 
technologies and take advantage of digital services that improve 
mission delivery, and enhance their interactions with the public. For 
example, the Federal Risk and Authorization Management Program 
(FedRAMP) is a Governmentwide program that accelerates adoption of 
cloud computing across Government by providing a standardized approach 
to security assessment, authorization, and continuous monitoring for 
cloud products and services. This mandatory approach, which uses a ``do 
once, use many times'' framework, is saving cost, time, and staff 
required to conduct redundant agency security assessments.
    GSA helps to ensure that we have tools that allow the Government to 
access the ingenuity of the American people to help solve Government's 
challenges. GSA manages Challenge.gov, an award winning platform to 
promote and conduct challenge and prize competitions Governmentwide. 
Challenge.gov seeks to involve more Americans in the work of 
Government. Eighty contests were hosted in fiscal year 2013, covering a 
wide range of technical and creative challenges. For instance, the 
Federal Trade Commission (FTC) hosted a robocall challenge, which asked 
innovators to create solutions to block illegal robocalls on landline 
or mobile phones. The FTC received nearly 800 entries and selected two 
winners in a tie for the best overall solution. One winning solution, 
Nomorobo, went to market on September 30, 2013, and has blocked nearly 
1.3 million calls for consumers.
    GSA also is leading efforts to open Government data to 
entrepreneurs and other innovators to fuel development of products and 
services that drive economic growth. GSA operates Data.gov, the 
flagship open Government portal, which enables easy access to and use 
of more than 90,000 data collections from over 180 Government agencies. 
By facilitating information transparency and access, GSA allows anyone, 
whether an individual or a business, to take public information and 
apply it in new and useful ways. A snapshot of the power of open data 
can be seen on Data.gov/Impact, which provides a list of companies 
leveraging open Government data to power the economy.
    GSA is also committed to helping agencies through smarter delivery 
of IT projects. In collaboration with White House Office of Science and 
Technology Policy, GSA manages the Presidential Innovation Fellows 
(PIF) program. The PIF program recruits and sources some of our 
Nation's brightest individuals to specific agencies and challenges them 
to implement solutions that save money and make the Federal Government 
work better for the American people. The program is set up to deliver 
results in months, not years, and has already demonstrated its value 
through solutions like the United States Agency for International 
Development's (USAID's) Better Than Cash and the Department of Veterans 
Affairs' (VA's) Blue Button.
    Building on this approach, and in coordination with the Digital 
Service at the Office of Management and Budget (OMB), GSA recently 
announced the creation of 18F-- a digital delivery team within GSA that 
aims to make the Government's digital and Web services simple, 
effective, and easier to use for the American people. By using lessons 
from our Nation's top technology startups, these public service 
innovators are looking to provide support for our Federal partners in 
delivering better digital services at reduced time and cost. 18F is 
structured to develop in an agile manner, building prototypes rapidly 
and putting them in the hands of users for feedback; measure success 
not in terms of completion of a system, but through customer use; build 
core capacity so that the Government can build and deliver technology 
solutions; and scale what works iteratively.
    18F is already engaged in various initiatives to improve services 
GSA provides to our constituents. As an example, the 18F team helped 
develop a new, innovative tool called FBOpen (fbopen.gsa.gov) that 
allows small and innovative businesses to quickly access Federal 
contracting and grant opportunities by using simple search queries. 
This open source search tool makes it easier for small businesses and 
less traditional Federal contractors to better find and bid on 
Government opportunities, while increasing competition and delivering a 
simpler way to find all of the opportunities the Federal Government 
makes available. By pairing innovative technologists with agency 
procurement experts and reaching out to small businesses to understand 
their needs, GSA was able to successfully test (and deploy) a viable 
product in less than 6 months. FBOpen is just one example of how use of 
smarter IT practices can shorten the time to value, whether work is 
performed by Federal employees, contractors, or both.
                               conclusion
    GSA's internal IT reforms, acquisition solutions, and digital 
services are in keeping with our mission to deliver the best value in 
information technology solutions to Government and the American people. 
GSA still has a lot of work ahead of us, and I appreciate the 
subcommittee's support of our reform efforts.
    I appreciate the opportunity to appear before you today and I am 
happy to answer any questions you have. Thank you.

    Senator Udall. Thank you for your testimony.
    And now, Director Archuleta, I would like you to present 
your remarks on the half of the Office of Personnel Management.
STATEMENT OF HON. KATHERINE ARCHULETA, DIRECTOR, OFFICE 
            OF PERSONNEL MANAGEMENT
    Ms. Archuleta. Thank you, Chairman Udall, Ranking Member 
Johanns, and Chairwoman Mikulski for inviting me to participate 
in today's hearing on the oversight of the information 
technology investments and to testify on the issues facing the 
Federal IT workforce.
    As director of the Office of Personnel Management, one of 
my goals is to build an engaged, inclusive, diverse, and well-
trained workforce, not only for today's needs, but also for the 
future.
    In order to meet their missions, Federal agencies must have 
the tools to attract, develop, and keep top talent from all 
segments of society. To accomplish this, the Office of 
Personnel Management (OPM) is partnering with agencies to help 
address Governmentwide and agency-specific recruitment, 
training, and retention needs in areas where skills are in high 
demand.
    The development and proper deployment of IT will require 
fast thinking and intelligent minds at the helm in order to tap 
into the vast potential for the skillful harnessing of cyber's 
possibilities.
    The demand for cyber skills is real. The Bureau of Labor 
Statistics has projected that computer occupations will grow by 
18 percent from 2012 to 2022, while all other occupations will 
grow by 11 percent.
    This is why OPM supports the Governmentwide development of 
qualified Federal cyber personnel through workforce planning, 
recruitment, training and development, and other initiatives.
    OPM is the lead agency to meet to the OMB cross-agency 
priority goal to close critical skills gaps in the Federal 
workforce. We have partnered with relevant interagency councils 
and working groups and to design the most effective strategies 
to address cyber workforce needs.
    OPM realizes that agencies may need to take advantage of 
existing flexibilities to meet their hiring needs. We have 
collaborated with the CIO Council to ensure a broad 
understanding of the various hiring and pay authorities 
available to attract and bring on board needed talent.
    OPM has also helped agencies cut down the time it takes to 
hire, from the posting of a vacancy announcement to bringing 
employees on board.
    OPM is committed to ensuring that agencies are aware of the 
services we can offer in the crafting of job opportunity 
announcements in a way that gets them to the best possible 
candidates. With well-written job opportunity announcements, 
agencies can find superior candidates for a position and fill 
that post as quickly as possible.
    Agencies have a number of existing pay and leave 
flexibilities at their disposal that can be used to recruit and 
retain cyber personnel. This includes recruitment and retention 
incentives, enhanced annual leave accrual rates, student loan 
repayments, as well as general workplace flexibilities.
    In addition, OPM is ready to work with agencies to consider 
providing special rates or critical position pay.
    Further, three initiatives have been identified as possible 
positive courses of forward action. The first is the 
establishment of a cross-Government talent exchange program 
called GovConnect. GovConnect will help all agencies test and 
scale talent exchange programs. It would enable employees to 
find project-based rotational assignments and enable managers 
to reach into the broader Federal workforce to fill critical 
needs.
    Second, OPM is working on a learning and development 
resource exchange called GovU. GovU would be a collaborative 
model for the sharing of training and development resources 
across the Federal Government.
    Finally, training and development resources are critical 
tools in employee growth. OPM will continue to work with 
agencies and other stakeholders to utilize existing recruitment 
and retention tools, and explore whether additional 
flexibilities are warranted. These efforts will help ensure 
that we build and develop a Federal IT workforce that is 
engaged, inclusive, and high-performing in order to meet the 
changing challenges of today and tomorrow.

                           PREPARED STATEMENT

    Thank you for inviting me here today, and I am happy to 
answer any questions you may have.
    [The statement follows:]
             Prepared Statement of Hon. Katherine Archuleta
    Thank you for inviting me to participate in today's hearing 
regarding oversight of information technology (IT) investments, and to 
testify on issues facing the Federal IT workforce. I am happy to be 
here with you today.
    As Director of the Office of Personnel Management (OPM), one of my 
goals is to build an engaged, inclusive, diverse, and well-trained 
workforce, not only for today's needs but also for the future. In order 
to meet their missions, Federal agencies must have the tools to 
attract, develop, and keep top talent, from all segments of society. To 
this end, OPM is partnering with agencies to help address 
Governmentwide and agency-specific recruitment, training, and retention 
needs in areas where skills are in high demand.
    Anticipating cyber workforce needs and ensuring that the Federal 
Government is prepared to meet those needs is an important goal for 
OPM. The development and proper deployment of cyber will require fast-
thinking, intelligent minds at the helm in order to tap into the vast 
potential for the skillful harnessing of cyber's possibilities. The 
demand for cyber skills is real--the Bureau of Labor Statistics 
projects that computer occupations will grow by 18 percent between 
2012-2022, while all other occupations will grow by 11 percent. This is 
why OPM supports the Governmentwide development of qualified Federal 
cyber personnel through workforce planning, recruitment, training and 
development and other initiatives. This development is informed by 
routine data analysis that OPM conducts to assess the needs arising out 
of the Federal cyber workforce, as well as agency progress toward 
meeting cyber workforce targets. In addition, OPM has launched the 
first-ever complete inventory of all cyber positions in the Federal 
Government, to be housed in our Enterprise Human Resources Information 
(EHRI) system. Agencies are currently working to populate this database 
with a designation code for all positions that conduct work related to 
cybersecurity. Through the EHRI data set, OPM and agencies will have 
clearer visibility on current and projected cyber workforce needs.
    OPM is the lead agency to meet the Office of Management and 
Budget's (OMB's) Cross Agency Priority Goal to close critical skills 
gaps in the Federal workforce, and has partnered with relevant 
interagency councils and working groups to design the most effective 
strategies to address cyber workforce needs. Further, OPM, in our 
continued support of the White House's 25 Point Implementation Plan To 
Reform Federal IT Management, has developed the IT Program Management 
Career Path Guide and recommended training curriculum for the newly 
established IT Program Management job title. OPM worked closely with 
the Chief Information Officers (CIO) Council and OMB on this project. 
The final product provides guidance to Federal agencies on the creation 
and improvement of the IT Program Management career path at each 
agency.
    OPM continues to support the National Science Foundation's 
administration of the CyberCorps Scholarship for Service (SFS) program. 
The SFS program awards scholarships to students pursuing a degree in 
cybersecurity. In exchange for the scholarship, students agree to work 
for the Government in a cybersecurity position. OPM provides program 
guidance, monitors student progress, hosts virtual career fairs, 
participates in the planning and execution of live job fairs, and 
markets the SFS program to students and Federal agencies. In January 
2014, the annual job fair attracted more than 400 students, who had the 
opportunity to network with recruitment representatives from over 40 
Federal agencies. Since 2002, more than 1,500 students have graduated 
and gone to work for over 130 different agencies and sub-agencies in a 
variety of occupations such as IT management, computer scientist, and 
computer engineer.
    OPM realizes that agencies may need to take advantage of existing 
flexibilities to meet their hiring needs. To this end, OPM has 
partnered with the CIO Council to ensure there is a broad understanding 
of the various hiring and pay authorities available to attract and hire 
the talent needed. Over the years, OPM has provided agencies with a 
number of expedited hiring authorities where suitable justification has 
been given. This includes Governmentwide Direct-Hire Authority for 
cybersecurity professionals, at grade 9 and above, in the Information 
Technology Management series (Information Security). OPM has also 
helped agencies cut down on the timeline of an average hire from the 
posting of a vacancy announcement to bringing employees on board. OPM 
is also committed to ensuring that agencies are aware of the services 
OPM can offer in crafting job opportunity announcements in a manner 
that nets them the best possible candidates. OPM, through both our 
public policy function and our reimbursable services offered via USA 
Staffing, can help agencies develop and post clear and attractive job 
opportunity announcements. With well written job opportunity 
announcements, agencies can both find superior candidates for the job 
and achieve quick, timely hiring. We recommend that agencies take 
advantage of OPM's expertise as a resource when beginning their 
candidate search.
    Agencies have a number of existing pay and leave flexibilities at 
their disposal that can be used to recruit and retain cyber personnel. 
This includes the ability to set pay above the minimum rate for newly 
hired cyber employees with superior qualifications or who are filling a 
special agency need; recruitment and retention incentives; enhanced 
annual leave accrual rate; student loan repayments; as well as general 
workplace flexibilities including telework and alternative work 
schedules. In addition, OPM is ready to work with agencies to consider 
providing special rates or critical position pay. Special rates are 
intended to address significant or likely significant agency handicaps 
in recruiting or retaining qualified employees. Similarly, the critical 
position pay authority requires individuals to possess an extremely 
high level of expertise in scientific or technical fields. Agencies 
must show that a position being considered for higher compensation 
under critical position pay is critical to the agency's successful 
accomplishment of an important mission. Further, the critical position 
pay authority may only be used to the extent necessary to recruit or 
retain an individual exceptionally well qualified for the position.
    Overall, OPM is supporting the development of Governmentwide 
enterprise training and resource exchanges across agencies as called 
for in the President's fiscal year 2015 budget. For example, OPM will 
develop university partnerships that increase access for Federal 
employees to affordable education and training that is targeted to the 
Federal Government's priority skills needs, such as science, 
technology, engineering, and mathematics. These partnerships will 
enable Federal occupational and human resources leaders to work with 
post-secondary institutions to target curriculum to emerging skills 
needs in the Federal Government.
    Working with agencies to address their cyber workforce needs 
requires anticipating workforce challenges and creating a culture of 
excellence and engagement to enable higher performance. To this end, 
three initiatives have been identified as possible positive courses of 
action. While each of these initiatives can apply outside of the cyber 
workforce, each can appropriately be used to address agencies' cyber 
workforce needs. We are still in the vetting stage, but we think these 
ideas have promise.
    The first idea is the establishment of a cross-Government talent 
exchange program called GovConnect. GovConnect would be designed to 
help all agencies test and scale talent exchange programs and enable 
employees to find project-based rotational assignments and enable 
managers to reach into the broader Federal workforce to fill critical 
skills needs. GovConnect would seek to create a more mobile and agile 
workforce through communities of practice that can share ideas and 
solutions with each other through online networking.
    Secondly, OPM is working on a reimbursable learning and development 
resource exchange called GovU. GovU would be modeled off OPM's Human 
Resources University (HRU). HRU has, at its core, a collaborative model 
for the sharing of training and development resources across the 
Federal Government. OPM hopes to continue in this model with GovU by 
enabling agencies to share training and development resources to meet 
common needs. To facilitate this, OPM is collaborating with the Chief 
Human Capital Officers' Council and the Chief Learning Officers' 
Council to create an operational project plan.
    Finally, training and development resources are critical tools in 
employee growth, and OPM is reviewing these resources to ensure they 
are consistently excellent and easily accessible Governmentwide. 
Further, through increased training and development comes greater 
accountability from and higher performance expectations for Federal 
employees. As capabilities and credibility are enhanced, efforts are 
needed to incorporate continuous improvement in the education 
opportunities and tools available to Federal employees.
    OPM will continue to work with agencies, and with our labor 
partners, and other stakeholders to utilize existing recruitment and 
retention tools and to explore whether additional flexibilities are 
warranted to address IT workforce needs. OPM will continue to help 
agencies enhance the management and performance of their workforce by 
sharing best practices and leadership development resources. These 
efforts will help ensure that we build and develop a Federal IT 
workforce that is engaged, inclusive, and high performing in order to 
meet the challenges of both today and tomorrow.
    Thank you for inviting me here today, and I am happy to address any 
questions you may have.

    Senator Udall. Thank you very much for your testimony.
    Mr. Powner, I now invite you to present your remarks on 
behalf of the GAO.
STATEMENT OF HON. DAVID POWNER, DIRECTOR, INFORMATION 
            TECHNOLOGY ISSUES, GOVERNMENT 
            ACCOUNTABILITY OFFICE
    Mr. Powner. Chairman Udall, Ranking Member Johanns, 
Chairwoman Mikulski, we appreciate the opportunity to testify 
on how the Federal Government can better manage its annual $80 
billion investment in information technology. Of this $80 
billion, three-quarters is spent on operational or legacy 
systems while the remaining goes toward new development. 
Therefore, it is vitally important that new systems 
acquisitions are managed and governed effectively, and that the 
Federal Government finds more efficient ways to deliver 
existing services.
    Over the past 5 years, OMB has initiated excellent efforts 
to do just that. This morning, I would like to highlight four 
significant initiatives, the IT Dashboard, TechStat sessions, 
data center consolidation, and PortfolioStat. For each, I will 
highlight accomplishments to date, but also what needs to be 
done to get even more out of these initiatives.

                    INFORMATION TECHNOLOGY DASHBOARD

    Starting with the Dashboard, the IT Dashboard was put in 
place to highlight the status and CIO assessments of 
approximately 750 major IT investments across 27 departments. 
This public dissemination of each project's status is intended 
to allow OMB and the Congress to hold agencies accountable for 
results and performance.
    The accuracy of the information on the Dashboard has 
improved over time with certain agencies reporting more 
accurately than others.
    Here is what the Dashboard tells us: As this chart 
indicates, of the 750 major investments, 560 are in green 
status, 116 are in yellow, and 40 are in red.
    So we have about 200 projects, Mr. Chairman, that you 
mentioned that total about $12 billion that are at risk and 
need attention.
    Only eight agencies report red or high-risk projects. 
Nineteen agencies do not have high-risk projects, according to 
the Dashboard, including the Department of Defense (DOD), the 
Department of the Treasury, OPM, and GSA.
    Senator Mikulski. Did you say they don't?
    Mr. Powner. They do not. So if you go to the Dashboard 
right now, DOD does not have any reds listed.
    Mr. Chairman, there are three things that need to happen to 
make the Dashboard a better accountability mechanism.
    One, all major investments need to be listed on the 
Dashboard. Our work has shown that several investments, like 
the Department of Energy's (DOE's) supercomputers, are not 
listed on the Dashboard.
    Two, ratings need to be even more accurately reported. 
There are clearly more than 200 projects that are high- or 
medium-risk.
    And then three, OMB and agencies need to aggressively 
govern the at-risk investments using TechStat sessions.

                         OMB TECHSTAT MEETINGS

    TechStat sessions are OMB meetings initiated in 2010 to 
turn around troubled IT investments that were failing or not 
producing results. OMB held about 80 of these meetings and had 
great results. That included scaling back projects and even 
terminating failing projects.
    OMB subsequently empowered CIOs to hold their own TechStat 
sessions within their respective agencies, a move we agree 
with, but we also strongly think that OMB should hold TechStat 
sessions on a selective basis for high-risk or troubled 
projects and for projects that are top national priorities.
    OMB recently told us that they held two TechStat sessions 
in 2013. Clearly, this is not enough.

                       DATA CENTER CONSOLIDATION

    Now turning to how we better manage operational systems, 
OMB started a data center consolidation effort in 2010 to 
address the Government's low server utilization rates, 
estimated between 10 and 15 percent, far from the industry 
standard of 60 percent.
    This effort was also to result in $3 billion in savings 
across all the departments. Our ongoing work shows that there 
are currently 7,500 data centers, about 750 of those have been 
consolidated or closed to date. There are over $1.3 billion in 
savings that have resulted from this, and agencies estimate 
another $3 billion in savings in fiscal years 2014 and 2015. 
Therefore, expected savings through fiscal year 2015 should be 
around $4.5 billion. Better transparency on the savings is 
needed, in our opinion.

                        PORTFOLIOSTAT INITIATIVE

    I would like to commend the subcommittee for requiring this 
quarterly report from OMB on IT reform savings. OMB recently 
expanded the data center consolidation effort into a larger 
initiative called PortfolioStat to eliminate additional 
duplicative spending of administrative and business systems. In 
its quarterly report to this committee, OMB reports they have 
achieved $1.9 billion in savings through this initiative 
through 2013, and that the target is $2.5 billion. The target 
should be much higher.
    Based on our work, there are over 200 PortfolioStat 
initiatives that agencies are working on to eliminate at least 
$5.5 billion in duplicative spending. It is critical that these 
200 initiatives are driven to closure so that the $5 billion in 
savings can be achieved.
    In summary, Mr. Chairman, the tremendous transparency that 
the Dashboard provides needs to be even more effectively used 
to lessen risk and failures on large IT acquisitions, and both 
the data center consolidation and PortfolioStat processes need 
to build off their initial successes to achieve savings that 
collectively tally about $10 billion.

                           PREPARED STATEMENT

    Thank you for your oversight of these important issues, and 
we look forward to working with you further.
    [The statement follows:]
                Prepared Statement of Hon. David Powner
    Chairman Udall, Ranking Member Johanns, and members of the 
subcommittee, I am pleased to be here today to discuss how best 
practices and major information technology (IT) reform initiatives can 
help the Federal Government better acquire and manage IT investments. 
As reported to the Office of Management and Budget (OMB), Federal 
agencies plan to spend at least $82 billion on IT in fiscal year 2014. 
Given the scale of such planned outlays and the criticality of many of 
these systems to the health, economy, and security of the Nation, it is 
important that OMB and Federal agencies provide appropriate oversight 
and transparency into these programs and avoid duplicative investments, 
whenever possible, to ensure the most efficient use of resources.
    However, as we have previously reported and testified, Federal IT 
projects too frequently fail and incur cost overruns and schedule 
slippages while contributing little to mission-related outcomes.\1\ 
During the past several years, we have issued multiple reports and 
testimonies on best practices for major acquisitions and Federal 
initiatives to acquire and improve the management of IT investments.\2\ 
In those reports, we made numerous recommendations to Federal agencies 
and OMB to further enhance the management and oversight of IT programs.
---------------------------------------------------------------------------
    \1\ See, for example, Government Accountability Office (GAO), 
Information Technology: OMB and Agencies Need To More Effectively 
Implement Major Initiatives To Save Billions of Dollars, GAO-13-796T 
(Washington, DC: July 25, 2013); Secure Border Initiative: DHS Needs To 
Reconsider Its Proposed Investment in Key Technology Program, GAO-10-
340 (Washington, DC: May 5, 2010); and Polar-Orbiting Environmental 
Satellites: With Costs Increasing and Data Continuity at Risk, 
Improvements Needed in Tri-agency Decision Making, GAO-09-564 
(Washington, DC: June 17, 2009).
    \2\ See, for example, GAO, Information Technology: Leveraging Best 
Practices To Help Ensure Successful Major Acquisitions, GAO-14-183T 
(Washington, DC: Nov. 13, 2013); Information Technology: Additional 
Executive Review Sessions Needed To Address Troubled Projects, GAO-13-
524 (Washington, DC: June 13, 2013); Data Center Consolidation: 
Strengthened Oversight Needed To Achieve Billions of Dollars in 
Savings, GAO-13-627T (Washington, DC: May 14, 2013); Data Center 
Consolidation: Strengthened Oversight Needed To Achieve Cost Savings 
Goal, GAO-13-378 (Washington, DC: Apr. 23, 2013); Information 
Technology Dashboard: Opportunities Exist To Improve Transparency and 
Oversight of Investment Risk at Select Agencies, GAO-13-98 (Washington, 
DC: Oct. 16, 2012); Data Center Consolidation: Agencies Making Progress 
on Efforts, but Inventories and Plans Need To Be Completed, GAO-12-742 
(Washington, DC: July 19, 2012); Information Technology: Critical 
Factors Underlying Successful Major Acquisitions, GAO-12-7 (Washington, 
DC: Oct. 21, 2011); Information Technology: Continued Attention Needed 
To Accurately Report Federal Spending and Improve Management, GAO-11-
831T (Washington, DC: July 14, 2011); and Information Technology: 
Investment Oversight and Management Have Improved but Continued 
Attention Is Needed, GAO-11-454T (Washington, DC: Mar. 17, 2011).
---------------------------------------------------------------------------
    As discussed with subcommittee staff, I am testifying today on the 
results and recommendations from our selected reports on how best 
practices and IT reform initiatives can help Federal agencies better 
manage major acquisitions and legacy investments. All work on which 
this testimony is based was performed in accordance with generally 
accepted Government auditing standards or all sections of the 
Government Accountability Office's (GAO's) Quality Assurance Framework 
that were relevant to our objectives. Those standards and the framework 
require that we plan and perform our audits and engagements to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives; the framework 
also requires that we discuss any limitations in our work. We believe 
that the information, data, and evidence obtained and the analysis 
conducted provide a reasonable basis for our findings and conclusions 
based on our objectives. A more detailed discussion of the objectives, 
scope, and methodology of this work is included in each of the reports 
on which this testimony is based.\3\
---------------------------------------------------------------------------
    \3\ GAO, Information Technology: Additional OMB and Agency Actions 
are Needed To Achieve Portfolio Savings, GAO-14-65 (Washington, DC: 
Nov. 6, 2013); IT Dashboard: Agencies Are Managing Investment Risk, but 
Related Ratings Need To Be More Accurate and Available, GAO-14-64 
(Washington, DC: Dec. 12, 2014); GAO-13-524; GAO-13-378; GAO-13-98; 
GAO-12-742; Information Technology Reform: Progress Made; More Needs To 
Be Done To Complete Actions and Measure Results, GAO-12-461 
(Washington, DC: Apr. 26, 2012); IT Dashboard: Accuracy Has Improved, 
and Additional Efforts Are Under Way To Better Inform Decision Making, 
GAO-12-210 (Washington, DC: Nov. 7, 2011); GAO-12-7; Data Center 
Consolidation: Agencies Need To Complete Inventories and Plans To 
Achieve Expected Savings, GAO-11-565 (Washington, DC: July 19, 2011); 
Information Technology: OMB Has Made Improvements to Its Dashboard, but 
Further Work Is Needed by Agencies and OMB To Ensure Data Accuracy, 
GAO-11-262 (Washington, DC: Mar. 15, 2011); and Information Technology: 
OMB's Dashboard Has Increased Transparency and Oversight, but 
Improvements Needed, GAO-10-701 (Washington, DC: July 16, 2010).
---------------------------------------------------------------------------
                               background
    Information technology should enable Government to better serve the 
American people. However, despite spending hundreds of billions on IT 
since 2000, the Federal Government has experienced failed IT projects 
and has achieved little of the productivity improvements that private 
industry has realized from IT. Too often, Federal IT projects run over 
budget, behind schedule, or fail to deliver results. In combating this 
problem, proper oversight is critical.
    Both OMB and Federal agencies have key roles and responsibilities 
for overseeing IT investment management and OMB is responsible for 
working with agencies to ensure investments are appropriately planned 
and justified. However, as we have described in numerous reports,\4\ 
although a variety of best practices exist to guide their successful 
acquisition, Federal IT projects too frequently incur cost overruns and 
schedule slippages while contributing little to mission-related 
outcomes.
---------------------------------------------------------------------------
    \4\ See, for example, GAO, FEMA: Action Needed To Improve 
Administration of the National Flood Insurance Program, GAO-11-297 
(Washington, DC: June 9, 2011); GAO-10-340; Secure Border Initiative: 
DHS Needs To Address Testing and Performance Limitations That Place Key 
Technology Program at Risk, GAO-10-158 (Washington, DC: Jan. 29, 2010); 
and GAO-09-564.
---------------------------------------------------------------------------
    Agencies have reported that poor-performing projects have often 
used a ``big bang'' approach--that is, projects that are broadly scoped 
and aim to deliver capability several years after initiation. For 
example, in 2009 the Defense Science Board reported that the Department 
of Defense's (Defense's) acquisition process for IT systems was too 
long, ineffective, and did not accommodate the rapid evolution of 
IT.\5\ The board reported that the average time to deliver an initial 
program capability for a major IT system acquisition at Defense was 
over 7 years.
---------------------------------------------------------------------------
    \5\ Defense Science Board, Report of the Defense Science Board Task 
Force on Department of Defense Policies and Procedures for the 
Acquisition of Information Technology (Washington, DC: March 2009).
---------------------------------------------------------------------------
    Each year, OMB and Federal agencies work together to determine how 
much the Government plans to spend on IT projects and how these funds 
are to be allocated. As reported to OMB, Federal agencies plan to spend 
more than $82 billion on IT investments in fiscal year 2014, which is 
the total expended for not only acquiring such investments, but also 
the funding to operate and maintain them. Of the reported amount, 26 
Federal agencies \6\ plan to spend about $75 billion, $17 billion on 
development and acquisition and $58 billion on operations and 
maintenance (O&M).\7\ Figure 1 shows the percentages of total planned 
spending for 2014 for the $75 million spent on development and O&M.
---------------------------------------------------------------------------
    \6\ The 26 agencies are the Departments of Agriculture, Commerce, 
Defense, Education, Energy, Health and Human Services, Homeland 
Security, Housing and Urban Development, Interior, Justice, Labor, 
State, Transportation, the Treasury, and Veterans Affairs; 
Environmental Protection Agency, General Services Administration, 
National Aeronautics and Space Administration, National Archives and 
Records Administration, National Science Foundation, Nuclear Regulatory 
Commission, Office of Personnel Management, Small Business 
Administration, Smithsonian Institution, Social Security 
Administration, and U.S. Agency for International Development.
    \7\ According to the analytical perspectives associated with the 
President's fiscal year 2014 budget, the remainder is comprised of 
classified Department of Defense (DOD) IT investments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, this $75 billion does not reflect the spending of the 
entire Federal Government. We have previously reported that OMB's 
figure understates the total amount spent in IT investments.\8\ 
Specifically, it does not include IT investments by 58 independent 
executive branch agencies, including the Central Intelligence Agency, 
or by the legislative or judicial branches. Further, agencies differed 
on what they considered an IT investment; for example, some have 
considered research and development systems as IT investments, while 
others have not. As a result, not all IT investments are included in 
the Federal Government's estimate of annual IT spending. OMB provided 
guidance to agencies on how to report on their IT investments, but this 
guidance did not ensure complete reporting or facilitate the 
identification of duplicative investments. Consequently, we 
recommended, among other things, that OMB improve its guidance to 
agencies on identifying and categorizing IT investments.
---------------------------------------------------------------------------
    \8\ GAO, Information Technology: OMB Needs To Improve Its Guidance 
on IT Investments, GAO-11-826 (Washington, DC: Sept. 29, 2011).
---------------------------------------------------------------------------
    Further, over the past several years, we have reported that overlap 
and fragmentation among Government programs or activities could be 
harbingers of unnecessary duplication.\9\ Thus, the reduction or 
elimination of duplication, overlap, or fragmentation could potentially 
save billions of tax dollars annually and help agencies provide more 
efficient and effective services.
---------------------------------------------------------------------------
    \9\ GAO, 2013 Annual Report: Actions Needed To Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-13-279SP (Washington, DC: Apr. 9, 2013); 2012 Annual 
Report: Opportunities To Reduce Duplication, Overlap and Fragmentation, 
Achieve Savings, and Enhance Revenue, GAO-12-342SP (Washington, DC: 
Feb. 28, 2012); and Opportunities To Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011).
---------------------------------------------------------------------------
     omb has launched major initiatives for overseeing investments
    OMB has implemented a series of initiatives to improve the 
oversight of underperforming investments, more effectively manage IT, 
and address duplicative investments. These efforts include the 
following:
  --IT Dashboard.--Given the importance of transparency, oversight, and 
        management of the Government's IT investments, in June 2009, 
        OMB established a public Web site, referred to as the IT 
        Dashboard, that provides detailed information on 760 major IT 
        investments at 27 Federal agencies, including ratings of their 
        performance against cost and schedule targets. The public 
        dissemination of this information is intended to allow OMB; 
        other oversight bodies, including Congress; and the general 
        public to hold agencies accountable for results and 
        performance. Among other things, agencies are to submit Chief 
        Information Officer (CIO) ratings, which, according to OMB's 
        instructions, should reflect the level of risk facing an 
        investment on a scale from 1 (high risk) to 5 (low risk) 
        relative to that investment's ability to accomplish its goals. 
        Ultimately, CIO ratings are assigned colors for presentation on 
        the Dashboard, according to the five-point rating scale, as 
        illustrated in table 1.

TABLE 1--IT DASHBOARD CIO RATING COLORS, BASED ON A FIVE-POINT SCALE FOR
                               CIO RATINGS
------------------------------------------------------------------------
          Rating (by agency CIO)                        Color
------------------------------------------------------------------------
1--High risk..............................  Red
2--Moderately high risk...................  Red
3--Medium risk............................  Yellow
4--Moderately low risk....................  Green
5--Low risk...............................  Green
------------------------------------------------------------------------
Source: OMB's IT Dashboard.

    As of April 2014, according to the IT Dashboard, 201 of the Federal 
Government's 760 major IT investments--totaling $12.4 billion--were in 
need of management attention (rated ``yellow'' to indicate the need for 
attention or ``red'' to indicate significant concerns). (See figure 2.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  --TechStat Reviews.--In January 2010, the Federal CIO began leading 
        TechStat sessions--face-to-face meetings to terminate or 
        turnaround IT investments that are failing or are not producing 
        results. These meetings involve OMB and agency leadership and 
        are intended to increase accountability and transparency and 
        improve performance. Subsequently, OMB empowered agency CIOs to 
        hold their own TechStat sessions within their respective 
        agencies. According to the former Federal CIO, the efforts of 
        OMB and Federal agencies to improve management and oversight of 
        IT investments have resulted in almost $4 billion in savings.
  --Federal Data Center Consolidation Initiative.--Concerned about the 
        growing number of Federal data centers, in February 2010 the 
        Federal CIO established the Federal Data Center Consolidation 
        Initiative. This initiative's four high-level goals are to 
        promote the use of ``green IT'' \10\ by reducing the overall 
        energy and real estate footprint of Government data centers; 
        reduce the cost of data center hardware, software, and 
        operations; increase the overall IT security posture of the 
        Government; and shift IT investments to more efficient 
        computing platforms and technologies. OMB believes that this 
        initiative has the potential to provide about $3 billion in 
        savings by the end of 2015.
---------------------------------------------------------------------------
    \10\ ``Green IT'' refers to environmentally sound computing 
practices that can include a variety of efforts, such as using energy 
efficient data centers, purchasing computers that meet certain 
environmental standards, and recycling obsolete electronics.
---------------------------------------------------------------------------
  --PortfolioStat.--In order to eliminate duplication, move to shared 
        services, and improve portfolio management processes, in March 
        2012, OMB launched the PortfolioStat initiative. Specifically, 
        PortfolioStat requires agencies to conduct an annual agency-
        wide IT portfolio review to, among other things, reduce 
        commodity IT \11\ spending and demonstrate how their IT 
        investments align with the agency's mission and business 
        functions.\12\ PortfolioStat is designed to assist agencies in 
        assessing the current maturity of their IT investment 
        management process, making decisions on eliminating duplicative 
        investments, and moving to shared solutions in order to 
        maximize the return on IT investments across the portfolio. OMB 
        believes that the PortfolioStat effort has the potential to 
        save the Government $2.5 billion over the next 3 years by, for 
        example, consolidating duplicative systems.
---------------------------------------------------------------------------
    \11\ According to OMB, commodity IT includes services such as 
enterprise IT systems (e-mail; identity and access management; IT 
security; Web hosting, infrastructure, and content; and collaboration 
tools); IT infrastructure (desktop systems, mainframes and servers, 
mobile devices, and telecommunications); and business systems 
(financial management, grants-related Federal financial assistance, 
grants-related transfer to State and local governments, and human 
resources management systems).
    \12\ OMB, Implementing PortfolioStat, Memorandum, M-12-10 
(Washington DC: Mar. 30, 2012).
---------------------------------------------------------------------------
    opportunities exist to improve acquisition and management of it 
                              investments
    Given the magnitude of the Federal Government's annual IT budget, 
which is expected to be more than $82 billion in fiscal year 2014, it 
is important that agencies leverage all available opportunities to 
ensure that their IT investments are acquired in the most effective 
manner possible. To do so, agencies can rely on IT acquisition best 
practices and initiatives such as OMB's IT Dashboard, and OMB-mandated 
TechStat sessions. Additionally, agencies can save billions of dollars 
by continuing to consolidate Federal data centers and by eliminating 
duplicative investments through OMB's PortfolioStat initiative.
Best Practices Are Intended To Help Ensure Successful Major 
        Acquisitions
    In 2011, we identified seven successful acquisitions and nine 
common factors critical to their success, and noted that the factors 
support OMB's objective of improving the management of (1) large-scale 
IT acquisitions across the Federal Government, and (2) wide 
dissemination of these factors could complement OMB's efforts.\13\ 
Specifically, we reported that Federal agency officials identified 
seven successful acquisitions, in that they best achieved their 
respective cost, schedule, scope, and performance goals.\14\ Notably, 
all of these were smaller increments, phases, or releases of larger 
projects. The common factors critical to the success of three or more 
of the seven acquisitions are generally consistent with those developed 
by private industry and are identified in the following list of common 
critical success factors:
---------------------------------------------------------------------------
    \13\ GAO-12-7.
    \14\ The seven investments were (1) the Department of Commerce's 
Decennial Response Integration System, (2) Defense's Defense Global 
Combat Support System-Joint (Increment 7), (3) the Department of 
Energy's Manufacturing Operations Management Project, (4) the 
Department of Homeland Security's Western Hemisphere Travel Initiative, 
(5) the Department of Transportation's Integrated Terminal Weather 
System, (6) the Internal Revenue Service's Customer Account Data Engine 
2, and (7) the Veterans Affairs Occupational Health Recordkeeping 
System.
---------------------------------------------------------------------------
  --Program officials were actively engaged with stakeholders.
  --Program staff had the necessary knowledge and skills.
  --Senior department and agency executives supported the programs.
  --End users and stakeholders were involved in the development of 
        requirements.
  --End users participated in testing of system functionality prior to 
        formal end user acceptance testing.
  --Government and contractor staff were consistent and stable.
  --Program staff prioritized requirements.
  --Program officials maintained regular communication with the prime 
        contractor.
  --Programs received sufficient funding.
    (Source: GAO analysis of agency data.)

    These critical factors support OMB's objective of improving the 
management of large-scale IT acquisitions across the Federal 
Government; wide dissemination of these factors could complement OMB's 
efforts.
IT Dashboard Can Improve the Transparency into and Oversight of Major 
        IT Investments
    The IT Dashboard serves an important role in allowing OMB and other 
oversight bodies to hold agencies accountable for results and 
performance. However, we have issued a series of reports highlighting 
deficiencies with the accuracy and reliability of the data reported on 
the Dashboard.\15\ For example, we reported in October 2012 that 
Defense had not rated any of its investments as either high or 
moderately high risk and that in selected cases, these ratings did not 
appropriately reflect significant cost, schedule, and performance 
issues reported by GAO and others. We recommended that Defense ensure 
that its CIO ratings reflect available investment performance 
assessments and its risk management guidance. Defense concurred and has 
revised its process to address these concerns.
---------------------------------------------------------------------------
    \15\GAO-14-64; GAO-13-98; GAO-12-210; GAO-11-262; and GAO-10-701.
---------------------------------------------------------------------------
    Further, while we reported in 2011 that the accuracy of Dashboard 
cost and schedule data had improved over time,\16\ more recently, in 
December 2013 we found that agencies had removed investments from the 
Dashboard by reclassifying their investments--representing a troubling 
trend toward decreased transparency and accountability.\17\ 
Specifically, the Department of Energy reclassified several of its 
supercomputer investments from IT to facilities and the Department of 
Commerce decided to reclassify its satellite ground system investments. 
Additionally, as of December 2013, the public version of the Dashboard 
was not updated for 15 of the previous 24 months because OMB does not 
revise it as the President's budget request is being created.
---------------------------------------------------------------------------
    \16\ GAO-12-210.
    \17\ GAO-14-64.
---------------------------------------------------------------------------
    We also found that, while agencies experienced several issues with 
reporting the risk of their investments, such as technical problems and 
delayed updates to the Dashboard, the CIO ratings were mostly or 
completely consistent with investment risk at seven of the eight 
selected agencies.\18\ Additionally, the agencies had already addressed 
several of the discrepancies that we identified. The final agency, the 
Department of Veterans Affairs, did not update 7 of its 10 selected 
investments because it elected to build, rather than buy, the ability 
to automatically update the Dashboard, and has now resumed updating all 
investments. To their credit, agencies' continued attention to 
reporting the risk of their major IT investments supports the 
Dashboard's goal of providing transparency and oversight of Federal IT 
investments.
---------------------------------------------------------------------------
    \18\ The Departments of Agriculture, Commerce, Energy, Justice, 
Transportation, the Treasury, and Veterans Affairs; and the Social 
Security Administration.
---------------------------------------------------------------------------
    Nevertheless, the rating issues that we identified with performance 
reporting and annual baselining,\19\ some of which are now corrected, 
serve to highlight the need for agencies' continued attention to the 
timeliness and accuracy of submitted information, in order to allow the 
Dashboard to continue to fulfill its stated purpose. We recommended 
that agencies appropriately categorize IT investments and that OMB make 
Dashboard information available independent of the budget process. OMB 
neither agreed nor disagreed with these recommendations. Six agencies 
generally agreed with the report or had no comments and two others did 
not agree, believing their categorizations were appropriate. We 
continue to believe that our recommendations are valid.
---------------------------------------------------------------------------
    \19\ At times, a project's cost, schedule, and performance goals--
known as its baseline--are modified to reflect changed development 
circumstances. These changes--called a rebaseline--can be done for 
valid reasons, but can also be used to mask cost overruns and schedule 
delays.
---------------------------------------------------------------------------
TechStat Reviews Can Help Highlight and Evaluate Poorly Performing 
        Investments
    TechStat reviews were initiated by OMB to enable the Federal 
Government to turnaround, halt, or terminate IT projects that are 
failing or are not producing results. In 2013, we reported that OMB and 
selected agencies had held multiple TechStats, but that additional OMB 
oversight was needed to ensure that these meetings were having the 
appropriate impact on underperforming projects and that resulting cost 
savings were valid.\20\ Specifically, we determined that as of April 
2013, OMB reported conducting 79 TechStats, which focused on 55 
investments at 23 Federal agencies. Further, four selected agencies--
the Departments of Agriculture, Commerce, Health and Human Services 
(HHS), and Homeland Security (DHS)--conducted 37 TechStats covering 28 
investments. About 70 percent of the OMB-led and 76 percent of agency-
led TechStats on major investments were considered medium to high risk 
at the time of the TechStat.
---------------------------------------------------------------------------
    \20\ GAO-13-524.
---------------------------------------------------------------------------
    However, the number of at-risk TechStats held was relatively small 
compared to the current number of medium- and high-risk major IT 
investments. Specifically, the OMB-led TechStats represented roughly 
18.5 percent of the investments across the Government that had a 
medium- or high-risk CIO rating. For the four selected agencies, the 
number of TechStats represented about 33 percent of the investments 
that have a medium- or high-risk CIO rating. We concluded that until 
OMB and agencies develop plans to address these weaknesses, the 
investments would likely remain at risk.
    In addition, we reported that OMB and selected agencies had tracked 
and reported positive results from TechStats, with most resulting in 
improved governance. Agencies also reported projects with accelerated 
delivery, reduced scope, or termination. We also found that OMB 
reported in 2011 that Federal agencies achieved almost $4 billion in 
lifecycle cost savings as a result of TechStat sessions. However, we 
were unable to validate OMB's reported results because OMB did not 
provide artifacts showing that it ensured the results were valid. Among 
other things, we recommended that OMB require agencies to report on how 
they validated the outcomes. OMB generally agreed with this 
recommendation.
Continued Oversight Needed To Consolidate Federal Data Centers and 
        Achieve Cost Savings
    In an effort to consolidate the growing number of Federal data 
centers, in 2010, OMB launched a consolidation initiative intended to 
close 40 percent of Government data centers by 2015, and, in doing so, 
save $3 billion. Since 2011, we have issued a series of reports on the 
efforts of agencies to consolidate their data centers.\21\ For example, 
in July 2011 and July 2012, we found that agencies had developed plans 
to consolidate data centers; however, these plans were incomplete and 
did not include best practices.\22\ In addition, although we reported 
that agencies had made progress on their data center closures, OMB had 
not determined initiative-wide cost savings, and oversight of the 
initiative was not being performed in all key areas. Among other 
things, we recommended that OMB track and report on key performance 
measures, such as cost savings to date, and improve the execution of 
important oversight responsibilities, and that agencies complete 
inventories and plans. OMB agreed with these two recommendations, and 
most agencies agreed with our recommendations to them.
---------------------------------------------------------------------------
    \21\ GAO-13-378; GAO-12-742; and GAO-11-565.
    \22\ GAO-12-742 and GAO-11-565.
---------------------------------------------------------------------------
    Additionally, as part of ongoing follow-up work, we have determined 
that while agencies had closed data centers, the number of Federal data 
centers was significantly higher than previously estimated by OMB. 
Specifically, as of May 2013, agencies had reported closing 484 data 
centers by the end of April 2013, and were planning to close an 
additional 571 data centers--for a total of 1,055--by September 2014. 
However, as of July 2013, 22 of the 24 agencies participating in the 
initiative had collectively reported 6,836 data centers in their 
inventories--approximately 3,700 data centers more than OMB's previous 
estimate from December 2011. This dramatic increase in the count of 
data centers highlights the need for continued oversight of agencies' 
consolidation efforts.
Agencies' PortfolioStat Efforts Have the Potential To Save Billions of 
        Dollars
    OMB launched the PortfolioStat initiative in March 2012, which 
required 26 executive agencies to, among other things, reduce commodity 
IT spending and demonstrate how their IT investments align with the 
agency's mission and business functions.\23\ In November 2013, we 
reported on agencies' efforts to complete key required PortfolioStat 
actions and make portfolio improvements.\24\ We noted that all 26 
agencies that were required to implement the PortfolioStat initiative 
took actions to address OMB's requirements. However, there were 
shortcomings in their implementation of selected requirements, such as 
addressing all required elements of an action plan to consolidate 
commodity IT, and migrating two commodity areas to a shared service by 
the end of 2012. In addition, several agencies had weaknesses in 
selected areas such as the CIO's authority to review and approve the 
entire portfolio, and ensuring a complete baseline of information 
relative to commodity IT. Further, we observed that OMB's estimate of 
about 100 consolidation opportunities and a potential $2.5 billion in 
savings from the PortfolioStat initiative was understated because, 
among other things, it did not include estimates from Defense and the 
Department of Justice. Our analysis, which included these estimates, 
showed that, collectively, the 26 agencies reported about 200 
opportunities and at least $5.8 billion in potential savings through 
fiscal year 2015, at least $3.3 billion more than the number initially 
reported by OMB.
---------------------------------------------------------------------------
    \23\ OMB, Implementing PortfolioStat, Memorandum M-12-10 
(Washington, DC: Mar. 30, 2012).
    \24\ GAO-14-65.
---------------------------------------------------------------------------
    In March 2013, OMB issued a memorandum commencing the second 
iteration of its PortfolioStat initiative.\25\ This memorandum 
identified a number of improvements that should help strengthen IT 
portfolio management and address key issues we have identified. 
However, we concluded that selected OMB efforts could be strengthened 
to improve the PortfolioStat initiative and ensure agencies achieve 
identified cost savings, including addressing issues related to 
existing CIO authority at Federal agencies, and publicly reporting on 
agency-provided data. We recommended, among other things, that OMB 
require agencies to fully disclose limitations with respect to CIO 
authority. In addition, we made several recommendations to improve 
agencies' implementation of PortfolioStat requirements. OMB partially 
agreed with these recommendations, and responses from 20 of the 
agencies commenting on the report varied.\26\
---------------------------------------------------------------------------
    \25\ OMB, Memorandum for the Heads of Executive Departments and 
Agencies: Fiscal Year 2013 PortfolioStat Guidance: Strengthening 
Federal IT Portfolio Management, M-13-09 (Washington, DC: Mar. 27, 
2013).
    \26\ Of the 20 agencies commenting on the report, 12 agreed with 
our recommendations directed to them, 4 disagreed or partially 
disagreed with our recommendations directed to them, and 4 provided 
additional clarifying information.
---------------------------------------------------------------------------
    In summary, OMB's and agencies' recent efforts have resulted in 
greater transparency and oversight of Federal spending, but continued 
leadership and attention are necessary to build on the progress that 
has been made. The expanded use of the common factors critical to the 
successful management of large-scale IT acquisitions should result in 
more effective delivery of mission-critical systems. Additionally, 
Federal agencies need to continue to improve the accuracy and 
availability of information on the Dashboard to provide greater 
transparency and even more attention to the billions of dollars 
invested in troubled projects. Further, agencies should conduct 
additional TechStat reviews to focus management attention on troubled 
projects and establish clear action items to turn the projects around 
or terminate them.
    The Federal Government can also build on the progress of agencies' 
data center closures and reduction in commodity IT. With the 
possibility of over $5.8 billion in savings from the data center 
consolidation and PortfolioStat initiatives, agencies should continue 
to identify consolidation opportunities in both data centers and 
commodity IT. In addition, better support for the estimates of cost 
savings associated with the opportunities identified would increase the 
likelihood that these savings will be achieved.
    Chairman Udall, Ranking Member Johanns, and members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.
                 Attachment, Highlights of GAO-14-568T
  leveraging best practices and reform initiatives can help agencies 
                       better manage investments
Why GAO Did This Study
    The Federal Government reportedly plans to spend at least $82 
billion on IT in fiscal year 2014. Given the scale of such planned 
outlays and the criticality of many of these systems to the health, 
economy, and security of the Nation, it is important that OMB and 
Federal agencies provide appropriate oversight and transparency into 
these programs and avoid duplicative investments, whenever possible, to 
ensure the most efficient use of resources.
    GAO has previously reported and testified that Federal IT projects 
too frequently fail and incur cost overruns and schedule slippages 
while contributing little to mission-related outcomes. Numerous best 
practices and administration initiatives are available for agencies 
that can help them improve the oversight and management of IT 
acquisitions.
    GAO is testifying today on the results and recommendations from 
selected reports that focused on how best practices and IT reform 
initiatives can help Federal agencies better manage major acquisitions 
and legacy investments.
What GAO Recommends
    GAO has previously made numerous recommendations to OMB and Federal 
agencies on key aspects of IT acquisition management, as well as the 
oversight and management of these investments. In particular, GAO has 
made recommendations regarding the IT Dashboard, efforts to consolidate 
Federal data centers, and PortfolioStat.
What GAO Found
    Information technology (IT) acquisition best practices have been 
developed by both industry and the Federal Government to help guide the 
successful acquisition of investments. For example, GAO recently 
reported on nine critical factors underlying successful major IT 
acquisitions. Factors cited included (1) program officials were 
actively engaged with stakeholders and (2) prioritized requirements.
    One key IT reform initiative undertaken by the Office of Management 
and Budget (OMB) to improve transparency is a public Web site, referred 
to as the IT Dashboard, which provides information on 760 major 
investments at 27 Federal agencies, totaling almost $41 billion. The 
Dashboard also includes ratings of investments risk on a scale from 1 
(high risk) to 5 (low risk). As of April 2014, according to the 
Dashboard, 559 investments were low or moderately low risk (green), 159 
were medium risk (yellow), and 42 were moderately high or high risk 
(red).
    GAO has issued a series of reports on Dashboard accuracy and, in 
2011, found that while there were continued issues with the accuracy 
and reliability of cost and schedule data, the accuracy of these data 
had improved over time. Further, a recent GAO report found that 
selected agencies' ratings were mostly or completely consistent with 
investment risk. However, this report also noted that agencies had 
removed major investments from the IT Dashboard, representing a 
troubling trend toward decreased transparency and accountability. 
Additionally, GAO reported that as of December 2013, the public version 
of the Dashboard was not updated for 15 of the previous 24 months 
because OMB did not revise it as the President's budget request was 
being created. Consequently, GAO made recommendations to improve the 
Dashboard's accuracy, ensure that it includes all major IT investments, 
and increase its availability. Agencies generally agreed with the 
report or had no comments.
    In an effort to consolidate the growing number of Federal data 
centers, OMB launched a consolidation initiative intended to close 40 
percent of Government data centers by 2015, and in doing so, save $3 
billion. GAO reported that agencies planned to close 1,055 data centers 
by the end of fiscal year 2014, but also highlighted the need for 
continued oversight of these efforts. Among other things, GAO 
recommended that OMB improve the execution of important oversight 
responsibilities, with which OMB agreed.
    To better manage the Government's existing IT systems, OMB launched 
the PortfolioStat initiative, which, among other things, requires 
agencies to conduct annual reviews of their IT investments and make 
decisions on eliminating duplication. GAO reported that agencies 
continued to identify duplicative spending as part of PortfolioStat and 
that this initiative has the potential to save at least $5.8 billion by 
fiscal year 2015, but that weaknesses existed in agencies' 
implementation of the initiative's requirements. Among other things, 
GAO made several recommendations to improve agencies' implementation of 
PortfolioStat requirements. OMB partially agreed with these 
recommendations, and most of the other 20 agencies commenting on the 
report also agreed.

                          IT MANAGEMENT MODEL

    Senator Udall. Thank you very much, Mr. Powner, for your 
testimony.
    Let me begin with the questioning here. GSA and OPM have 
either, and this is indicated in the testimony, moved or are 
moving to an IT management model that includes a more robust 
role for their agency CIOs. And the GAO has previously reported 
on ways the chief Federal information officers are impeded in 
their ability to manage or even monitor IT spending within 
their agencies.
    And so I am very interested, since you are all moving down 
this road, how far have you gotten? What percentage of this 
have you done on consolidation? Are your CIOs empowered to 
drive down costs, which seems to be something the GAO has 
talked about over and over again? And are they enabled and 
empowered to create savings within the agencies? And where are 
they right now on this?
    Mr. Tangherlini. I appreciate the question. And GSA, I 
would say that we are 90 percent down the road of 
consolidation, 100 percent down the road on the policy of 
consolidation around the CIO.
    But I think that that is an approach that works 
particularly well for GSA, given our size and the nature of our 
mission.
    As a result of integrating around a single CIO, we have 
been able to focus very intensely on finding the enterprise 
opportunities in each of our investments, and the numbers speak 
for themselves. In the fiscal year 2015 President's budget 
request, we are requesting an 18 percent lower budget than just 
2 years before.
    Again, though, I would say that that has been particularly 
appropriate and effective for GSA because of how we are sized. 
It may or may not be a model useful for other agencies, 
depending on how interrelated their functions are, are there 
similarities between what they do, and how do they deliver 
services.
    Senator Udall. And you have seen significant savings as a 
result of this, that you can identify?
    Mr. Tangherlini. We think the savings comes from a number 
of areas. One, our cloud first policy, which is really focused 
around building off of a policy set by OMB, and Steve's 
leadership has been incredibly important and helpful, has 
reduced the long-term cost of operating of other systems. Our 
data center consolidation efforts, again, led by OMB, supported 
by the great work of David Powner and the GAO, has also reduced 
our long-term operating costs.
    For us, though, the next step in that evolution was really 
getting an enterprise sense of what our IT strategy and 
architecture is. And within GSA, we needed to have a single, 
accountable leader to deliver that.
    Senator Udall. Thank you.

                              IT STRATEGY

    Director Archuleta, the same questions to you. Where are 
you at? What successes have you had? Have you seen concrete 
savings?
    Ms. Archuleta. One of the first things I did, Senator, when 
I came into the position of director of OPM in November was in 
December to hire Donna Seymour as my CIO and to appoint a chief 
technology officer (CTO) for OPM.
    Like Dan's description of what he has been able to 
accomplish at GSA, we may not be as far along, but I think we 
are on the right path.
    We have completed in the first 100 days of my tenure an IT 
strategic plan that lays out six very important pillars that 
match very much what the CIO Council and the leadership, like 
Steve VanRoekel, have given to us.
    First and foremost I put in place IT leadership and IT 
governance to determine how and where the decisions will be 
made for the IT infrastructure investments we will make.
    All projects must meet the standards that both the 
leadership and the governance team have set forth, and they are 
all reviewed by the entire team.
    Like Dan and other agencies throughout Government, we are 
looking at enterprise architecture, and realizing that the 
investments that we make throughout the enterprise have to take 
into consideration not only what the needs are, but the limited 
resources we have available.
    For that reason, Donna and her team are not only focused on 
our immediate needs, but looking into the future, how we can 
make the right investments with the money that is available to 
us.
    I am proud to say that she has taken important steps in 
leading this agency that did not have the leadership that it 
needed in IT. It was an issue during my confirmation, and I am 
pleased to report that we are making headway.
    Senator Udall. Great.

                          CIO BUDGET AUTHORITY

    Mr. Powner, do you believe this concept of giving CIOs 
additional authority over their agency IT spending would 
improve oversight and achieve savings? And do you have any 
response to what the two witnesses have said?
    Mr. Powner. I think, clearly, the CIO authority is a big 
issue in the Federal Government. We saw, Steve and I have 
talked about this, even with the commodity IT. Many CIOs don't 
have authority over all the commodity IT or the business and 
administrative systems.
    Giving them certain budget authority sure would be a game 
changer, no doubt. That would clearly help. It probably would 
help attract a completely different type of CIO to the Federal 
Government, too. So clearly, budget authorities would help.
    But we also, too, see certain agencies that have been very 
successful without budget authorities by establishing the right 
governance processes, in the organization that Dan was 
referring to, where we do see some appropriate governance in 
pockets in the Government.
    I think IRS was mentioned earlier. They were the poster 
child for years, but this committee did a lot with spend plan 
reviews. You got the right people in there. They got the right 
governance. They turned it around. They are one of the better 
IT shops in the Government today.
    Senator Udall. Senator Johanns, would you like to proceed 
at this point?
    Senator Johanns. Thank you, Mr. Chairman.
    Thank you all for being here and your efforts.

                              IT DASHBOARD

    Let me start out with the Dashboard, if I could. If I were 
to just look at that, I would say there are 70 percent of the 
projects that are just proceeding along normally. There are 25 
percent of the projects that need some degree of attention. 
Certainly, not major or it would be in the 5 percent category. 
And only 5 percent of the projects out there are concerning.
    Now you also said, Mr. Powner, that there are certain 
projects that are not included in that, so that is kind of a 
deficiency in what we are trying to accomplish here.
    But how do you explain a situation like healthcare.gov, 
which I think everybody would acknowledge was a bust. Now, I 
appreciate they brought in a bunch of people and fine-tuned it 
or whatever, and saved the day or did their best to save the 
day. In 1 month, it was listed on the Dashboard under red 
during its entire development.
    So I am sitting here with that knowledge saying to myself, 
not only is that Dashboard deficient, because you have a whole 
bunch of stuff going on in the Federal Government that doesn't 
make its way to the Dashboard, but I am also going to tell you, 
and I hope you challenge me on this, I am also going to tell 
you that what finds its way onto Dashboard is jaded. It is not 
accurate. It is being finessed, because either somebody totally 
blew it, and they thought this was normal development, or in 
the alternative, they didn't want anybody to know this thing 
was in crisis through its development.
    Now, I don't care what side of the political spectrum you 
are on, Democrat or Republican, this is embarrassing.

                         IT DASHBOARD ACCURACY

    So, Mr. Powner, explain that to us. How could 
healthcare.gov go through this development, tens of billions of 
dollars spent on it, and 1 month it has a red listing on the 
Dashboard?
    Mr. Powner. I would say this with the Dashboard, so there 
are clearly 200 projects that deserve attention. We can't argue 
that. Our comment is that the work we have done, we looked at 
the accuracy of the Dashboard, some agencies do a much better 
job than others. And it is contingent on strong CIOs having 
review sessions to make sure that what is up here is right. And 
there are pockets of success.
    So what happened with healthcare.gov--and I will say this, 
sometimes bad data is actually good data, from an oversight 
perspective, because it was green, green, green, green. It went 
down March 2013 to red and then right back up to green.
    Well, I can tell you, something goes from green to red 
often, okay, but doesn't go back to green in a month from red. 
That typically hardly ever happens.
    So questions should have been asked there, from a Dashboard 
perspective. I don't think it was green. But again, even the 
bad data there told a story, okay? It is really up to the 
internal processes of those agencies to get this right.
    And what we see are some agencies taking it very seriously, 
and other agencies that aren't.
    And I know, Steve, I probably sound like a broken record, 
but DOD was reporting no red for the last 18 months. That is 
not true. They have many red projects at DOD.
    So there was a recent hearing in front of the Senate Armed 
Services Committee, where DOD not only are they committed now 
to coming up with a Dashboard assessment every 6 months, they 
actually went from 93 investments to 118. They found 25 more 
major investments at DOD to report on the Dashboard.
    So I actually think that is progress. Now, we need to get 
that right. But we are all over the board on this, but we are 
encouraged. Before the Dashboard, we didn't have any of this. 
We didn't have any of this.

                  EXPEDITIONARY COMBAT SUPPORT SYSTEM

    And I will say, the Expeditionary Combat Support System 
(ECSS) project that failed in the Air Force, Chairwoman 
Mikulski, and you mentioned some of the big failures, Steve 
VanRoekel and OMB, they TechStat'ed ECSS three times, so they 
knew something was wrong with ECSS. And it eventually led to 
failure.
    We can't prove that it was TechStat that did it, but the 
Dashboard and the TechStat process that was going on at OMB 
probably saved--$1 billion was wasted on that. But it probably 
saved a lot more money that could have been wasted on ECSS in 
the Air Force.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Senator Johanns. I appreciate that explanation, but I am 
still going to get back to what happened at the Department of 
Health and Human Services (HHS), because I think this is a 
worrisome problem for what you are trying to do here.
    To me, it seems like somebody was pressuring somebody to 
report all was fine. If you are going to make an honest 
assessment of this, you would have thought that you would have 
had red all over the place and people saying, ``Whoa, time out. 
When this thing lights up, it may go down.''
    I mean, think of how poorly this thing worked on the day it 
was supposed to light up, and people couldn't get on it. I will 
never forget that very embarrassing scene for the Secretary of 
Health and Human Services. She is at some event. She has this 
thing lit up, and this notice comes on that it has crashed. It 
just was crazy.
    In 1 month, it has a red rating. That tells me I can't 
trust what you were doing here.
    And so, where is the pressure coming from? Is it the CIO in 
Health and Human Services that is collapsing to the pressure? 
Is the administration saying, ``Look, we can't report that. 
This thing has to roll.''
    And how do you know that when you get to a point that it is 
release date, this thing is ready to go, that it just doesn't 
implode on you, and, therefore, you should not be trying to 
release something that is not ready for prime time?
    Mr. Powner. Well, Senator Johanns, I don't know what 
exactly happened there and who did what when with that. But I 
will say you are absolutely right, when you look at the 
complexity involved, the compressed schedules, the compressed 
testing, it should have been red. You are absolutely right. It 
should have been red.
    Senator Johanns. I appreciate your candor, because I think 
everybody knows that is the obvious answer.
    So I have kind of run out of time here. There will probably 
be another round.
    So thank you, Mr. Chairman.
    Senator Udall. There will be another round.
    Chairwoman Mikulski.
    Senator Mikulski. Mr. Chairman and ranking member, thank 
you very much for holding this hearing.
    This is an excellent panel because, first of all, we have 
GAO, who has continually sounded the alarm on these projects, 
and we are very grateful for the reports.
    Many of us actually read these reports. I know the 
Washington Post says we don't always read them. But I think the 
appropriators really love GAO and inspector general reports, so 
thank you.
    And at this table here, I think we have the right people 
who have the spirit of reform and transformation. So my 
questions will go not so much to fingerpoint, but to pinpoint 
how we can move ahead to clean up any mess that we have and to 
prevent any future messes from happening.
    So let me join some of my colleagues on our skepticism 
because when I hear that DOD, Treasury, and OPM have nothing on 
the Dashboard, when my own constituent service says, 
particularly with DOD and OPM, my dashboard lights up. I know 
these issues here come from two sources. One is we look at 
budgetary constraints, and project after project, big idea, big 
project, big failure, big bucks. And canceled, terminated, 
delayed.

                                BACKLOGS

    But I also have a whole other source of information, people 
who call Senator Barb dot-gov and say I need help. Where are my 
backlogs?
    My caseload in Maryland is exploding on three backlogs: the 
Veterans Affairs (VA) disability backlog, the Social Security 
disability backlog, and the OPM retirement backlog. And then 
when we go to look at these, we find that their roots and 
origin lie in technology.
    So you see where I am coming from. I want to save money, 
and I also want to respond to the mission. So this then takes 
me to--let's go to the veterans backlog.
    You, the VA Committee that is trying to meet this, and they 
work on a bipartisan basis, Senator Johnson, Senator Kirk. Then 
I held a hearing and had General Shinseki, Mr. Hagel, Ms. 
Colvin, and so on. Well, first we found that they weren't 
reporting. And then we find now that DOD and VA have computers 
that don't talk to each other.
    VA and DOD have electronic health records that can't talk. 
In 2008, Congress ordered them to create an interoperable 
system. In 2013, Hagel and Shinseki say they are abandoning the 
effort. The agencies spent $1 billion in 5 years and have 
nothing to show for it.
    And now we hear that the agencies are developing two 
separate systems that aren't sure that they are going to merge 
and talk with each other. And in the meantime, the number of 
Iraq and Afghan vets who are applying for benefits is 
increasing.
    They shouldn't have to stand in line because we can't go 
digital at the VA and have these interoperable systems.
    This is to me a cameo of what is wrong. And I could go to 
OPM. I know you are trying and you have, actually, an excellent 
reform framework here, and I compliment you on it. But your 
records are in a cave in Pennsylvania. Your records are in a 
cave nine stories down in Pennsylvania with a dated, 
dysfunctional system. That is not an accusation. It is not a 
fault. It is a fact.
    And when they try to pull these records up, you know what 
happens. They don't work. They get inaccurate assessments.
    I can tell my colleagues, we have a substantial number of 
Federal retirees in Maryland, because we have the great Federal 
labs, et cetera. So the miscalculations, et cetera. So I can 
come back to you but you are not even on the Dashboard, but you 
are on my dashboard.
    So let's go to the VA.
    Mr. VanRoekel, you are Mr. OMB. You say that OMB needs more 
help because the workload is expanding. I acknowledge that. I 
have talked extensively with Ms. Burwell.
    But tell me, what is the role of OMB, number one, in being 
aware of the problem; number two, correcting the problem? How 
much muscle do you have? How much clout do you have? And how 
could we correct that problem and use that as an example, 
because many of these cut across agency lines?
    Mr. VanRoekel. Thank you, ma'am.

                  PREVENTING MAJOR IT SYSTEM FAILURES

    I think when you mentioned techno-boondoggles earlier, I 
think they have some defining characteristics that we have seen 
time and time again. The private sector has gone through a big 
transition in the last 15 years on its view of technology, 
really going from a very discretionary thing--it was the 
ability to send an e-mail or print a document or call the help 
desk--to this very strategic thing. It is the way you market 
your products. It is the way you control supply and demand and 
inventory and quality, and connect with your customers in 
special ways.
    I contend that the Government is going through that 
transition now, that we are in the midst of that inflection 
point. And the hangover of not being to the other end of that 
inflection is really kind of defined by the boondogglish 
characteristics, which are when faced with a problem, we see a 
single big procurement go out to a typically single, big 
monolithic vendor with a multiyear specification that runs out 
to an end. That tends to lead to a very large failure at the 
end of that, where in year 1, you may have a great idea. In 
year 2, you have no results to show that justifies getting 
funding in out-years.
    And the pace of change of technology, the turnover of 
people in the Government, all these things contribute to not 
leading you to the end result that you want to see.
    And so our first order of business is really thinking about 
how we change that big, monolithic approach into what modern 
Internet companies do today, which is delivering results very, 
very quickly. If you use Facebook, and you go up on Facebook, 
there is probably a new version of Facebook that comes out 
every month or so. They turn over all the time. You just don't 
know it, because you just get to take advantage of that.
    And so bringing that into Government and setting 
Governmentwide policy are core to my direction.
    The second part of this is deeper engagement with agencies. 
The Federal enterprise, a lot of people misconceive that my 
organization is the IT shop on the sixth floor of the building 
and we roll up our sleeves and we sort of dive in. The Federal 
enterprise is practically a sector of the economy. It is so 
large. And the ability for a very modest group at OMB, in small 
double digits on my team, doesn't have the ability to dive in 
and write code and develop solutions.
    What I propose in the 2015 budget is really about how do we 
create a mechanism, instead of reactively when things are going 
wrong, proactively go in and engage with agencies to help them 
right the ship.
    Senator Mikulski. Do you have the authority, the clout, and 
resources to go across the agencies or to pick out something 
that you know that is heading toward a disaster?
    Mr. VanRoekel. I believe I do, yes. I have the authority to 
work with the OMB director and the agencies on formulating the 
President's budget. I have Governmentwide policy authority 
through my role in OMB, and that authority gives me the ability 
to go in and stop projects.
    And as Mr. Powner mentioned, we have done that in agencies 
through the TechStat process.
    But going in reactively is often too late. I think we need 
to go in on these projects like VA----
    Senator Mikulski. Do you have the authority, clout, and 
resources to go in early?
    Mr. VanRoekel.Yes, ma'am.

                      VA DISABILITY CLAIMS BACKLOG

    Senator Mikulski. So what can we do to clean up the VA? Not 
the VA. It goes beyond the VA.
    With the indulgence of my colleagues, because I know how 
passionately you feel about this problem, this veterans' 
disability long line and also the inability of VA to seem to go 
digital.
    I have walked into the Baltimore office, the third worst 
field office in the Nation, trying to correct it. If you look 
at the records of a single event, I am 4'11'' on a good day. 
Some of those records are almost as high as I am. And you have 
dedicated staff foraging through records trying to pluck a 
piece of paper to really be able to process the claim.
    So what can you do about it? And what will you do about it? 
And can I have your word that when you leave here, it will be 
your top priority?
    Mr. VanRoekel. I have a personal interest in the VA. My 
father is probably watching the Webcast right now. He had his 
knee replaced at a Veterans hospital in Sioux Falls, South 
Dakota, a Vietnam vet.
    And I have actually been working with the Department of 
Veterans Affairs on helping shape the direction to take.
    I think it speaks to the chairman's earlier comment around 
CIO authorities. And I think the key thing to consider there is 
that a lot of these programs that are happening in Government 
are not just an IT problem. It is not the CIO. And just giving 
the CIO authority, you are not going to get to where you need 
to go.
    It really takes a collective effort across how we are 
thinking about----
    Senator Mikulski. I need to have three to five concrete 
steps that, Memorial Day, when I go out and talk to my 
veterans, I want to be able to tell them, in addition to the 
bipartisan commitment on spending financial resources to do it, 
that it is going to happen. And you cannot leave this to 
Shinseki and Hagel. And I am not knocking those men, 
whatsoever.
    We have to solve the problem. And if there is one thing the 
Congress of the United States agrees on, on both sides of the 
aisle, on both sides of the dome, no veteran should stand in 
line to have their disability benefit processed.
    So how can we do this? And what would you tell me to tell 
those veterans that we are going to do to do that?
    Mr. VanRoekel. I would say, that, one, I am the Federal CIO 
and committed to working on this, and I welcome working with 
you and your staff and the committee and the larger Congress on 
driving this forward, as well as working with my counterparts 
across Government who play an important role in this, and with 
the Department of Veterans Affairs, the Deputy Secretary of the 
VA. I have had many conversations around the work to be done 
here and thinking about, really, the smart application of 
technology.
    And I think they are making good strides on the veterans 
benefit management system. I think it is a good application of 
process. We need to really deeply look at process. We have been 
working with the department on really rethinking some core 
processes in light of technology.
    And third, it is working with the veteran service 
organization. They are really the frontline, really, of a lot 
of this.
    Senator Mikulski. Right.
    Mr. VanRoekel. And we need a closer working relationship 
with them to encourage all of them to really submit fully 
developed veterans claims electronically, which we have the 
capability to receive from them, but we predominantly still get 
paper through that pipeline. So we inherently create a problem 
by the veteran service organizations, sort of the lack of 
electronic----

                            CIO AUTHORITIES

    Senator Mikulski. Well, I appreciate everything you said. 
My time is up. And in fact, the Chair has been most indulgent 
with my time. And this goes to everybody.
    So all of you and the recommendations of GAO, first of all, 
that is not an accurate number. It doesn't include independent 
agencies. It doesn't include the legislative branch and the 
judicial branch, which in and of itself is something.
    So that is one thing. The underestimation of the problem, I 
think, exists.
    Number two, what I would like to suggest, Mr. Chairman, is 
that we survey the subcommittee chairs and get from the 
subcommittee chairs what they consider the top three issues in 
technology from healthcare.gov, which was brought up, what we 
have in CJS, Veterans, and then do it, and then OPM and your 
situation.
    We have to do this, and I am going to ask you to not put us 
in a priority, but show you the way as we fund this year's 
appropriation, we cannot have waste. And if this were fraud, we 
would say one corrupt contractor. But this is dysfunction. This 
isn't corruption.
    So we need a sense of urgency, which I believe you have. 
And you have people in place now, I believe, that are present, 
so that we can move on this.
    But we cannot tolerate this in this committee. We have to 
get value for the dollar, be accountable to the taxpayers, and 
fulfill the missions of our agencies.
    So let's go forward together.
    Senator Udall. Chairwoman Mikulski, thank you very much. I 
think that is an excellent suggestion, working with our 
subcommittee chairs to try to get that information.
    I couldn't echo more what she said in terms of the vets. I 
mean, this is something that is completely bipartisan up here. 
We had an excellent meeting. We brought them into 
appropriations. She was chairing the hearing. We said what do 
you need to do it? I think we gave them some dollars, but I 
don't think it is proceeding in the way that is getting the job 
done.
    So that is something you could really help us with, Mr. 
VanRoekel.
    Senator Johanns--or, Senator Moran, your turn to----
    Senator Moran. People often get Kansas and Nebraska 
confused, but rarely Senators Johanns and Moran.
    Mr. Chairman, thank you very much. You and Senator Johanns 
have been, in my view, greatly interested in a topic that 
matters significantly to us as taxpayers and people who care 
about the efficiency and effectiveness of Government. I look 
forward to us pursuing policies and encouraging agencies to 
develop plans that alter the landscape significantly in 
efficiency and effectiveness and timeliness of the way we 
deliver services to Americans.
    And in my view, this is exactly the kind of hearing that 
the Appropriations Committee ought to be having. We ought to do 
this more often. It is the reason I was interested and willing 
to be a member of the Senate Appropriations Committee, because 
of the opportunity we have for oversight. And I am grateful to 
my two colleagues here for pursuing this line of questioning.
    Let me start with the GAO, and I think part of this was 
covered, as I understand, before I arrived in regard to 
healthcare.gov. So I want to focus not on healthcare.gov, but 
on the IT Dashboard.

                           REPORTING ACCURACY

    And my question is, GAO has issued a report on improving 
the Dashboard as a transparency tool. Which agencies are 
reporting accurately? Which agencies are not? And what can we 
do to make this tool more helpful for oversight purposes?
    Mr. Powner. We do a lot of work checking certain agencies, 
but there are a handful of agencies that we believe are 
reporting quite accurately, the Department of Agriculture (Ag), 
Commerce, Education, Homeland Security (DHS), the Department of 
the Interior (DOI), and VA are reporting accurately.
    If you go to the Dashboard now, you will see reds, yellows, 
greens for all those agencies. It looks appropriate, given the 
complexity of some of these IT projects.
    If you look at DOD, the Department of Justice, the State 
Department, Department of Transportation, and Treasury, there 
is probably more risk than what they are reporting at those 
five agencies.
    Senator Moran. Thank you. What is the difference between 
the agencies that are reporting accurately and those that are 
not? What would you call the characteristic difference between 
what is happening in one, as compared to the other? What is 
missing?
    Mr. Powner. I would say, these are CIO ratings, so it is 
clearly driven by the CIO. I think CIO involvement, and we hear 
certain CIOs, when they get ratings that funnel up to them to 
post on the Dashboard, and certain CIOs push back and say, 
``No, I think there is more risk than what we are reporting.'' 
We like to hear that. I mean, that is how you effectively 
manage these programs, by acknowledging the risk and then 
tackling the risk going forward. So I think it is up to those 
strong CIOs to really question to make sure we have accurate 
status.
    We only have 760 of these. Most agencies have no more than 
50. It is not asking that much of any agency to get an accurate 
assessment when many are spending between $2 billion and $6 
billion within their agencies on these major investments.
    Senator Moran. Are you telling me that it is the attitude, 
approach, the effectiveness, the leadership skills of the CIO 
that determines whether or not you get the accurate outcome?
    Mr. Powner. It is all that, and we talked a little bit, 
too, prior about CIO authorities. Some agencies have 
authorities where they are deeply involved with certain of 
these projects, and some aren't, to be realistic. And the 
authorities are kind of all over the board.
    Senator Moran. Does that corollary apply to those who are 
doing it the best and those who are doing it less well so? Is 
there an authority issue, in, again, those two categories? Can 
we tie them together?
    Mr. Powner. You would tie them together, but I also have 
seen some CIOs who are very effective at using this mechanism 
without having the authorities still getting accurate ratings.
    And those are just good leaders within certain agencies.
    Senator Moran. Thank you very much.

                      SYSTEM FOR AWARD MANAGEMENT

    Let me turn to the GSA, SAM.gov. Since the Government 
switched from the Central Contractor Registration (CCR) to 
SAM.gov, as I understand it, there has been a drop in the 
number of new businesses competing for Government contracts. 
The number of new registrations per month has dropped over 35 
percent, and I have heard from some small businesses interested 
in contracting with the Government, the Federal Government, 
about the difficulty of navigating the process.
    Here are my questions: Can you explain the drop in 
registration in switching from CCR to SAM.gov? Should we expect 
the same drop with regard to other systems as they are 
integrated into SAM.gov? Is there a backlog to certify those 
news registrants? And if so, how do we reduce it? And what is 
GSA doing to improve the system that burdens new entrants into 
this process?
    Mr. Tangherlini. I think in many ways SAM.gov, as part of 
the integrated acquisition environment, actually represents 
some of the less than best practices of how Government goes and 
buys technology.
    And when I came to GSA, I inherited this program, which was 
heading toward failure. We worked very closely with OMB. We 
were able to turn it around so that we could deliver this vital 
mission.
    But if I could go back in time, I would have worked closely 
with our CIO, who was not integrated in the project initially, 
which right there suggests that there is going to be an 
opportunity for failure, and we would have built it in a very 
different way than the way we are building it now.
    Now what we found with SAM.gov is that actually we pushed 
up, dramatically pushed up, people's compliance with certain 
types of reporting. And that was the goal, to get people more 
compliant with required reporting in order to be an approved 
and certified Federal vendor.
    But that means that more people are having trouble getting 
through the compliance hurdle. So while we have seen a drop in 
the number of people applying, we have dramatically seen an 
increase in the overall compliance of the people who are, in 
fact, certified.
    So now we are going back and asking, are there ways that we 
can actually make it easier for people to get on to SAM. Can we 
make SAM much more user-friendly? Can we make it much more 
effective, because as a primary buyer of services for the 
Federal Government, we want as many competitors as possible 
bidding on Federal contracts. We don't want to reduce the 
number of people competing.
    We don't have a backlog right now, but we do have a system 
that, because of its very high compliance hurdles, actually 
makes it harder for people to get all the way through. When 
they are through, they are compliant. We feel that is a better 
certified vendor that we are offering the Federal community. 
But we have to figure out ways to make it easier.
    Senator Moran. Those two things, in my view, should not be 
mutually exclusive.
    Mr. Tangherlini. I agree. I completely agree.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Moran.

                         CIO SPENDING AUTHORITY

    Mr. VanRoekel, in 2011, OMB issued a memo outlining that 
CIOs, and this is a quote from that memo, ``should drive down 
costs and improve service for commodity IT.''
    Yet, few Federal CIOs seem to have authority over community 
IT purchases, including their agencies. And you heard the 
testimony earlier, I was kind of laying the groundwork for the 
question I am asking you here.
    Doesn't it make sense to you that this might be an area 
that is ripe for a legislative solution or legislative 
enactment? The three of us are on a piece of legislation that 
gives specifically that authority to the CIOs that was in your 
memo. And so will you work with members of this subcommittee to 
ensure CIOs have the ability to oversee IT spending within 
their agencies?
    Mr. VanRoekel. Thank you. I consider this a very important 
issue. That memo is actually the first memo issued by my office 
in my tenure as Federal CIO, so I weigh it very heavily as very 
important.
    The role of the CIO has continued to evolve over time. If 
you looked at CIOs, even in the private sector, even what we 
now consider cutting edge private sector companies, 10 or 15 
years ago, you would have seen a much different set of 
characteristics than you see today.
    Today, the CIO is a cyber warrior. They stay on top of 
cyber-type aspects. They are a business owner, and they manage, 
in the private sector, profit and loss (P&L) statements. In the 
public sector, they manage these very large budgets. They are 
an executive from a team, a multilayered team aspect.
    What we have inspired to do in my tenure is not only, one, 
lay the groundwork to say that our first stage of getting costs 
under control was really to make sure that we had a view into 
this commodity spend. It is unthinkable in the private sector 
for an agency of Government to run more than one e-mail system.
    When we came to Government in 2009, the Department of 
Agriculture was running 21 e-mail systems. And so our first 
foray here was let's get our arms around this commodity stuff. 
This is the lowest of the low-hanging fruit to drive cost 
savings.
    The Department of Agriculture, I am happy to report now, as 
Mr. Powner said, they are one of the great reporting agencies. 
They are running one e-mail system. It is cloud-based. They 
have one way of buying mobile devices. They have one way of 
buying computers across that very large enterprise, and they 
have done a great job driving this stuff forward.
    So as we evolve, as we take this journey through really 
moving from discretionary to strategic, I think the role of the 
CIO will continue to evolve. And I think there is room for 
policy and discussions around what that role entails.
    What I would caution is that that role, I believe, truly 
believe, is going to continue to evolve and will be set up in a 
way that we should have fruitful discussions to talk about what 
that is going to look like for now and into the future for 
success.
    Senator Udall. Mr. Powner, could you comment on that, 
specifically on the authority of the CIO? Do you believe it 
would be helpful to identify specifically that they have the 
authority to make commodity IT purchases, and those kind of 
things, throughout the agencies?
    Mr. Powner. Yes, I think if you start with the authority 
issue on commodity IT, there is no reason why CIOs in the 
Federal Government should not have authority over commodity IT.
    And I think the PortfolioStat initiative, we have 200 
initiatives that total $5.8 billion. If we do it right, we 
could save money. That includes some data center consolidation. 
It includes going to the cloud. It includes eliminating a lot 
of duplication.
    And there is always this big debate, are CIOs responsible 
for mission-critical applications and systems? Frankly, they 
should be. But let's start with commodity IT. Start with 
commodity IT, get the authorities right there, and then we can 
grow the CIO authorities, as Mr. VanRoekel referred to. I think 
that is the appropriate way to go.
    Senator Udall. Thank you.
    Senators Johanns.
    Senator Johanns. Thank you, Mr. Chairman.

                         RETIREMENT PROCESSING

    If I could go to Director Archuleta with a question or two 
about the retirement system, it seems to me that when you are 
dealing with the body of people from the Federal system who are 
qualified for retirement or are on a retirement program, that 
you are dealing with a pretty defined universe, compared to 
rolling out an IT system for the entire United States and 
everybody who might access it.
    This would seem, by comparison, relatively straightforward. 
But we have all read that article about the cave. I can't 
imagine working under those conditions, to be honest with you. 
But people go back to the stacks and stacks of paper files. And 
literally, they are figuring out retirement with a pencil and 
piece of paper and a calculator.
    I mean, I was amazed. Is that truly what is happening? When 
somebody reaches retirement age, they decide to retire, how do 
you make sure--walk us through the steps where they go from the 
decision to retire and retirement day to actually being on the 
system?
    Ms. Archuleta. I would be glad to, Senator.
    First, let me say, especially as we honor employees this 
week, that employees at Boyers are a terrific group of 
individuals who are very dedicated to making sure that our 
annuitants are served in the best way possible.
    If they are not able to meet some of our expectations, it 
is not because they are not trying. It is because we have not 
given them the tools they need to implement the work that is so 
important.
    When you think about the number of people that Retirement 
Services deals with on a daily basis at any given time, the 
general group of people are over 2 million retirees and their 
families who are customers of Retirement Services. And, as you 
know, we have about 1.9 million people in the Federal 
Government right now. On any particular month, anywhere from 
9,000 to 10,000 of those individuals retire.
    In 2010, there was a decision to shut down an IT system 
that had been piloted. It didn't work. And the result of which 
is that we had to go back to the drawing board. What the 
employees did was to use very effectively what has been 
characterized as paper and pencil, but, I will tell you, a lot 
of dedication as well.
    They have managed to reduce the backlog. Today, just a few 
days ago, we reported to you that there were approximately 
15,000 backlogged cases. That still is too many.
    So as a result of my commitment to reduce the backlog that 
I made during my confirmation hearing, and with the help of our 
new CIO and the dedicated staff at Retirement Services (RS), we 
are focused on three priorities for reducing the backlog and 
moving forward into the future on how we deal with Retirement 
Services.
    The first one, and you will recognize all of these, sir, 
because your constituents talk about them, is that we are going 
to look at customer service first, and what is the response 
time that it takes for any annuitant to hear about whether he 
or she is eligible for the retirement contributions that they 
have put away in their retirement fund.
    Usually, if I were to retire tomorrow, I would work with my 
Human Resources (HR) manager in the Department of Labor, and I 
would let her know that I was retiring. The HR manager would 
then gather my papers and inform our Retirement Services that 
Katherine Archuleta is about ready to retire.
    The gathering of those papers on the day that I do retire, 
if there are no outstanding issues around my retirement, what 
will happen is that first, I retire on May 1. About May 15 or 
so, I will get my first check, which is the accumulation of my 
leave pay. On about June 1, I will get my first retirement 
check, and that will be 80 percent of what I am entitled to. 
The last 20 percent will come in the final adjudication of my 
file, and usually that happens within another 30 to 45 days. 
That is a normal case.
    But sometimes not everybody is as easy as Katherine 
Archuleta. There are other times when there are other issues 
that employees encounter, such as court cases or other 
liabilities that they encounter, which we must investigate.
    If all of that information is in our hands, that same 
timeline will apply. However, if there are things that are not 
available, if we don't have the paperwork, if the court is 
involved, it takes a lot more investigation by these 
individuals.
    So that customer service is really important to us, that we 
are communicating. So we are focusing on that.
    The second thing, sir, that I would tell you we are doing 
is focusing on case management, how do we get those files as 
quickly as we can? The investment, the appropriation that you 
provided to us at $2.6 million will enable us to develop the 
case management system. We have asked for another $2.4 million 
in 2015. That will allow us to complete that. And by the end of 
fiscal year 2015, we should have a case management system 
online.
    Finally, we are going to work on the post-adjudicative 
workload. Those are individuals who in fact have already 
retired and changes in their lives have made further work with 
them necessary. That might be a death of the annuitant. It 
might be a divorce of the annuitant. There might be new child 
custody issues. All of those things come into play as their 
annuities are calculated.
    It is a complicated process. It is in paper and pencil 
right now. But I will tell you that there is a dedicated staff, 
including the people in Boyers, many of whom have worked there 
for over 20 years, who are working very hard to solve these 
problems.
    Senator Johanns. You know, nobody here is picking on the 
employees.
    Ms. Archuleta. No, I know that, sir. Yes.
    Senator Johanns. We are happy that there is somebody who 
wants to do the work and is dedicated and forcefully trying to 
get it done.
    But I do think this is an example of where we have spent 
money, really, to no avail. You have the employees out there 
holding things together, but when you say we haven't given them 
the resources, I think we have given them the resources. We 
just haven't deployed the resources appropriately, and it has 
not been effectively utilized.
    Ms. Archuleta. And I could add to that the resources have 
worked. So it is my commitment to you, sir, to keep you up-to-
date on where we are at in this process. As I said, I have 
employed a new CIO. It is at the top of her list of things that 
we are going to accomplish.
    And I will be sure to keep you and this committee up to 
date on our progress.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Udall. Senator Moran.
    Senator Moran. Thank you again.

    FEDERAL RISK AND AUTHORIZATION MANAGEMENT PROGRAM CERTIFICATION

    Let me go back to OMB. I want to talk about the Federal 
Risk and Authorization Management Program (FedRAMP). Your 
memorandum requires that all cloud service providers (CSPs) 
must be FedRAMP-certified by June 4, 2014, and that if they 
are, that makes them eligible to partake in future Federal 
cloud service procurement opportunities.
    June 4 is not very far away, and FedRAMP certification 
seems to me to be pretty important. And I think there is some 
concern that we may not be prepared by June 4. And so my 
questions are, what measures will be taken to ensure that 
agencies enforce the FedRAMP deadline on CSPs seeking 
Government acquisition June 4 and beyond?
    Mr. VanRoekel. The FedRAMP, just to catch people up, 
FedRAMP is called the Federal Risk Authorization and Management 
Program. Agencies of Government were going under our cloud-
first policy to cloud vendors and basically asking for very 
specific and unique requirements for each agency. What was 
happening was, two things are really happening. One was that 
they were driving all the cost savings out of it by asking for 
unique solutions to be produced by the private sector, to send 
them back these solutions. And two, it was creating all this 
variability in the marketplace, where cloud vendors didn't know 
how to sell to Government. They didn't know how to provide.
    So I launched FedRAMP to basically build a consistent way 
of doing cybersecurity around these cloud providers, 
effectively shaping cloud computing as we know it in the United 
States.
    Now if you go to Amazon or Microsoft or any of these large 
cloud vendors and you talk to them, even about their corporate 
strategy, they are using FedRAMP as the way of defining 
consistent cybersecurity capabilities to sell into the private 
sector. We are even seeing other foreign governments pick up 
FedRAMP as now their model of operating, because the United 
States owns about 80 percent of cloud computing capabilities 
for the world. And so we are making good progress.
    On FedRAMP adoption inside the Government, we have over, I 
believe, a dozen or so vendors that have now reached the 
FedRAMP certification that can now sell into Government. And 
agencies also are then required, because I didn't want people 
to get out and fail, and, ``If I don't go to the cloud, then I 
can just use my own stuff inside my own data center.'' Part of 
what you are seeing in the June deadline is getting Federal 
agencies to say, if they are going to provide their own 
capabilities, we are going to require that they meet those same 
guidelines for cybersecurity. And I believe we are making great 
progress.
    Senator Moran. If you have to meet the same requirements, 
what would be the incentive to stay in-house?
    Mr. VanRoekel. That is a great question. It was actually 
part of the incentive structure we put in place to try to get 
people to go to the private sector, because we think that is a 
better, long-term motion.
    Senator Moran. Is it better because of cost savings? Better 
because you think the security would ultimately be better?
    Mr. VanRoekel. I think it is better for a couple reasons. 
One is, it goes from a very capital-intensive model to an OpEx 
model where instead of upgrading your data center and coming to 
committees like this and asking for money every 3 years to buy 
new servers and things, you just pay one price over the course 
of time. And two is the capability. You get the benefit of 
upgrades and things that the vendor is doing at scale with 
other customers.
    When you go to Amazon.com, you don't think to yourself, do 
I have the latest version of Amazon.com installed? You just use 
it, and it is just available to you. That is kind of the beauty 
of cloud and where this goes, is that we can reap the benefits 
of large-scale, and get the benefits of the upgrades and the 
technology shifting over time without us having to drive it 
ourselves.
    Senator Moran. You mentioned the number 12. Is that a good 
number? Is that a sufficient number?
    Mr. VanRoekel. I was looking. These move all the time, so I 
was trying to pull to the page. I believe that is very close, 
but I would be happy to get back to you.
    [The information follows:]

    As of June 2014:
    22 cloud services have received FedRAMP authorizations:
  --12 companies and 13 cloud services have received Joint 
        Authorization Board (JAB) issued Provisional Authorizations To 
        Operate (P-ATO).
  --2 companies and 3 cloud services have received agency issued 
        Authorizations To Operate (A-ATO).
  --5 private cloud services have been authorized by the Department of 
        Homeland Security (DHS).
  --1 Government agency (U.S. Department of Agriculture) has one cloud 
        service that meets FedRAMP requirements.
  --There are 13 cloud service providers (CSPs) with 13 cloud services 
        in-process for Joint Authorization Board authorization.
    The authorized cloud services range across Infrastructure as a 
Service (IaaS), Platform as a Service (PaaS), and Software as Service 
(SaaS) offerings. At any given time, there are also upwards of a dozen 
systems being actively reviewed by the JAB for FedRAMP authorization, 
and many more in the pipeline.

    Senator Moran. Just in general, is that the number of 
vendors that you would want to be certified? Or is the audience 
much larger, the opportunity much larger?
    Mr. VanRoekel. The key to that is, many of the very large 
vendors out there are represented in that 12. The bulk of the 
large vendors, like the Microsofts and Amazons of the world, 
are represented in that number.
    We have a very rich pipeline, and I think the vibrancy in 
this cloud marketplace continues to evolve and expand. And it 
is a place that really speaks to kind of American 
exceptionalism in technology.
    Senator Moran. Very good.

                            BROADBAND ACCESS

    Another question, Mr. Chairman, talk about broadband access 
with the GSA. The Middle Class Tax Relief and Job Creation Act 
of 2012 directed GSA to develop a master contract to govern the 
placement of wireless service antennas on buildings and other 
property owned by the Federal Government. This makes some sense 
to me, but I also understand that not much has happened, and 
that GSA is significantly behind the deadline. I think 
President Obama has directed this to happen. It hasn't happened 
following his Executive order. It is a congressionally mandated 
program.
    Would you bring me up-to-date on where we are and maybe my 
understanding of the timeframe? As I understand, you are a 
couple years behind?
    Mr. Tangherlini. I will actually have to follow up with you 
and the subcommittee to give you a better update on where we 
stand with that particular initiative related to the Recovery 
Act.

    [Note: See in the ``Additional Committee Questions'' at the end of 
the hearing the General Services Administration's response to Senator 
Moran's question above.]

    Senator Moran. I think there is merit to achieving this 
goal. I think it enhances the wireless industry's ability to 
deliver. I pay attention to these issues, in part because of 
the rural nature of where I come from. And it also is trying to 
create revenue for the Treasury. So I would be glad to have 
your follow up.
    Mr. Tangherlini. We support all of those things. We would 
like to help out.
    Senator Moran. Okay, thank you very much.
    Senator Udall. Thank you, Senator Moran.

                            DIGITAL SERVICES

    OMB's fiscal year 2015 budget request includes a new 
Digital Service team of 25 staff to identify major IT problems 
across agencies. GSA's new 18F team will include talented, 
private, and nonprofit sector technology experts to help 
resolve IT issues at the agencies.
    I want to ask Mr. VanRoekel and Mr. Tangherlini, can you 
explain how these teams will work together to prevent major IT 
system failures and improve citizen services? What types of 
problems do you expect these groups to solve? How is this 
effort different from the Presidential Innovation Fellows? And 
are you concerned that the agencies may be reluctant to request 
help from GSA's 18F team?
    Mr. VanRoekel. Great, so I think I will go first. The key 
thing to think about as far as I think a lot of what you have 
heard today is a lot of our engagement on Federal IT on 
programs that aren't going so well is very reactive. We go in 
when indicators are showing us things aren't going well, or 
other notable examples where we go when in, in a reactive way.
    The intention of this budget request is to really shift 
from reactive to more proactive, where we are starting to 
identify what are the key investments that agencies are doing, 
and then how do we get a team of people in that you would 
really, as American taxpayers, would want in looking at these 
investments in a nonbiased way to understand what are the gaps 
that need to be filled.
    Current staff within OMB, our time is primarily comprised 
of our statutory duties that do the budget formulation, 
reporting to Congress, and other things. Our GAO engagement 
work, which is, amazingly, up to about 40 percent of our time, 
is spent working on GAO inquiries.

                            HIRING EXPERTISE

    And then through the great work of this committee, we stood 
up a couple years ago the IT Oversight and Reform Group, which 
is a small group that has been really focused on Government 
efficiency. It is what has driven those billions of dollars in 
savings we talked about. It is what drives the report that you 
get on a quarterly basis that has line item savings identified 
inside agencies. And it has driven the PortfolioStat process.
    This additional capacity that we are talking about in the 
2015 budget is really about bringing people in. Think of the 
Facebook engineer out there, the usability person at Google, or 
the person who can take a rotation in Government, work within 
Government, where we go in and having identified important 
projects within Government, come into those Government agencies 
and provide expert consulting, look at and spend time with 
agency.
    And I am saying, by ``spend time,'' not a 3-hour PowerPoint 
session, but spend 1 or 2 or 3 weeks or more with the agency 
really getting behind the scenes on what is going on inside 
this agency, what are commonsense, 21st century ways that we 
need to address the issues at hand, and then work with agency 
on coming up with a plan on how to address those.
    So really think of our group as the group that does the 
consultancy upfront, identifies gaps, comes up with a plan to 
address those gaps. And then the way that the agencies would 
address those gaps I anticipate would be one of three ways.
    One is they would find or hire someone into their own 
organization to address those. We actually have been working 
with Director Archuleta on looking at flexibility in technical 
hiring and other things to help fill that sort of gap.
    Two is looking at the vendor community and understanding 
can these vendors who are working on these projects subprime in 
small innovative companies? Can they work in a different way? 
Can they bring talent in? We have seen that work effectively in 
Government.
    Or third is potentially working with GSA's 18F team, where 
they are building delivery capacity, people who would actually 
sit with agency and write code or work on these projects in a 
small way.
    And what we have seen time and time again, from me going 
into an agency and helping them on a project to other efforts, 
a very small number of people who have a notion of how to 
deliver things, in modern technology terms, can really change 
the game, and change the dynamic in a way.
    It doesn't take an army of new people coming in. You can 
actually just inject a few well-meaning people in to really 
change the outcomes today.

                                  18F

    Senator Udall. Dan, on the 18F.
    Mr. Tangherlini. I would just add to that. What we are 
trying to do is build an additional level of capacity beyond 
our existing capacity, which is to provide agencies with 
contract solutions. So that rather than agencies trying to 
figure out every component of how you would solve a problem, we 
can help agencies through having internal capacity, programming 
capacity, better understanding of how you build IT systems, 
help them experiment with solutions, so that when we go back 
into the marketplace for the bigger buy, we are actually a more 
knowledgeable consumer of IT services.
    We think that working more closely with the capacity that 
Steve is developing means that we are going to have an 
opportunity to have a feedback mechanism, figure out what is 
working, frankly, what isn't working, and make sure that we 
carry that message from agency to agency, so that these 
mistakes don't get repeated over and over again.
    The other exciting aspect of this is that 18F is going to 
be the resident home for the Presidential Innovation Fellows. 
So those are folks who the agencies have personally selected to 
come work on problems that they have identified. And from that, 
we are going to have a better way of understanding the 
challenges within those agencies. We are going to use some of 
the experiences that the Presidential Innovation Fellows bring 
back, share with the other fellows, to understand how we should 
be targeting our efforts to serve agencies.
    We also think that the Presidential Innovation Fellows will 
be a fantastic recruiting tool both for our internal capacity 
that we are developing at GSA, external capacity that is being 
developed in the other agencies, and maybe even Steve's office, 
too.
    Senator Udall. Thank you.

                             IT INITIATIVES

    You have commented on this area, previously, so I am 
wondering, do you believe these new proposals would address 
some of your concerns in terms of providing more guidance and 
oversight to IT initiatives, which I think you have mentioned 
in the past?
    Mr. Tangherlini. I think these are good ideas to be 
proactive and to be innovative and to get in on the front end. 
That is definitely needed. So these initiatives are great.
    But we have 760 investments up here that are in flight; 
275, roughly, of the 760 are acquisitions that need some basic 
blocking and tackling to get them done. And then we also have 
most of this as legacy spend, data center consolidation and 
PortfolioStat.
    So I think these are great ideas, but we can't lose sight 
of this, because we are spending a lot of money and we need 
help with some of this.
    Senator Udall. Thank you very much.
    Senator Johanns.
    Senator Johanns. I am very mindful of the fact that we are 
going to get called to a couple votes, I think in about 10 or 
15 minutes, so if I could just ask a couple quick questions, 
just a follow-up on healthcare.gov.

                             HEALTHCARE.GOV

    Mr. VanRoekel, were you a part of the oversight team? Or 
was there an oversight team, as healthcare.gov was being built 
and working its way toward implementation?
    Mr. VanRoekel. My role was very in line with the mission 
and role that OMB plays, in that I assembled team across the 
Federal agencies that related to the Affordable Care Act. It 
was something that we call the IT steering committee.
    And the primary output of this team was the data services 
hub capability of the Affordable Care Act implementation. It is 
somewhat of a natural act for agencies to work within their own 
agencies. It is not as natural in the model that is Government 
for these agencies to work across their borders. So we brought 
together the teams of technical people to work with each other 
to solve the opportunity for these transactions to be routed 
between the agencies.
    Senator Johanns. Okay. Did you have any concerns when 
healthcare.gov was not reporting red? I mean, they did 1 month 
and then popped right back to green. Did that raise any red 
flags for you and your office? Or did anyone come to you and 
say, ``You know, I just wonder if we can rely upon the 
information that we have been given by HHS.''

                              IT DASHBOARD

    Mr. VanRoekel. The IT Dashboard, it is probably important 
to note as a kind of pretense to this, primarily tracks cost 
and schedule variance. Cost and schedule variance wasn't 
something that the Government was tracking, writ large, before 
my office created the IT Dashboard. And the IT Dashboard was 
sort of an important first step in getting agencies not only to 
report this, but, more importantly, letting agency CIOs have 
visibility into the corners of their agencies on what all the 
investments were and what were the cost and schedule variance 
of those investments. We now have that as a cost and schedule 
variance to track. And that is what IT Dashboard does.
    I agree with Mr. Powner. We hold a lot of potential to 
enrich the way we are looking into these investments and our 
fiscal year 2015 budget request really starts to get at the 
capacity to be able to that.
    Senator Johanns. So at that time and at this time today, if 
I am a Secretary, and we report that we are on budget, number 
one, and number two, that we are meeting the schedule for 
whatever rollout day is, then I get a green on the performance 
Dashboard is what you are saying?
    Mr. VanRoekel. I have added another feature to the 
Dashboard that is something I call rebaselining. So if an 
agency goes in and has set an initial cost schedule and time 
schedule to their investment, we could not tell, in the first 
versions of IT Dashboard, if an agency is going in and changing 
their targets, they were moving the schedule, moving the costs.
    In late 2011, early 2012, we added the functionality, so we 
could see if someone was rebaselining their investment, meaning 
they were moving the goal line on cost or schedule. That gives 
us a key indicator to look at as well.
    Senator Johanns. You can kind of see the point I am getting 
to. I think that is good information to have. But I could be a 
Cabinet member and my team could be coming to me and saying, 
``We are on budget. We are on schedule. We are not moving the 
goalposts,'' and I would report green. And then the fourth 
thing they could be reporting to me, ``We don't think this has 
a prayer of working.''
    And yet, I would be in compliance with the Dashboard, 
right?
    Mr. VanRoekel. I think, to Senator Mikulski's point earlier 
on kind of these large monolithic projects, one of the primary 
problems we have is we don't know the health of the project 
until the end, until we get to the delivery. We have seen this 
in many examples across the Federal Government.

                           AGILE DEVELOPMENT

    The key is, as I mentioned earlier, to think in a more 
modular way. How am I delivering something I can actually see 
and touch and feel in 60 days or 90 days, and limit those 
deliveries to that time?
    Part of our broader policy work, and the capacity that we 
are putting into the 2015 budget, is working more side-by-side 
with agencies to drive this as the new normal.
    You wouldn't walk into a private sector company today and 
see them spec'ing a 3-year project that is $100 million and 
things like that. Just as a society, you don't deliver 
solutions that way.
    Our aspiration with this work is to get Government to 
really think about how am I doing things in a more agile way 
that delivers customer value very soon.
    In the cases where I work with agencies, or we get people 
who were bringing this to agencies, we see great results.

                          IT DASHBOARD RATINGS

    Senator Johanns. What you are telling me, you answered that 
in a finessed sort of way, what you are telling me is the 
answer to my question is yes, you could report you were on 
time, you are on budget, you are not rebaselining, but my team 
could be telling me that it looks like this thing will fail, 
and I would still be in compliance with the Dashboard.
    Mr. VanRoekel. The green, yellow, and red are self-
assessments. They are independent of the metrics we see under 
the Dashboard. We do track those metrics, independent of green, 
yellow, red. We actually don't use green, yellow, red as the 
key indicator.
    Senator Johanns. David, I saw you nodding.
    Mr. Powner. Well, I will give you a good example. I think 
DOD has turned a corner. They now have 118 investments 
reported, up from 93. They have agreed to provide an assessment 
every 6 months, not monthly, like other agencies.
    But in their new guidance, what they said, and they have 
had so many failures with enterprise resource planning (ERP) 
systems, and the Air Force ECSS is the recent example. They are 
going to list every ERP system they are doing as red, because 
of their past history. I actually think that is appropriate, so 
it gets the right attention.
    So they could be perfect on cost and schedule, but they may 
call it, if it is ERP, and the complexities they have had and 
all the past failures, it is going to be red.
    We like that. So I like where there is flexibility, because 
it is okay if we have more reds. We want this managed more 
effectively, so we are not wasting taxpayer money.
    Senator Johanns. And, again, not to get into a partisan 
debate about whether we like the healthcare bill or not--we 
could have that debate, and we have had--I think the managers, 
right up to the gentleman in the Oval Office, deserve to know 
if this thing isn't coming together.
    As a former Cabinet member myself, I would want to know 
that. And if I did know that, I would be telling somebody, my 
committee of jurisdiction, the President himself, ``There is a 
very serious problem here.''
    And that is what I am trying to get to. I just want to make 
sure that whatever processes we have in place are catching what 
we think they are catching. And I just worry that today we are 
not there yet.
    Now I compliment you. I do think knowing about price or 
whether you are on budget, et cetera, is good information to 
have. But at the end of the day, we also want to know that when 
we spend that money, we are going to get something that 
actually works.
    And that is where the Federal Government, I think, gets so 
much criticism. We spend all this money, and at the end of the 
day, it doesn't work, and we are all kind of going, ``Wow, that 
was a surprise,'' when, quite honestly, somebody had to know 
that as this was being put together, it wasn't coming together. 
That is what I am trying to achieve here, how do we get to 
that?
    And that is a question for another day, but a question we 
are going to continue to press on. And I thank you for your 
indulgence, Mr. Chairman.
    Senator Udall. Senator Moran.
    Senator Moran. Mr. Chairman, no questions.
    Senator Udall. Okay, let me see here, first of all, let me 
thank all of you for participating and being here today. You 
can see there is a real passion up here for the work that you 
do, and saving real dollars, and focusing on this. We really 
appreciate the top officials and experts in IT here, and your 
ideas for improvement. I think you gave us some very good 
suggestions.
    Today's discussion, I think, has been very helpful, and it 
will be instructive as we move forward.
    The hearing record will remain open until next Wednesday, 
May 14, at noon, for subcommittee members to submit statements 
and questions to be submitted to the witnesses for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
              Questions Submitted to Hon. Steven VanRoekel
                Questions Submitted by Senator Tom Udall
                    techstat and failing it projects
    Question. The Government Accountability Office (GAO) has noted that 
the Office of Management and Budget (OMB) has transferred 
responsibility of TechStat reviews to agencies, and conducts many fewer 
TechStat sessions itself. Much of the success of previous TechStat 
sessions has been attributed to the fact that they were attended by 
high-level managers from the agency and OMB.
  --Do you believe that TechStat reviews are as effective when 
        conducted by agencies as when conducted by OMB?
  --What tools do agencies have to terminate information technology 
        (IT) investments that are critically over budget, over 
        schedule, or failing to meet performance goals?
  --Similarly, what tools do agencies have to replace these terminated 
        investments with new commercial IT solutions?
  --What authority does OMB have to intervene into agency IT projects 
        that are at risk or failing and cancel them?
  --What will OMB do to provide more guidance and oversight of the 
        Federal Government's most at-risk IT projects?
    Answer. OMB works on a continual basis with agencies to conduct 
TechStats, be they led by the agency or by OMB itself. As part of the 
25 Point Plan to Reform Federal IT Management, OMB worked with agencies 
to develop a TechStat toolkit, which was based on the rigorous 
processes OMB used to develop the TechStat model. The Toolkit provides 
templates, guides and other tools for an agency to successfully execute 
a TechStat. OMB believes that TechStats can be more effective as a 
tool, when managed and applied by agencies. This is because agencies 
are closer to the programs and are able to recognize the triggers and 
risk factors that an investment may be heading off course more quickly 
than OMB can. As a result, the agency can assemble a multidisciplinary 
team to review the investment and implement corrections.
    Agencies have broad latitude to cancel failing investments. In 
fact, in many instances they are able to marshal administrative 
remedies faster than OMB. Agencies can terminate contracts and assign 
personnel to meet revised agency priorities. These types of changes are 
implemented very quickly. In addition, on at least an annual basis 
agencies convene investment review boards (IRBs) to review the IT 
investments of their respective institutions to ensure that they are 
delivering on the vision and consistent with the agreed upon strategy.
    Additionally, as part of the Smarter IT Delivery Initiative, OMB is 
reshaping the delivery of information technology already underway and 
introducing new approaches/tools to transform the Government IT 
landscape. To do this, OMB is focused on a three-part agenda that will 
provide the Federal Government with: (1) the best talent (2) the best 
companies; and, (3) the best processes to drive outcomes and 
accountability.
    As part of this effort, in August 2014, the Administration began 
piloting the U.S. Digital Service. This small team of America's best 
digital experts will work in collaboration with other Government 
agencies to identify and fix problems, to help upgrade the Government's 
technology infrastructure, and to make Web sites more consumer 
friendly. The team has one core mission: to improve and simplify the 
digital experience that people and businesses have with the U.S. 
Government by:
  --Establishing standards to bring the Government's digital services 
        in line with the best private sector services;
  --Identifying common technology patterns that will help us scale 
        services effectively;
  --Collaborating with agencies to identify and address gaps in their 
        capacity to design, develop, deploy and operate excellent 
        citizen-facing services; and
  --Providing accountability to ensure agencies see results.
    The Administration also released for public comment two crucial 
components in its growing IT toolkit that will enable agencies to do 
their best work--the Digital Services Playbook and the TechFAR 
Handbook.
    The Digital Services Playbook lays out best practices for effective 
digital service delivery and will serve as a guide for agencies across 
Government. To increase the success of Government digital service 
projects, this playbook outlines 13 key ``plays'' drawn from private 
and public-sector best practices that, if followed together, will help 
Federal agencies deliver services that work well for users and require 
less time and money to develop and operate.
    To ensure Government has the right tech tools to do its job, and 
can be more agile and flexible to meet rapidly changing needs, the 
dministration also launched the TechFAR Handbook. The TechFAR Handbook 
is a guide that explains how agencies can execute key plays in the 
Playbook in ways consistent with the Federal Acquisition Regulation 
(FAR). This document will help agencies take advantage of existing 
authorities to procure development services in new ways that more 
closely match the modern software development techniques used in the 
private sector.
    With regard to OMB, it has authority as described in the E-
Government Act of 2002 (Public Law 107-347) to oversee implementation 
of:
  --Capital planning and investment control for information technology;
  --The development of enterprise architectures;
  --Information security;
  --Privacy;
  --Access to, dissemination of, and preservation of Government 
        information;
  --Accessibility of information technology for persons with 
        disabilities; and
  --Other areas of electronic Government.
    OMB's Office of E-Government and Information Technology will 
continue to publish new and/or updated guidance to support agencies in 
their development and management of IT investments. This includes 
revising the capital planning guidance that is used to help agencies 
manage IT investments. The revisions are intended to provide the right 
level of visibility into the investments so that agencies, OMB, 
Congress and the public can see that the Government is making smart 
investments in IT.
                    special hire and pay authorities
    Question. Both GSA's 18F and OMB's Digital Service are using 
Schedule A hiring authority. Direct Hire Authority is available for 
Information Technology Management (Information Security) (GSA-2210, GS-
9 and above, Governmentwide and nationwide), but not all IT positions.
  --Given the high demand and competition for IT-related positions, and 
        because the private sector can often pay higher salaries for 
        such positions, what increased hire and pay authorities are 
        under consideration for IT positions that don't currently have 
        any, and what types of positions would these be?
  --What other types of hiring and pay incentives beyond those now 
        available to Government employees and agencies should be 
        contemplated for recruitment and retention of IT specialists?
  --Do you believe that OMB needs additional authority to expand the 
        use of Schedule A hiring authority for the Digital Service?
    Answer. OMB, the U.S. Department of Veterans Affairs (VA) and the 
General Services Administration (GSA) recently received authority from 
the Office of Personnel Management (OPM) to hire a small number of 
Schedule A, Digital Services Experts to support the Smarter IT Delivery 
Initiative. We believe that hiring flexibilities like this will better 
allow agencies to compete with private sector hiring standards for 
elite IT talent. Currently, we are planning research and evaluation 
methods which would help the Government determine if this Schedule A 
authority should be scaled Governmentwide. In the meantime, the 
Administration continues to explore other flexible hiring options that 
agencies can utilize such as term appointments. The Administration also 
encourages agencies to utilize the direct hire authority for 
cybersecurity professionals where applicable.
                    data center consolidation update
    Question. Since agencies began executing their data center 
consolidation plans in 2011, more than 700 Federal data centers have 
been closed. This has led to $3 billion in reported savings through 
PortfolioStat, but more progress can be made. GAO's testimony notes 
that as of last July, Federal agencies reported having nearly 7,000 
data centers. Measuring average server utilization is one way to 
evaluate how effectively the Federal Government is using its remaining 
data centers. While the industry standard for average server 
utilization is 60 percent, the Federal Government's standard is roughly 
10 percent.
  --How many Federal data centers existed at the start of this 
        initiative and how many are there now?
  --What is the current average server utilization rate at Federal data 
        centers?
  --What is your target utilization rate for Federal servers?
  --How is OMB providing oversight of this initiative and coordinating 
        agency efforts to consolidate data centers?
    Answer. In October 2010, based on agency submissions after the 
launch of the Federal Data Center Consolidation Initiative (FDCCI), OMB 
reported 2,094 data centers. As of July 2014, agencies have identified 
9,540 data centers, of all types and sizes. This increase, explained in 
further detail below, is a result of a change in definition of a data 
center, and is not a result of construction of new data centers. The 
9,540 is categorized into two populations, core (275 data centers) and 
non-core (9,265), further defined below.
    It is important to note that since the FDCCI was launched there 
have been several important policy shifts within the data center space 
which provide some context for the increased 9,540 figure. First, in 
March 2012, based on a recommendation from the FDCCI Task Force (a CIO 
Council body), OMB changed the definition of a data center and removed 
all square footage and tiering requirements (the original definition 
required 500 square feet and meeting strict criteria from the Uptime 
Institute). Subsequently, this caused a dramatic increase in the number 
of data centers that agencies reported. As mentioned above, the jump 
was not due to construction of new data centers, as the Government 
maintains a net zero growth policy dating back to the summer of 2010. 
Further, the definitional change has provided additional transparency 
and insight into the Federal Government's actual data center footprint. 
The majority of the Government's data centers are smaller rooms and 
closets (less than 1,000 square feet), rather than large, stand-alone 
facilities, that one envisions when he/she considers what a Google, 
Facebook or Microsoft may employ.
    Second, in March 2013, the FDCCI was integrated into PortfolioStat, 
the Government's IT portfolio management initiative. As these efforts 
converged, OMB instructed agencies to focus on optimizing those data 
centers that are pivotal to delivering taxpayer services, while closing 
duplicative and inefficient data centers. As a result, agency progress 
under the FDCCI is no longer solely measured by closures. Instead the 
FDDCI Task Force categorized agency data center populations into two 
categories: core and non-core. While the Government will continue to 
target the initial goal of closing 40 percent of agency-identified, 
non-core data centers, agencies will also be measured by the extent to 
which their core data centers are optimized for total cost of 
ownership. To enable this, the Task Force developed energy, facility, 
labor, storage, virtualization and cost per operating system metrics.
    Instead of focusing on one metric, for example, server utilization, 
OMB worked with the FDCCI Task Force to develop total cost of ownership 
metrics, which measure performance against all the cost areas of data 
centers, rather than just one dimension (utilization) of one piece of 
data center equipment (servers). These metrics, which were published as 
part of the fiscal year 2014 PortfolioStat guidance, cover hardware, 
software, energy, human capital and facilities density. OMB and the 24 
participating Federal agencies believe that working to meet the targets 
for these metrics puts the Government in a better position to address 
emerging taxpayer needs than just focusing on server utilization.
    To date, agencies have closed 976 data centers with 3,665 planned 
for closure by the end of fiscal year 2015. This information is updated 
on a quarterly basis on Data.gov. OMB provides oversight through its 
PortfolioStat process, monthly FDCCI Task Force meetings, continuous 
budget development and execution discussions, and if necessary, other 
avenues.
                 improving the it dashboard--timeliness
    Question. The IT Dashboard has been an important tool for improving 
transparency and accountability in Federal IT spending. However, GAO 
has made several recommendations to OMB for improving the IT Dashboard 
which have not yet been implemented. For example, the public version of 
the IT Dashboard is not updated during preparation of the President's 
budget request, which takes roughly 6 months. GAO also noted that the 
IT Dashboard was not updated for 15 months out of a recent 24-month 
period. This transparency tool should be kept accurate and up to date.
  --Will you make sure that the IT Dashboard is updated throughout the 
        year, including during budget deliberations, as GAO recommends?
    Answer. Agencies have the ability to update and view the IT 
Dashboard on a continuous basis throughout the year. The IT Dashboard 
is also available for public viewing year round. However, agency data 
submissions to OMB during the budget-development period include both 
factual information as well as pre-decisional deliberative materials. 
It is important that OMB preserve the confidentiality of the 
deliberations that are at the core of the budget development process, 
which involves the identification, evaluation, and consideration of 
budgetary alternatives, as well as sensitive procurement data. The 
manner in which agencies submit this data makes it difficult, as a 
practical matter, to separate the factual information from the pre-
decisional deliberative materials during this period. Given the 
existing data model and application design, OMB is currently not in a 
position to release, for example, CIO ratings and other ``regularly-
updated portions'' during the budget development period without, at the 
same time, releasing pre-decisional deliberative materials.
                  improving the it dashboard--accuracy
    Question. Currently, the Dashboard posts data on whether major IT 
projects are on schedule and on budget. This information is useful to 
understanding the status of IT projects, but it does not fully 
represent the risk of major projects.
  --How could OMB improve the IT Dashboard to provide more accurate and 
        meaningful data on the status and risk of failure for major IT 
        projects?
    Answer. Agencies are required, at least monthly, to submit cost and 
schedule data on IT investments to the IT Dashboard. This information 
is useful to understanding the status of IT projects. Over the last few 
years, these submissions, along with related calculations, have been 
updated to provide more transparency. For example, cost and schedule 
performance was previously tracked via individual milestones within a 
major investment, which did not have the ability to link related 
activities together. With the introduction of projects and activities 
in fiscal year 2013, the IT Dashboard now reports cost and schedule 
performance at a more granular level, using parent-child activity 
groupings to reflect the work breakdown structure (WBS) used by 
agencies to manage the projects within their investments. Further, each 
year OMB provides feedback to agencies regarding their preliminary IT 
budget materials along with data quality related feedback. Since 2011, 
the IT Dashboard has included a data quality report for each investment 
and OMB reminds and encourages agencies to review this report 
regularly.
    While OMB works with agencies directly to correct and resolve data 
issues when it finds missing data submissions or erroneous data, it 
also continuously looks for ways to further improve the data quality. 
For example, in the fiscal year 2016 capital planning guidance, OMB has 
initiated a new requirement that agencies identify at least three open 
risks for all active projects and submit the same to the IT Dashboard 
along with risk assessment and risk mitigation plan.
    Further, risk management is the identification, assessment, and 
prioritization of risks (followed by coordinated and execution of 
resources to minimize, monitor, and control the probability and/or 
impact of these risks or to maximize the realization of opportunities). 
Merely identifying the investments risks, as OMB has stressed in 
PortfolioStats, TechStats and other means, is not a guarantee that the 
risks won't be realized. Managing risk is a continual, dedicated, 
iterative process that is never complete.
              it dashboard--major investments reclassified
    Question. GAO's testimony notes that major IT investments were 
removed from the IT Dashboard. The Department of Energy, for example, 
apparently reclassified several of its supercomputer investments from 
``information technology'' to facilities. A December 2013 GAO report 
describes such reclassifications as ``representing a troubling trend 
toward decreased transparency and accountability.''
  --Why were the investments removed from the dashboard?
  --What is OMB doing to provide better guidance to agencies for more 
        accurate and consistent reporting?
    Answer. Agencies have the responsibility to define the composition 
of their IT portfolio. As specified in the Clinger Cohen Act, agencies 
``provide for the selection of information technology investments to be 
made by the executive agency, the management of such investments, and 
the evaluation of the results of such investments.''
    To assist agencies in managing their IT portfolio, OMB provides 
guidance on information technology definitions. OMB uses the definition 
of ``Information Technology'' and ``major information system'' as 
defined in 40 U.S.C. 11101 and OMB Circulars A-11 and A-130. While all 
IT Investments are reported to the Federal IT Dashboard, major 
information systems have an increased reporting requirement. Each year 
during the development of the President's budget, OMB and agencies 
determine which IT systems and investments should be reported as major. 
Systems and investments that are deemed to no longer meet the 
definition of a major investment are downgraded to non-major and as 
such no longer subject to the increased OMB level oversight and 
reporting. In the example of the U.S. Department of Energy's (DOE) 
decision to not report supercomputers as a part of their IT Portfolio, 
OMB responded by explicitly included supercomputing as a policy 
requirement in the PortfolioStat Integrated Data Collection Common 
Definitions, which is available to all agencies on max.gov. Please see 
the policy statement below:

          ``This term refers to any equipment or interconnected system 
        or subsystem of equipment that is used in the automatic 
        acquisition, storage, manipulation, management, movement, 
        control, display, switching, interchange, transmission, or 
        reception of data or information by an executive agency. IT is 
        related to the terms capital asset, IT investment, program, 
        project, sub-project, service, and system. It also includes 
        computers, ancillary equipment (including imaging peripherals, 
        input, output, and storage devices necessary for security and 
        surveillance), peripheral equipment designed to be controlled 
        by the central processing unit of a computer, software, 
        firmware and similar procedures, services (including support 
        services), and related resources; but does not include any 
        equipment acquired by a Federal contractor incidental to a 
        Federal contract (40 USC 11101); however OMB policy includes in 
        this supercomputers, software for mission systems, 
        telecommunications, and satellite signal processing.''
            it dashboard--making it a model for transparency
    Question. The IT Dashboard Web site notes that this tool enables 
``Federal agencies, industry, the general public and other stakeholders 
to view details of Federal information technology investments.'' Yet 
the IT Dashboard itself is not subject to such transparency.
  --How much is spent annually on operation of the dashboard?
  --Will you commit to making details of the funding and delivery of 
        the IT Dashboard completely transparent?
    Answer. The IT Dashboard is an investment listed on the IT 
Dashboard, just like any other IT investment. The URL is: https://
www.itdashboard.gov/investment?buscid=622. At $450,000, it would not 
qualify as a ``major'' investment at most agencies. However, due to its 
high profile role in transparency, OMB keeps visibility into the 
performance of this investment at that level. Each year, OMB considers 
and evaluates whether additional investments to provide more timely 
information and capabilities to agencies, Congress and the public would 
yield the proper return on investment. OMB looks forward to working 
with Congress to understand what capabilities would improve 
transparency.
                        incremental development
    Question. GAO and IT project management experts stress the 
importance of using incremental, modular development strategies when 
building major IT systems. Delivering small increments over time leads 
to greater success. Far too often, big complicated procurements lead to 
a failure that comes after years of cost overruns and delays. Current 
OMB policy calls for 6 month deliveries.
  --What percentage of major Federal IT acquisitions are currently 
        developed incrementally?
  --What barriers exist that prevent all IT investments from being 
        immediately restructured to an incremental development model?
  --How can OMB further reduce risk of IT project failures by 
        encouraging more incremental and modular procurement 
        strategies?
    Answer. As of July 2014, the Governmentwide average planned 
duration for delivering key IT functionality was 156 days. However, 12 
agencies report average planned durations above this average and DOD 
reports an average of 456 days,\1\ demonstrating that OMB and agencies 
need to continue to address this critical policy area.
---------------------------------------------------------------------------
    \1\ Planned duration is taken from the Federal IT Dashboard 
Activities Data Feed, available to the public.
---------------------------------------------------------------------------
    To help all agencies meet this goal and move toward iterative IT 
development, OMB released Contracting Guidance to Support Modular 
Development in 2012. This guide assists agencies in implementing 
contracts that support modular development approaches.
    To further this work, the Administration also released a Digital 
Services Playbook (please see response to question #1), which will help 
agencies deliver effective digital services in a flexible and iterative 
fashion. One of the ``plays'' in the playbook is around agile and 
incremental development. Play #4 states, ``[w]e should use an 
incremental, fast-paced style of software development to reduce the 
risk of failure by getting working software into users' hands quickly, 
and by providing frequent opportunities for the delivery team members 
to adjust requirements and development plans based on watching people 
use prototypes and real software. A critical capability is being able 
to automatically test and deploy the service so that new features can 
be added often and easily put into production. Following agile 
methodologies is a proven best practice for building digital services, 
and will increase our ability to build services that effectively meet 
user needs.''
    However, there continue to be obstacles impeding agency adoption of 
proven methodologies, such as agile. These include determining the 
proper acquisition vehicle to use to perform agile, optimal ways to 
consider delivery metrics within agile contracting, and how agencies 
determine success or what a minimal viable product should be. That is 
why the Administration also released the TechFAR (please see response 
to question #1), which provides agencies tools and examples of how to 
use agile development methodologies with the current language of the 
FAR.
    As needed, OMB will continue to work with agencies to develop and 
promulgate tools and guidance to aid in the use of these commercially-
proven best practices.
                     cio authority over it spending
    Question.
  --How much of the Administration's total fiscal year 2015 budget 
        request for IT is directly controlled or overseen by the CIO at 
        each agency?
  --What is OMB doing to increase CIO authority over IT spending?
  --How is OMB working with agencies to ensure that Federal CIOs are 
        truly empowered to drive the types IT efficiencies and savings 
        discussed during this hearing?
    Answer. While OMB believes that current statutes provide agency 
CIOs with the proper authorities to ensure that IT is used as a 
strategic asset to improve service delivery, it's clear these 
authorities have not been implemented in a consistent and effective 
manner across agencies. Direct CIO control over IT budget ranges from 
less than 1 percent to as high as 97 percent, with an overall average 
of around 25 percent.
    To strengthen CIO authorities, OMB issued memorandum M-11-29, 
emphasizing the role that CIOs are required to have in the areas of 
governance, commodity IT, program management and information security. 
Additionally, OMB has made CIO authorities an integral part of 
PortfolioStat. As part of PortfolioStat sessions, OMB discusses with 
agencies their progress implementing CIO authorities. Additionally, OMB 
has and is committing to continuing a robust dialogue with Congress on 
whether legislation is required to fully implement CIO Authorities.
 25 point implementation plan to reform federal information technology 
                               management
    Question. In 2010, OMB issued the 25 Point Implementation Plan to 
Reform Federal Information Technology Management, which detailed action 
items for OMB and other agencies in order to deliver more value to the 
American taxpayer. Please provide an update on the current status of 19 
action items assigned to OMB, the Federal CIO, and Federal CIO Council.
    Answer. The status of each of the 19 action items assigned to OMB, 
the Federal CIO and the CIO Council are detailed below:
1. Complete detailed implementation plans to consolidate data centers 
        by 2015.
    In accordance with the IT Reform Plan, all agencies published their 
updated Data Center consolidation plans in 2011 and links to the plans 
were posted on CIO.gov. As part of PortfolioStat in 2013 and outlined 
in M-13-09 the Federal Data Center Consolidation Initiative (FDCCI) was 
integrated into PortfolioStat and agencies are no longer required to do 
separate implementation plans.
    As outlined in M-13-09, dated March 27, 2013, to improve the 
outcomes of PortfolioStat and to advance agency IT portfolio 
management, OMB consolidated previously collected IT plans, reports and 
data calls into three primary collection channels:
  --IRM Strategic Plans. According to Circular A-130, ``Information 
        Resources Management (IRM) Strategic Plans should support the 
        agency Strategic Plan required in OMB Circular A-11, and 
        provide a description of how information resources management 
        activities help accomplish agency missions, and ensure that 
        information resource management decisions are integrated with 
        organizational planning, budget, procurement, financial 
        management, human resources management, and program 
        decisions.'' In addition to requirements established in OMB 
        Circular A-130, IRM Strategic Plans must now be signed by the 
        Agency COO and agencies will be required to address the 
        specific requirements that are defined in Appendix A of this 
        memorandum;
  --Enterprise Roadmap. In alignment with the IRM Strategic Plan, the 
        Enterprise Roadmap documents an agency's current and future 
        views of its business and technology environment from an 
        architecture perspective. It does so by reflecting the 
        implementation of new or updated business capabilities and 
        enabling technologies that support the agency's strategic goals 
        and initiatives. It also contains a transition plan to show the 
        sequence of actions needed to implement the IRM Strategic plan. 
        Moreover, it focuses on increasing shared approaches to IT 
        service delivery across mission, support, and commodity areas; 
        and
  --Integrated Data Collection (IDC). OMB has established an Integrated 
        Data Collection channel for agencies to report structured 
        information. Agencies will use this channel to report agency 
        progress in meeting IT strategic goals, objectives and metrics 
        as well as cost savings and avoidances resulting from IT 
        management actions.
    The IDC will draw on information previously reported under 
PortfolioStat, the FDCCI, the Federal Digital Government Strategy, 
quarterly Federal Information Security Management Act (FISMA) metrics, 
the Federal IT Dashboard, and selected human resource, financial 
management, and procurement information requested by OMB.
    For additional context, please see response to Question #3.
2. Create a Governmentwide marketplace for data center availability.
    The Governmentwide marketplace was established in June 2012, as 
referenced in the GAO Report from July 2012 on Data Center 
Consolidation, found at http://gao.gov/assets/600/592696.pdf.
3. Shift to a ``Cloud First'' policy.
    In December 2010, the Administration instituted a ``cloud first'' 
policy, which states that if a secure, reliable, and cost effective 
cloud solution exists, agencies are required to implement that 
solution. To drive this effort, the Administration published the 
Federal Cloud Computing Strategy in February 2011. This strategy 
articulates the benefits, considerations, and trade-offs of cloud 
computing, provides a decision framework and case examples to support 
agencies in migrating towards cloud computing, highlights cloud 
computing implementation resources, and identifies Federal Government 
activities, roles, and responsibilities for catalyzing cloud adoption.
    Under this initiative, cloud computing has now become an accepted 
and integral part of the Federal IT environment. Agencies no longer 
question the utility and feasibility of cloud computing; but instead 
are seeking out opportunities to use cloud computing to reshape their 
IT portfolios to drive innovation, maximize return on investment, and 
improve cybersecurity. To track implementation of the policy, OMB 
requires agencies to report their cloud computing spending as part of 
the development of the budget. These figures can be found on the 
Federal IT Dashboard.
4. Develop a strategy for shared services.
    The Administration released the Federal IT Shared Services Strategy 
on May 2, 2012. It provides organizations in the Executive Branch of 
the United States Federal Government (Federal Agencies) with policy 
guidance on the full range and lifecycle of intra- and inter-agency 
information technology (IT) shared services, which enable mission, 
administrative, and infrastructure-related IT functions.
5. Design a formal IT program management career path.
    OPM and OMB launched the IT Program Manager Career Path in May 
2011. This effort included the creation of a new basic title and 
definition for Information Technology Program Manager under the 
Technology Management Series, GS-2210 and the release of the IT Program 
Management Career Path Guide, which provides guidance to Federal 
agencies on the creation and improvement of the IT Program Management 
career path at each agency.
6. Require Integrated Program Teams.
    Since fiscal year 2013 agencies have been required to provide the 
names and contact information for Integrated Program Teams members for 
all major IT investments as part of OMB's annual capital planning 
guidance Circular A-11 Exhibit 300.
7. Launch a best practices collaboration platform.
    In March 2011, the CIO Council developed a Web-based best practices 
collaboration platform, originally located at cio.gov/bestpractices. 
Since then, the CIO Council has updated the platform and moved it to 
MAX.gov, an executive branch collaboration platform. This portal allows 
program managers to share and aggregate best practices, case studies, 
lessons learned, and other tools and resources that increase 
information sharing and enhance collaborative problem-solving and 
innovation.
8. Launch technology fellows program.
    In 2011, OMB and OPM launched the Presidential Management Fellows 
Technology Fellows Program--a 2-year, rotational, paid fellowship. This 
fellowship program helped lay the groundwork for the Presidential 
Innovation Fellows (PIF) program, launched in 2012.
9. Enable IT program manager mobility across Government and industry.
    The CIO Council, OMB and OPM launched the pilot IT Program Manager 
Mobility Program in April 2012 to encourage the movement of program 
managers across Government and industry. Although six agencies (the 
Department of the Navy, Department of Defense, Department of Homeland 
Security, Defense Information Security Agency, General Services 
Administration and the Department of Veterans Affairs) participated, 
interagency rotations were never completed. OMB will continue to look 
for ways to leverage the knowledge and expertise of Federal IT program 
managers.
10. Design and develop cadre of specialized IT acquisition 
        professionals.
    In 2011, the Office of Federal Procurement Policy (OFPP) issued 
guidance to Chief Acquisition Officers (CAOs), senior procurement 
executives (SPEs) and Chief Information Officers (CIOs) that provides 
guidance on designing and developing specialized IT acquisition cadres 
and developing IT best acquisition practices. The guidance describes 
how agencies can design and organize a cadre of contracting 
professionals, Program Managers (PMs), and Contracting Officer's 
Representatives (CORs) to ensure these functions work closely 
throughout the process to achieve program goals and strengthen the 
skills and capabilities of this specialized acquisition cadre to 
improve outcomes.
11. Identify IT acquisition best practices and adopt Governmentwide.
    This requirement was accommodated under the memo, Guidance for 
Specialized Information Technology Acquisition Cadres, detailed above.
12. Issue contracting guidance and templates to support modular 
        development.
    On June 14, 2012, OMB issued Contracting Guidance to Support 
Modular Development to assist agencies in implementing modular 
development approaches.
13. Reduce barriers to entry for small innovative technology companies.
    Under the Presidential Innovation Fellows program, the Small 
Business Administration (SBA) launched RFP-EZ as a pilot program on 
December 28, 2012. RFP-EZ is a Web-based application that is comprised 
of five different systems, all meant to make it easier for small 
businesses to sell their services to Government buyers, and enables 
agencies' contracting officers to quickly source low-cost, high-impact 
information technology solutions
14. Work with Congress to create IT budget models that align with 
        modular development.
    OMB Guidance on Exhibits 53 and 300 Information Technology and E-
Government require that projects for major Government IT investments 
should aim to deliver functionality within 6 months. In addition, the 
guidance requires agencies to indicate whether the completion of an 
activity provides a key deliverable or usable functionality and OMB 
asks agencies to report on whether modular development principles are 
applied in their acquisition planning. Efforts under this area have 
been subsumed by larger efforts underway to strengthen CIO authorities 
through proposed legislation, for example, the Federal Information 
Technology Acquisition Reform Act (FITARA) and the Federal Information 
Technology (FITSATA). OMB will continue working through its Information 
Technology Oversight & Reform appropriation to further examine how 
budgeting models could be updated, given the fluidity of technological 
change.
15. Develop supporting materials and guidance for flexible IT budget 
        models.
    On June 9, 2012, the CIO Council Best Practices Committee developed 
Summary Report on IT Budget and Funding Flexibilities. This report is 
available to agency CIOs across the Federal Government through the CIOC 
knowledge portal on Max.gov. Additional guidance on flexible budging 
has been incorporated into yearly budget guidance (see Fiscal Year 2013 
Guidance on Exhibit 300--Planning, Budgeting, Acquisition, and 
Management of Information Technology Capital Assets pages 8 and 18, 
Fiscal Year 2014 Guidance on Exhibit 53 and 300--Information Technology 
and E-Government pages 28, 38, and 41 and Fiscal Year 2015 Guidance on 
Exhibit 53 and 300--Information Technology and E-Government pages 27, 
39 and 42).
16. Work with Congress to scale flexible IT budget models more broadly.
    To shift agencies toward IT budget models that align with modular 
development, OMB has integrated modular development in Guidance on 
Exhibits 53 and 300 Information Technology and E-Government. This 
includes requiring targets for projects to aim to deliver functionality 
within 6 months, having acquisition planning with modular development 
principles, and having innovative investments consistent with policy 
initiatives such as modular development. For example, the President's 
fiscal year 2014 budget requested that a new IT Modernization account 
be created at the Department of Labor to drive improved IT efficiency 
and effectiveness. This was subsequently enacted by Congress. .
17. Work with Congress to consolidate Commodity IT spending under 
        Agency CIO.
    OMB M-11-29, Chief Information Officer Authorities clarified the 
primary responsibilities and authorities of Agency CIOs across several 
key areas, including Commodity IT. The memo states that, ``Agency CIOs 
must focus on eliminating duplication and rationalize their agency's IT 
investments . . . the CIO shall pool their agency's purchasing power 
across their organization to drive down costs and improve service for 
commodity IT.'' OMB has held numerous discussions with Members of 
Congress on implementing M-11-29 and how those authorities should be 
codified in statute. Larger efforts to strengthen CIO authorities have 
been subsumed under several proposed bills, for example, The Federal 
Information Technology Acquisition Reform Act (FITARA) and the Federal 
Information Technology Savings, Accountability, and Transparency Act 
(FITSATA).
18. Reform and strengthen Investment Review Boards.
    OMB has worked to reform and strengthen Investment Review Boards by 
revamping IT budget submissions and assisting agencies in standing up 
the TechStat model at the Department level.
    Beginning with fiscal year 2013 budget submissions OMB developed a 
new framework for reporting IT investments. This new framework and 
guidance was designed to increase the relevance of IT investment data, 
better align budget with management processes, improve data accuracy, 
and reduce the reporting burden on agencies by establishing a separate 
Exhibit 300B (see Guidance on Exhibit 300--Planning, Budgeting, 
Acquisition, and Management of Information Technology Capital Assets).
    To assist agencies with oversight, OMB developed the TechStat 
Toolkit. The Toolkit provides a comprehensive guide for agencies to 
quickly implement TechStat, from templates for briefing staff and 
executives on the TechStat model to templates for documenting a 
detailed action plan for correcting problems. To date, thousands of 
agency employees have been trained through this toolkit on how to plan, 
structure and conduct TechStat sessions.
19. Redefine role of Agency CIOs and Federal CIO Council.
    While current statutes provide Agency CIOs with the proper 
authorities to ensure that IT is used as a strategic asset to improve 
service delivery, these authorities have not been implemented in a 
consistent and effective manner across agencies. To address this, OMB 
issued memorandum M-11-29 emphasizing the role that CIOs are required 
to have governance, commodity IT, program management and information 
security. Additionally, OMB has made CIO Authorities an integral part 
of PortfolioStat. As part of PortfolioStat sessions, OMB discusses with 
agencies progress implementing CIO authorities.
    In addition, M-11-29 required Agency CIOs to play a cross-agency 
portfolio management role through the Federal CIO Council. The CIO 
Council is the body for CIOs from across the Government to come 
together to share best practices and recommend changes to existing, or 
put forward idea for, new policy. Larger efforts are underway within 
Congress to strengthen CIO authorities and create more flexible funding 
models under FITARA and FITSATA.
       portfoliostat and cost estimates for major it investments
    Question. In OMB's PortfolioStat discussions with CIOs, how does 
OMB verify estimates for savings? What data on costs or source of cost 
estimates do you use to assess the validity of a budget request for a 
major program? Is there a formal or independent cost analysis, such as 
the Defense Department uses?
    Answer. Savings reported during the PortfolioStat process are 
submitted by agencies to OMB's Integrated Data Collection (IDC) with a 
description of the activity that led to the savings, the amount saved, 
and the fiscal year associated with the saving. OMB then performs a 
qualitative review of the data submitted by agencies. During this 
process, OMB may follow up with agencies to request additional 
information regarding savings descriptions. The descriptions are then 
included in the Information Technology Oversight and Reform (ITOR) 
Quarterly Report to Congress. The report undergoes a multi-step review 
process where agency officials must confirm the accuracy of the data 
reported to OMB and Congress.
    Furthermore, to validate costs regarding major programs, OMB may 
request and review a number of documents before approving such 
requests. For example, OMB may request to review an agency's formal 
business case for an investment, to include the project plan, program 
management plan, program performance metrics, and/or analysis of 
alternatives, to name a few. Additionally, OMB uses the annual budget 
process to assess the quality and performance of major programs each 
year.
                           omb tech far guide
    Question. Mr. VanRoekel, your testimony describes OMB's ``Tech 
FAR'' guide to highlight often underutilized ways that agencies can 
solicit IT tools and services.
  --How will this new approach alter the acquisition process for IT 
        projects?
  --What metrics, such as quicker competitions of faster delivery 
        times, could help evaluate if Tech FAR is working?
  --Why is a separate FAR needed for IT projects? Should the FAR be 
        updated and streamlined for all Federal acquisitions to avoid a 
        proliferation of FAR guides for each type of acquisition?
    Answer. To ensure Government has the right tech tools to do its 
job, and can be more agile and flexible to meet rapidly changing needs, 
the Administration launched the TechFAR Handbook, a guide that explains 
how agencies can execute key plays in the Playbook in ways consistent 
with the Federal Acquisition Regulation (FAR). This document will help 
agencies take advantage of existing authorities to procure development 
services in new ways that more closely match the modern software 
development techniques used in the private sector.
    It is important to note that the TechFAR is not a separate FAR, but 
rather a guide that highlights the flexibilities in the FAR that can 
help agencies implement the best practices included in the Digital 
Services Playbook that would be accomplished with acquisition support. 
The TechFAR handbook is also not intended to usurp existing laws, 
regulations, or Agency policy.
    The TechFAR Handbook states that it is ``aligned with the Digital 
Services Playbook's guidance to use contractors to support an iterative 
development process focuses on how to use contractors to support an 
iterative, customer-driven software development process.'' In addition, 
the TechFAR ``is not designed to be used for commodity IT purchases, 
especially where commercially available off-the-shelf items can be used 
as-is at a lower cost and lower risk to the Government.''
      cloud computing and utility-based purchasing of it services
    Question. The President's budget notes that it includes investments 
to transform the Government IT portfolio through cloud computing, 
giving agencies the ability to purchase IT services in a utility-based 
model, paying for only the services consumed.
  --How are Federal agencies using this utility-based model to both 
        save costs and also provide more agility for Federal agencies?
  --How is OMB coordinating this transition to cloud computing across 
        the Federal Government?
    Answer. Since OMB released its ``Cloud First'' policy in 2010, 
Federal agencies have shown progress in their movement to cloud 
platforms and in taking advantage of the cost savings, innovation, 
scalability and agility that cloud computing offers. Total cloud 
spending is projected to increase by 10 percent from fiscal year 2013 
to the fiscal year 2015 budget, to nearly $3 billion, with more cloud 
expected in the years to come as the cloud industry matures.
    OMB has coordinated the migration to cloud solutions by 
encompassing an all of Government approach. In connection with our 
Federal Cloud Computing Strategy, the Administration launched FedRAMP--
a Governmentwide program that provides a standardized approach to 
security assessment, authorization, and continuous monitoring for cloud 
products and services. Our FedRAMP program now has 18 CSP (cloud 
service providers) systems that have received FedRAMP Provisional ATO 
(authorization to operate), providing agencies a valuable tool to get 
them to the cloud quicker. OMB also works with NIST to continuously 
develop cloud security, interoperability and portability standards, the 
Department of State to engage international partners on cloud lessons 
learned, and GSA to stand up cloud computing acquisition vehicles. In 
addition, OMB's ongoing PortfolioStat efforts with agencies continue to 
look for opportunities to shift to the cloud, utilize FedRAMP and take 
advantage of cloud computing to drive data center optimization.
                            shared services
    Question. Shared services among agencies, particularly for 
``commodity'' IT items, can be key to driving efficiencies and savings 
in IT. Shared Services is included in the President's second term 
management agenda and is now a Cross-Agency Priority Goal.
  --What are the barriers to providing such shared services in the 
        Federal Government and what steps can OMB take to increase 
        their use, especially for IT services?
    Answer. Examples of barriers are (1) changing the culture in most 
agencies from program-silo'ed services to cross-cutting services within 
the entire agency and with other agencies; (2) agency-only funding 
models which hamper and handcuff agency flexibility to transfer money 
to another agency; and (3) procurement strategies that do not allow for 
other programs/bureaus/agencies to buy services off contracts 
negotiated by other agencies. The latter would enable the Government to 
leverage its buying power to negotiate lower costs as the number of 
agency adopters increases. Other barriers include technical challenges 
in scaling and/or integrating systems and applications, having 
authoritative architectures that provide process and technology 
standards, as well as cybersecurity and data privacy considerations as 
shared service delivery models are implemented.
    Additionally, as part of the Smarter IT Delivery Initiative, OMB is 
reshaping the delivery of information technology already underway, as 
well as introducing new approaches and tools to transform the 
Government IT landscape. For details on work underway as part of this 
initiative, see answer to Question #1.
                  portfoliostat and software licenses
    Question. The PortfolioStat initiative includes efforts to 
consolidate so-called ``commodity'' IT or more basic, commercially 
available software, hardware, and cloud services.
  --What savings have Federal agencies realized to date through 
        consolidating software licenses?
  --How many Federal agencies have a current inventory of their 
        software licenses?
  --How many Federal agencies do not have a current inventory of their 
        software licenses?
  --What should be the target number of Federal agencies that should 
        have a current inventory of their software licenses?
    Answer. To date, a little over $500 million of reported 
PortfolioStat savings have been tied to enterprise software license 
consolidation efforts. For example, the Department of the Interior has 
saved $5.8 million through their Enterprise eArchive System (EES), part 
of their eERDMS system. However, in discussions with agencies, they 
have indicated that software management savings are also captured in 
broader savings and consolidation efforts reported by agencies through 
PortfolioStat, hence the actual figure is higher, although the exact 
amount is unknown.
    A recent GAO report, Federal Software Licenses: Better Management 
Needed to Achieve Significant Savings Government-Wide reviewed all 24 
Chief Financial Officers Act agencies and analyzed their policies for 
managing software licenses as well as their software inventories. The 
report found that 20 of the major Federal agencies have developed 
policies for managing software licenses and have partially implemented 
inventories. Those policies will include, but certainly not be limited 
to, modes and mechanisms to ascertain the proper amount of licenses for 
any given agency.
        data act and improving cost estimates for it investments
    Question. How will OMB use data on actual expenditures for like 
systems collected under the DATA Act to improve cost estimates and 
assess budget requests on IT programs?
    Answer. The DATA Act does not focus on tracking actual expenditures 
in IT system-by-system. Nor does the DATA Act change the processes by 
which agencies produce cost estimates and OMB reviews business cases 
for IT investments. Implementation of the DATA legislation will 
contribute to improved availability and quality of Federal spending 
information and increased transparency for IT and other spending.
                   risk assessments of it investments
    Question. What risk assessment criteria are agencies using to 
evaluate the risk associated with procurements of IT products and 
services? Do Federal agencies then communicate the assessment criteria 
or findings to the private companies impacted?
    Answer. Risk assessments should include risk information from all 
stakeholders and should be performed at the initial concept stage and 
then monitored and controlled throughout the life cycle of the 
investment. OMB Guidance on Exhibits 53 and 300 Information Technology 
and E-Government, which is updated annually, for major investments 
requires agencies to list all significant project-related risks and 
operational-related risks that are currently open and provide risk 
assessment information.
    For all active projects and components of IT investments that are 
in Operations a minimum of three open risks must be identified. When 
reporting these risks, agencies are required to describe the risk, the 
cause for the risk, identify a mitigation plan for the risk, list the 
impact (high, medium, low) and provide a mitigation plan.
    In addition, agencies must categorize the risk in one of the 
following categories: (1) Schedule, (2) Initial costs, (3) Life cycle 
costs, (4) Technical obsolescence, (5) Feasibility, (6) Reliability of 
systems, (7) Dependencies and interoperability between this investment 
and others, (8) Surety (asset protection) considerations, (9) Risk of 
creating a monopoly for future procurements, (10) Capability of agency 
to manage the investment, (11) Overall risk of investment failure, (12) 
Organizational and change management, (13) Business (14) Data/info, 
(15) Technology, (16) Strategic, (17) Security, (18) Privacy, and (19) 
Project resources.
    It is typical that agencies work internally with Federal staff or 
with contract resources supporting an investment to ensure there is a 
comprehensive understanding of all risks and the proper actions to 
remediate, mitigate, and manage that risk in a proactive manner.
                        procurement issues in it
    Question. This committee heard testimony that agile, more 
incremental procurement strategies are especially appropriate for IT 
investments given the pace of technological change and innovation.
  --What steps can OMB take, besides issuing the Tech FAR and ``myth 
        buster'' guides, to help address complaints that IT procurement 
        takes too long? How can Congress help?
    Answer. This past spring, the Federal Chief Acquisition Officers 
Council and the CIO Council sponsored an open online dialogue to 
solicit input on how to reduce burdens and improve the efficiency and 
effectiveness of the Federal procurement process. A number of themes 
emerged, such as simplifying procedures for the acquisition of 
commercial items and taking better advantage of technologies to make it 
easier for small and innovative businesses and buying agencies to find 
one another, as we are doing with ``FBOpen.'' OMB is carefully 
reviewing the recommendations made in the dialogue, both for actions 
that can be taken administratively as well as areas where legislative 
support may be beneficial.
                      omb's ``myth busting'' memo
    Question. OMB issued a ``myth busting'' memo to help improve 
communication between industry partners and Federal agencies in the 
acquisition process. Yet my understanding is that Federal agencies are 
hesitant to talk to contractors.
  --How can OMB reinforce the ``myth busting'' memo to improve 
        appropriate engagement between contractors and Federal 
        agencies?
    Answer. The TechFAR encourages vendor engagement early on in the 
process and urges agencies to utilize tools such as industry days, 
Requests for Information (RFI), and draft Requests for Proposals (RFPs) 
or draft Requests for Quotation (RFQ). This type of engagement helps 
provide an avenue for the vendors to ask questions to ensure that they 
understand the process and what the Government is trying to procure. 
Releasing the TechFAR should help agencies move toward more vendor 
engagement, but we realize continual work is needed to combat cultural 
reluctance to engage with contractors. As a result, OMB will explore 
additional ways to improve communication between industry and Federal 
agencies such as releasing additional guidance and training 
opportunities.
                             it schedule 70
    Question. GSA's IT Schedule 70 is the largest, most widely used 
acquisition vehicle in the Federal Government.
  --How is the IT Schedule 70 helping or hindering the Government's 
        ability to acquire innovative technologies and IT services?
    The General Services Administration is best equipped to answer this 
question.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                        accuracy of it dashboard
    Question. One of the important oversight tools to monitor how the 
Government buys, builds, and manages its major IT projects is the IT 
Dashboard. Unfortunately, I this tool is not updated accurately and on 
an ongoing basis. GAO reported that, as of December 2013, the public 
version of the Dashboard was not updated for 15 of the previous 24 
months.
  --Will OMB make the Dashboard publicly available year round, even 
        during budget deliberations, as GAO has recommended?
  --What is OMB doing to make sure that all major investments, like 
        DOE's supercomputers, are listed as major investments on the 
        Dashboard?
    Answer. Agencies have the ability to update and view the IT 
Dashboard on a continuous basis throughout the year. The IT Dashboard 
is also available for public viewing year round. However, agency data 
submissions to OMB during the budget-development period include both 
factual information as well as pre-decisional deliberative materials, 
much of which is at the core of the budget development process. This 
can include the identification, evaluation, and consideration of 
budgetary alternatives, as well as sensitive procurement data. The 
manner in which agencies submit this data makes it difficult, as a 
practical matter, to separate the factual information from the pre-
decisional deliberative materials during this period. Given the 
existing data model and application design, OMB is currently not in a 
position to release, for example, CIO ratings and other ``regularly-
updated portions'' during the budget development period without, at the 
same time, releasing pre-decisional deliberative materials.
    In the OMB fiscal year 2016 Guidance on Exhibits 53 and 300, OMB 
also revised the definition of Information Technology to ensure that 
things like supercomputers were included. This definition is available 
to all agencies through max.gov and reads as follows:
          ``This term refers to any equipment or interconnected system 
        or subsystem of equipment that is used in the automatic 
        acquisition, storage, manipulation, management, movement, 
        control, display, switching, interchange, transmission, or 
        reception of data or information by an executive agency. IT is 
        related to the terms capital asset, IT investment, program, 
        project, sub-project, service, and system. It also includes 
        computers, ancillary equipment (including imaging peripherals, 
        input, output, and storage devices necessary for security and 
        surveillance), peripheral equipment designed to be controlled 
        by the central processing unit of a computer, software, 
        firmware and similar procedures, services (including support 
        services), and related resources; but does not include any 
        equipment acquired by a Federal contractor incidental to a 
        Federal contract (40 U.S.C. 11101); however OMB policy includes 
        in this `supercomputers, software for mission systems, 
        telecommunications, and satellite signal processing.' ''
                 exploring emerging contracting models
    Question. As this committee seeks to identify ways to decrease 
agencies' reliance on appropriated funds for IT acquisitions, I am 
interested to learn about emerging, non-traditional contracting models, 
such as no-cost models, that agencies should be considering as one way 
to increase efficiencies and reduce costs. This committee's fiscal year 
2014 appropriations explanatory report directed OMB to produce a report 
on the use of alternative contracting models, including quantifying 
costs savings achieved through their use.
  --Please provide an update on the status of this report.
  --Can you offer examples of emerging models that could help?
    Answer. OMB is working with agencies to gather information about 
their consideration of and experience with ``no-cost'' contracting for 
IT related-requirements, such as where an agency developing a public 
database authorizes the contractor to charge user fees to cover the 
cost and maintenance of the system, and expect to complete our initial 
analysis shortly. In addition, we are looking at how to promote greater 
use of performance-based contracting practices where agency 
solicitations focus on outcomes, rather than ``how to'' prescriptions, 
that in turn allow contractors to provide simpler, less costly 
proposals and more innovative solutions.
    We are also encouraged by the Committee's recent support for an 
``innovation set-aside'' pilot that would allow agencies to conduct 
competitions or make directed awards, where appropriate, to new 
entrants. Such an authority could make it easier for agencies to reach 
high-tech companies that may not be expert in the rules for selling to 
the Government, but can provide cutting-edge lower cost solutions to 
meet the needs of the taxpayer. We look forward to working with this 
Committee and other Members of Congress as we consider new and better 
ways to provide best value to the taxpayer.
                            techstat reviews
    Question. TechStat Reviews were initiated by OMB to enable the 
Federal Government to either turnaround or terminate IT projects that 
are failing or are not producing intended results. According to GAO, 70 
percent of OMB-led and 76 percent of agency-led TechStat reviews on 
major investments were considered medium to high risk at the time of 
the TechStat. OMB reported in 2011 that Federal agencies achieved 
almost $4 billion in life-cycle cost savings as a result of TechStat 
sessions, although GAO has noted they were unable to validate OMB's 
reported results.
  --GAO has indicated OMB held only two TechStat sessions in 2013. Why 
        weren't more held?
  --With 42 moderately high or high risk projects, what is the plan 
        moving forward with OMB-led TechStat sessions, which have 
        proven effective?
  --What types of resources and personnel are necessary to conduct a 
        TechStat review on high risk projects?
    Answer. OMB works on a continual basis with agencies to conduct 
TechStats, be they led by the agency or by OMB itself. As part of the 
25 Point Plan to Reform Federal IT Management, OMB worked with agencies 
to develop a TechStat toolkit, which was based on the rigorous 
processes OMB used to develop the TechStat model. The Toolkit provides 
templates, guides and other tools for an agency to successfully execute 
a TechStat. OMB believes that TechStats can be more effective as a 
tool, when managed and applied by agencies. This is because agencies 
are closer to the programs and are able to recognize the triggers and 
risk factors that an investment may be heading off course more quickly 
than OMB can. As a result, the agency can assemble a multidisciplinary 
team to review the investment and implement corrections.
    Agencies have broad latitude to cancel failing investments. In 
fact, in many instances they are able to marshal administrative 
remedies faster than OMB. Agencies can terminate contracts and assign 
personnel to meet revised agency priorities. These types of changes are 
implemented very quickly. In addition, on at least an annual basis 
agencies convene investment review boards (IRBs) to review the IT 
investments of their respective institutions to ensure that they are 
delivering on the vision and consistent with the agreed upon strategy.
    To conduct a TechStat, agencies and OMB need to dedicate time and 
resources across every discipline involved, including the program/
mission offices, IT, acquisition, general counsel, human capital, 
performance, risk, and financial management. These can vary depending 
on the size of the investment, the maturity of the program and the 
problem(s) which needs to be addressed.
    Additionally, as part of the Smarter IT Delivery Initiative, OMB is 
reshaping the delivery of information technology already underway and 
introducing new approaches/tools to transform the Government IT 
landscape. To do this, OMB is focused on a three-part agenda that will 
provide the Federal Government with: (1) the best talent (2) the best 
companies; and, (3) the best processes to drive outcomes and 
accountability.
    As part of this effort, in August 2014, the Administration began 
piloting the U.S. Digital Service. This small team of America's best 
digital experts will work in collaboration with other Government 
agencies to identify and fix problems, to help upgrade the Government's 
technology infrastructure, and to make Web sites more consumer 
friendly. The team has one core mission: to improve and simplify the 
digital experience that people and businesses have with the U.S. 
Government by:
  --Establishing standards to bring the Government's digital services 
        in line with the best private sector services;
  --Identifying common technology patterns that will help us scale 
        services effectively;
  --Collaborating with agencies to identify and address gaps in their 
        capacity to design, develop, deploy and operate excellent 
        citizen-facing services; and
  --Providing accountability to ensure agencies see results.
    The Administration also released for public comment two crucial 
components in its growing IT toolkit that will enable agencies to do 
their best work--the Digital Services Playbook and the TechFAR 
Handbook.
    The Digital Services Playbook lays out best practices for effective 
digital service delivery and will serve as a guide for agencies across 
Government. To increase the success of Government digital service 
projects, this playbook outlines 13 key ``plays'' drawn from private 
and public-sector best practices that, if followed together, will help 
Federal agencies deliver services that work well for users and require 
less time and money to develop and operate.
    To ensure Government has the right tech tools to do its job, and 
can be more agile and flexible to meet rapidly changing needs, the 
Administration also launched the TechFAR Handbook. The TechFAR Handbook 
is a guide that explains how agencies can execute key plays in the 
Playbook in ways consistent with the Federal Acquisition Regulation 
(FAR). This document will help agencies take advantage of existing 
authorities to procure development services in new ways that more 
closely match the modern software development techniques used in the 
private sector.
                                fedramp
    Question. On December 8, 2011, the Office of Management and Budget 
(OMB) issued a memorandum establishing the requirements for executive 
agencies to implement and use a standardized test and evaluation 
process to qualify cloud service providers for participation in the $80 
billion a year Federal IT marketplace called the Federal Risk and 
Authorization Management Program or FedRAMP. Industry estimates 
demonstrate that FedRAMP has saved the Government $52.5 million since 
the program began operating in 2012. Considering that the Federal 
Government spent more than $450 million on security authorizations and 
incurs annual costs in excess of $9 billion to support more than 60,000 
full-time employees to handle related security operations, full 
implementation of FedRAMP could potentially save both the Government 
and the industry significant dollars and time. The OMB memorandum 
requires that all Cloud Service Providers must be FedRAMP certified by 
June 4, 2014 in order to be eligible to partake in future Federal cloud 
service procurement opportunities or continue providing services in 
cases of existing providers. However, as the deadline quickly 
approaches, many have expressed concerns that OMB and GSA may not be 
prepared to effectively enforce the June 4, 2014 FedRAMP deadline. 
Failure to implement measures to ensure Federal agencies comply with 
this deadline would result in the continued acquisition of non-FedRAMP-
certified cloud service offerings, which would not only elevate the 
security risk to Federal IT systems, but also jeopardize the future of 
the FedRAMP program.
  --What measures will be taken to ensure that agencies enforce the 
        FedRAMP deadline on CSPs seeking Government acquisition 
        opportunities after June 4, 2014?
  --How will OMB and GSA support the FedRAMP program going forward to 
        ensure this promising cybersecurity initiative is effectively 
        implemented and the broader goals of the President's 
        International Strategy for Cyberspace and Cloud First policy 
        are ultimately achieved?
    Answer. To clarify, the June 2014 deadline referenced in the 
question was not for cloud service providers, but rather for Federal 
agencies to update, evolve and refine their cloud authorizations, 
completed on a continuous basis as they implement and comply with the 
Federal Information Security Management Act (FISMA). To accomplish this 
goal, agencies would need to work CSPs, but the deadline was specific 
to Federal agencies, not industry. Moreover, the value proposition 
behind FedRAMP is the standardization of the assessing and authorizing 
cloud solutions, saving both the Government and industry time and 
resources.
    OMB continues to work with the FedRAMP Project Management Office at 
GSA, the FedRAMP Joint Authorization Board (JAB), CSPs, and agencies on 
improvements that can be made to the FedRAMP process. For example, OMB 
is working with this community to improve inter and intra-agency trust 
of FedRAMP authorizations so that agencies do not unnecessarily 
duplicate the security authorization process. Additionally, OMB is 
working with this community to determine if there are ways to 
accelerate the approval process while still meeting the same quality 
standards that exist today. As further improvements are made to this 
program, OMB will brief the relevant committees on this progress.
    OMB conducts oversight through normal channels, which include 
PortfolioStat and processes to support the annual FISMA Report, to 
gauge agency efforts to meet the June 2014 deadline. As necessary, OMB 
will work with agencies on corrective actions, for example, if the 
deadline isn't met. FedRAMP itself is one part of a comprehensive 
approach to accelerate the adoption of cloud computing across the 
Government to drive innovation, increase collaboration, and create 
service efficiencies.
                   federal data center consolidation
    Question. In 2010, the Federal CIO established the Federal Data 
Center Consolidation Initiative to achieve a number of goals including 
reducing energy consumption; shrink the real estate footprint of 
Government data centers; reduce the cost of data center hardware, 
software, and operations; and increase IT security. OMB believes this 
effort will provide about $3 billion in savings by the end of 2015.
  --Please provide a status update of this effort.
  --How many data centers have been closed to date and how much savings 
        have there been?
  --Which agencies are doing a good job with data center consolidation? 
        Which agencies are not?
  --What is OMB doing to make data center cost savings more 
        transparent, as GAO has recommended?
    Answer. In October 2010, based on agency submissions after the 
launch of the Federal Data Center Consolidation Initiative (FDCCI), OMB 
reported 2,094 data centers. As of July 2014, agencies have identified 
9,540 data centers, of all types and sizes. This increase, explained in 
further detail below, is a result of a change in definition of a data 
center, and is not a result of construction of new data centers. The 
9,540 is categorized into two populations, core (275 data centers) and 
non-core (9,265), further defined below.
    It is important to note that since the FDCCI was launched there 
have been several important policy shifts within the data center space 
which provide some context for the increased 9,540 figure. First, in 
March 2012, based on a recommendation from the FDCCI Task Force (a CIO 
Council body,) OMB changed the definition of a data center and removed 
all square footage and tiering requirements (the original definition 
required 500 square feet and meeting strict criteria from the Uptime 
Institute). Subsequently, this caused a dramatic increase in the number 
of data centers that agencies reported. As mentioned above, the jump 
was not due to construction of new data centers, as the Government 
maintains a net zero growth policy dating back to the summer of 2010. 
Further, the definitional change has provided additional transparency 
and insight into the Federal Government's actual data center footprint. 
The majority of the Government's data centers are smaller rooms and 
closets (less than 1,000 square feet), rather than large, stand-alone 
facilities, that one envisions when he/she considers what a Google, 
Facebook or Microsoft may employ.
    Second, in March 2013, the FDCCI was integrated into PortfolioStat, 
the Government's IT portfolio management initiative. As these efforts 
converged, OMB instructed agencies to focus on optimizing those data 
centers that are pivotal to delivering taxpayer services, while closing 
duplicative and inefficient data centers. As a result, agency progress 
under the FDCCI is no longer solely measured by closures. Instead the 
FDDCI Task Force categorized agency data center populations into two 
categories: core and non-core. While the Government will continue to 
target the initial goal of closing 40 percent of agency-identified, 
non-core data centers, agencies will also be measured by the extent to 
which their core data centers are optimized for total cost of 
ownership. To enable this, the Task Force developed energy, facility, 
labor, storage, virtualization and cost per operating system metrics.
    Instead of focusing on one metric, for example, server utilization, 
OMB worked with the FDCCI Task Force to develop total cost of ownership 
metrics, which measure performance against all the cost areas of data 
centers, rather than just one dimension (utilization) of one piece of 
data center equipment (servers). These metrics, which were published as 
part of the fiscal year 2014 PortfolioStat guidance, cover hardware, 
software, energy, human capital and facilities density. OMB and the 24 
participating Federal agencies believe that working to meet the targets 
for these metrics puts the Government in a better position to address 
emerging taxpayer needs than just focusing on server utilization.
    To date, agencies have closed 976 data centers with 3,665 planned 
for closure by the end of fiscal year 2015. This information is updated 
on a quarterly basis on Data.gov. OMB provides oversight through its 
PortfolioStat process, monthly FDCCI Task Force meetings, continuous 
budget development and execution discussions, and if necessary, other 
avenues.
    With regards to agency efforts and transparency, OMB is currently 
working with agencies through the Federal CIO Council on publicly 
releasing the FDCCI core data center optimization metrics and 
PortfolioStat cost savings (currently reported through the Information 
Technology Oversight and Reform Quarterly Report to the House and 
Senate Committees on Appropriations).\2\
---------------------------------------------------------------------------
    \2\ Information Technology Oversight and Reform (ITOR) Quarterly 
Report to Congress, previously known as the IEEUIT Report.
---------------------------------------------------------------------------
    When you examine how agencies are doing with the FDCCI, you see 
examples of successes and failures across the Government. For example, 
the Census Bureau saved $18 million from fiscal years 2011-2013 by 
utilizing cloud computing as a means to do data center optimization, 
DHS saved $136 million in fiscal years 2012-2013 by decommissioning DHS 
component serves and migrating these services to DHS enterprise data 
centers, and EPA saved $10 million in fiscal year 2012 by making better 
use of shared services through infrastructure optimization and 
consolidation. At the same time, more work remains to be done, 
including accurately calculating savings from where the costs of 
operating the facility are owned by multiple entities, and determining 
the true impact of energy efficiency efforts when there is a lack of 
metering. OMB will continue to work across the Government, the FDCCI 
Task Force and external bodies, including advocacy and industry groups 
to mitigate these challenges as the FDCCI continues.
                         federal cio authority
    Question. How much of the total fiscal year 2015 budget request for 
IT is directly controlled or overseen by the Federal CIO at each 
agency?
    Answer. While OMB believes that current statutes provide agency 
CIOs with the proper authorities to ensure that IT is used as a 
strategic asset to improve service delivery, it's clear these 
authorities have not been implemented in a consistent and effective 
manner across agencies. Direct CIO control over IT budget ranges from 
less than 1 percent to as high as 97 percent, with an overall average 
of around 25 percent.
    To strengthen CIO authorities, OMB issued memorandum M-11-29, 
emphasizing the role that CIOs are required to have in the areas of 
governance, commodity IT, program management and information security. 
Additionally, OMB has made CIO authorities an integral part of 
PortfolioStat. As part of PortfolioStat sessions, OMB discusses with 
agencies their progress implementing CIO authorities. Additionally, OMB 
has and is committing to continuing a robust dialogue with Congress on 
whether legislation is required to fully implement CIO Authorities.
                   hhs cio control of healthcare.gov
    Question. How much influence did the HHS CIO, Frank Baitman, have 
over the Healthcare.gov project?
    Answer. The Department of Health and Human Services would be best 
equipped to answer this question.
                                 ______
                                 
              Questions Submitted to Hon. Dan Tangherlini
                Questions Submitted by Senator Tom Udall
                                  18f
    Question. How will you ensure that agencies will not be reluctant 
to request help from the General Services Administration's (GSA's) 18F 
team?
    Answer. The 18F team will create demand through the delivery of 
successful outcomes. Agencies have a need for this type of work and if 
the 18F team is successful, it will be seen as an obvious place to go 
to partner with a talented team using methods that drive down costs and 
successfully deliver products and services on time.
    GSA is actively promoting the work 18F is undertaking to build 
awareness and interest. The team is discussing its approach and 
potential projects with any agency or Federal entity that is 
interested, and is eager to address any questions. Ultimately, it is up 
to agency and program leadership to make the decision whether to use 
any service, product, or tool to better manage and build technology 
solutions.
                    special hire and pay authorities
    Question. I am aware that 18F and the Digital Service are using 
schedule A hiring authority and that direct hire authority is available 
for Information Technology (IT) Management (Information Security) (GSA-
2210, GS-9 and above, Governmentwide and nationwide), but not all IT 
positions.
    Given the high demand and competition for IT-related positions, and 
because the private sector can often pay higher salaries for such 
positions, do you believe that increased hire and pay authorities 
should be considered for IT positions that don't currently have any and 
if so, what types of positions would these be?
    Answer. To date, the 18F program has used standard pay schedules 
and existing hiring authorities to build the team. GSA feels that an 
attractive mission and work that is highly valued across the 
organization can be an excellent recruiting tool for talent.
    GSA has worked to improve the time to hire for the 18F organization 
as long hiring times dissuade many highly qualified candidates from 
taking positions in both the private and public sector. Technical 
talent does not stay on the market long.
    Question. What other types of hiring and pay incentives beyond 
those now available to Government employees and agencies do you believe 
should be contemplated for recruitment and retention of IT specialists?
    Answer. When hiring in a competitive area, like technology 
development, different tools may be needed to help hire and retain the 
most qualified and talented workforce possible. Working with the Office 
of Personnel Management, Federal agencies can better understand the 
authorities currently available to them for hiring and pay.
      fixing sam.gov web site for federal procurement opportunities
    Question. My office frequently receives requests from small New 
Mexico companies seeking to find and compete for Federal procurement 
opportunities. I like to point them to online tools such as GSA's 
System for Award Management or SAM Web site. But I have heard numerous 
complaints from small business owners about how complicated the SAM 
registration process is. And worse, one has to register before one can 
browse what Federal opportunities are even available. One former 
Presidential Innovation Fellow documented his frustrations with this by 
showing each step he encountered when trying to register on SAM. He has 
77 slides showing the various steps and complications he faced. At one 
point near the end, his online application was blocked since he did not 
have a fax number.
    I would like to ask three questions I hope you will answer ``yes'' 
to. Will you commit to fixing some of the problems with SAM by:
  --Simplifying the SAM registration process?
  --Allowing anyone to view and bid on Federal opportunities through 
        SAM?
  --Requiring companies to register fully once they are closer in the 
        process to receiving a final award rather than at the start?
    Answer. Yes, the GSA Integrated Award Environment (IAE) is 
committed to greater ease of use and has plans for a user-centric 
design to further modernize the System for Awards Management (SAM) and 
other IAE systems. It currently takes an average of 3 calendar days to 
complete registration in SAM, including external Internal Revenue 
Service and Department of Defense validations. Some companies that 
experience problems with these tax and Commercial and Government Entity 
(CAGE) code validations take longer to register.
    Currently, everyone already has the ability to view Federal 
opportunities without registering in SAM. Federal opportunities are 
posted at www.fbo.gov, and no SAM registration is required to view 
them. While SAM currently does not show Federal opportunities, GSA 
plans to incorporate fbo.gov into SAM in future development.
    Similarly, it is already the case that companies are not required 
to register fully in SAM until they are close to award. Under Federal 
Acquisition Regulation (FAR) 4.1102(a), prospective contractors are 
only required to be registered in SAM prior to award, but not prior to 
submitting an offer. If a contractor has not registered in SAM prior to 
award, FAR 4.1103(a)(1) instructs contracting officers to contact 
potential awardees and instruct them to register in SAM prior to award.
                                fedramp
    Question. Mr. Tangherlini, can you discuss the current status of 
the FedRAMP effort and how many cloud service providers have received 
at least agency-level authority to operate under FedRAMP?
    Answer. FedRAMP is fully operational. The status is summarized 
below.
    As of June 9, 2014, 22 cloud services have received FedRAMP 
authorizations:
  --12 companies and 13 cloud services have received Joint 
        Authorization Board (JAB) issued Provisional Authorizations to 
        Operate (P-ATO).
  --2 companies and 3 cloud services have received agency issued 
        Authorizations To Operate (A-ATO).
  --5 private cloud services have been authorized by the Department of 
        Homeland Security (DHS).
  --1 Government agency (U.S. Department of Agriculture) has one cloud 
        service that meets FedRAMP requirements.
  --There are 13 Cloud Service Providers (CSPs) with 13 cloud services 
        in-process for Joint Authorization Board authorization.
    The authorized cloud services include both large and small 
businesses, and range across Infrastructure as a Service (IaaS), 
Platform as a Service (PaaS), and Software as Service (SaaS) offerings. 
At any given time, there are also upwards of a dozen systems being 
actively reviewed by the JAB for FedRAMP authorization, and many more 
in the pipeline. Agencies are also working on their own authorizations 
with numerous cloud service providers.
                  effect of not investing in it budgets
    Question. For the past several years, IT budgets at agencies have 
been cut. This has affected projects that are designed to save money 
once implemented.
    Can you discuss some of the effects at your agencies of the 
inability to implement planned projects?
    Answer. GSA IT's budget has been decreasing since 2013, and is 
projected to continue this trend through fiscal year 2016. GSA's 
agency-wide consolidation of support functions has provided the Chief 
Information Officer (CIO) with opportunities to streamline the IT 
environment and reduce duplication, and, as a result, have been able to 
reduce associated costs. Efficiencies gained from consolidation have 
enabled the CIO to shift some resources from running legacy 
applications and infrastructure and invest in efforts to grow and 
transform GSA's business IT systems. That said, the realities of a 
constrained budgetary environment mean that the full benefits of 
initiatives such as cloud storage, virtual desktop integration, and 
data center consolidation are taking longer to realize.
    Full funding of GSA's fiscal year 2015 request will enable us to 
further develop and operate transformative solutions that will result 
in long term savings to the agency. A key component in this 
transformation is the need to divest GSA of costly legacy solutions and 
environments, through careful and judicious investments in modern 
technologies, using common tools and platforms to replace duplicative 
systems, and to continue to invest in collaborative and cloud based 
technologies to allow GSA's vision of mobility.
    Specifically, full funding will allow us to invest in solutions in 
the following areas:
  --Open Data/Open Government initiatives.
  --Data analytics platform to support Governmentwide data analytics.
  --Ability to transform GSA IT to adopt agile development processes, 
        resulting in more efficient delivery of IT services.
  --Increased compliance and adoption of records and electronic 
        document management practices.
  --Increase mobility and automation of paper based business processes.
    Our experience has shown that investing in such technologies and 
initiatives can not only greatly reduce overall agency costs, but also 
improve how GSA delivers on its mission. Our organization will continue 
to optimize our operations, reduce duplication of effort and resources, 
and enable increasingly efficient delivery of IT services.
 25 point implementation plan to reform federal information technology 
                               management
    Question. In 2010, the Office of Management and Budget (OMB) issued 
the 25 Point Implementation Plan To Reform Federal Information 
Technology Management, which detailed action items for GSA and other 
agencies in order to deliver more value to the American taxpayer. 
Please provide an update on the current status of those action items 
assigned to GSA. For those action items not completed, please explain 
why.
    Answer. (1) Stand-up contract vehicles for secure Infrastructure-
as-a-Service (IaaS) solutions.
  --The GSA Federal Acquisition Service (FAS) has established Blanket 
        Purchase Agreements (BPAs) for Cloud Infrastructure as a 
        Service (IaaS) with 11 industry partners.
  --The providers on this Cloud IaaS BPA allow agencies to buy cloud 
        storage, virtual machines, and Web hosting with an Authority to 
        Operate (ATO) at the Federal Information Security Management 
        Act (FISMA) moderate impact level.
  --IaaS helps agencies realize cost savings and efficiencies while 
        modernizing and expanding their IT capabilities without 
        spending capital resources on infrastructure. Cloud-based 
        infrastructure is rapidly scalable, secure, and accessible over 
        the Internet--you only pay for what you use.
    (2) Stand-up contract vehicles for ``commodity'' services.
  --GSA has established Federal Strategic Sourcing Initiatives, 
        including a Blanket Purchase Agreement for Wireless Service 
        (http://www.gsa.gov/portal/category/
        100931?utm_source=FAS&utm_medium=print-
        radio&utm_term=wirelessfssi&utm_campaign=shortcuts).
    (3) Reduce barriers to entry for small innovative technology 
companies.
  --GSA established Business Breakthrough, workshops that offered 
        companies up-to-date information on how to successfully 
        navigate Government contracting (http://www.gsa.gov/portal/
        content/239329?utm_source=OCM&utm_medium=print-
        radio&utm_term=businessbreakthrough&utm_campaign=shortcuts).
  --GSA created FBOpen, which streamlines the process of looking for 
        opportunities with the Federal Government (https://github.com/
        18F/fbopen).
  --GSA established BusinessUSA, a one-stop platform to make it easier 
        for businesses to access services that help them to hire and 
        grow (http://
        business.usa.gov/).
  --GSA created Challenge.gov, allowing agencies to establish 
        technical, scientific, ideation, and creative competitions 
        where the U.S. Government seeks innovative solutions from the 
        public (https://challenge.gov/).
    (4) Launch an interactive platform for pre-request for proposal 
(RFP) agency-industry collaboration--GSA established the Better Buy 
Projects Pilots Wiki, an online dialogue with the acquisitions 
community to make Government buying more open and collaborative (http:/
/www.gsa.gov/portal/content/131483).
                     gsa and federal it procurement
    Question. What is GSA doing to help Federal agencies procure IT 
systems and services and how can this be improved?
    Answer. FAS' Integrated Technology Service (ITS) is helping Federal 
agencies procure IT systems and services to meet the Government's 
missions while saving taxpayer dollars.
    In the first 7 months of fiscal year 2014, Federal, State, and 
local entities spent $13.9 billion through GSA's IT contracts. 
Documented savings for agencies using certain GSA programs are $607 
million between October 2013 and March 2014. We expect by the end of 
fiscal year 2014, agencies will save a total of $1.3 billion using 
several of GSA's IT contracts and resources. In addition, agencies 
using GSA contracts are avoiding the cost, time, and resources spent on 
setting up redundant contracts throughout Government.
    For example, in our Network Services Networx program, ITS helped 
save Government 30 to 60 percent compared to benchmarked commercial 
pricing and Government saved, on average, 7.27 percent using GSA's 
Reverse Auctions, with 87 percent of the awardees being small 
businesses. In addition, ITS' software acquisition Blanket Purchase 
Agreements (BPAs)--SmartBUY--saved the Government $776.7 million in 
fiscal year 2013 by negotiating reductions in software prices.
    In addition to providing agencies increased savings, ITS is focused 
on improved relationships and collaboration with our Government 
partners, increasing our customer service, and utilizing partnerships 
with both agencies and industry to find solutions to complex Government 
problems. For example, ITS has partnered with OMB and other Federal 
agencies to provide solutions for IT hardware (servers, laptops, 
desktops), cloud, mobility, and wireless devices. ITS has also been 
held up as a model of Government partnerships and reduced contract 
duplication through our partnership with the Defense Information 
Systems Agency for satellite communication services.
    We plan to provide additional capabilities and expert resources to 
agencies through a shift in our delivery model (aka, category 
management). Simply, this means a shift from focusing on contracts to 
helping agencies buy IT better in terms of what they are trying to buy 
(telecom, outsourcing, cloud, hardware, etc). This strengthened market 
approach will help us better structure IT acquisitions to match 
business markets to Government needs, further minimize redundancies in 
Government purchasing, and reduce total cost of ownership to the 
Government and taxpayers.
    In each of our programs, ITS has strong partnerships with agencies 
and industry who work with us to develop requirements, identify market 
offerings, challenges, and best practices that ultimately result in 
Governmentwide offerings meeting the majority of Government's needs in 
IT.
                             it schedule 70
    Question. GSA's IT Schedule 70 is the largest, most widely used 
acquisition vehicle in the Federal Government. How is the IT Schedule 
70 helping or hindering the Government's ability to acquire innovative 
technologies and IT services?
    Answer. The IT Schedule 70 program continues to help the Government 
acquire innovative technologies. As a part of the Multiple Award 
Schedules, Schedule 70 supports agencies acquiring innovative 
technologies and IT services by providing pre-competed, on-demand 
contracts with over 4,700 industry partners. The majority of these 
Schedule 70 partners are small businesses. The pre-competed Schedule 70 
contracts help to reduce acquisition times and redundancy in agency 
acquisitions. These Schedule 70 benefits are available to help Federal, 
State, and local agencies.
    IT Schedule 70 is designed to allow quick, unassisted agency 
acquisitions of technology. In addition, IT Schedule 70 offers greater 
flexibility so agencies can tailor their own requirements at the order 
level and leverage other acquisition approaches such as BPAs to 
eliminate the need for agency-specific and redundant indefinite 
delivery/indefinite quantity contracts. The schedules' flexibility 
gives agency contracting offices the choice to retain control of their 
procurements, including requirements development, evaluation, award and 
administration.
    GSA is also working to help the Government's ability to acquire 
innovative technologies and services that have yet to be introduced to 
the Federal Government, through its Special Item Number (SIN) 132-99, 
Introduction of New Information Technology Services and/or Products. 
This would allow offerors and vendors to add new and innovative 
information technology products and services to IT Schedule 70 that 
would be otherwise unclassified and out of scope to the other SINs 
under the program. Moreover, it provides a new service, function, task, 
or attribute that may provide a more economical or efficient means for 
Federal agencies to accomplish their mission.
    Finally, for agencies that require additional assistance, GSA also 
offers full-service IT acquisition options through our Assisted 
Acquisition Services.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                                sam.gov
    Question. In 2008, the General Services Administration (GSA) began 
consolidating 10 Governmentwide acquisition data systems into one 
integrated system called the System for Award Management (SAM.gov). The 
intent of this approach was to enhance competition and innovation. The 
current SAM application includes four of those legacy systems. One of 
those systems is the Central Contractor Registration or CCR. Since the 
Government switched from CCR to SAM.gov, there has been a precipitous 
drop in the number of new businesses competing for Government 
contracts. The number of new registrations per month has dropped over 
35 percent. I have heard from small businesses interested in 
contracting with the Federal Government about the difficulty of 
navigating this process.
    Can you explain the drop in registrations in switching from CCR to 
SAM.gov? Should we expect the same drop with regards to the other 
systems as they are integrated into the SAM.gov?
    Is there a backlog to certify new registrants? If so, how can we 
reduce it?
    What is GSA doing to improve that system so the burden for new 
entrants is not as high?
    Answer. The System for Award Management (SAM), and the Central 
Contract Registration (CCR) before it, is the Governmentwide system 
where entities register to do business with the Federal Government, as 
required by the Federal Acquisition Regulation (FAR). The trend for 
registrants new to the process starting in 2007, does show an overall 
decline. There was a significant spike up in 2009, correlated with 
opportunities due to the American Recovery and Reinvestment Act of 
2009. Specifically the new registrant numbers by fiscal year are:
    CCR 2007: 113,277
    CCR 2008: 124,163
    CCR 2009: 191,159
    CCR 2010: 150,640
    CCR 2011: 143,482
    CCR 7 months 2012: 62,487 SAM: 21,393 total: 83,880
    SAM 2013: 78,571
    SAM 2014: 32,562 5 Months
    Importantly, with the launch of SAM, the Federal governance for the 
GSA Integrated Award Environment (IAE) affected the decision to change 
the requirements for registrants interested in procurement 
opportunities with the Federal Government. In CCR, registrants provided 
general information about the entity, contacts and the necessary 
financial information to receive payment. However, the Representations 
and Certifications were not required, and were input through the 
separate Online Representations and Certifications Application (ORCA).
    At the time that the Government migrated from CCR to SAM, only 29 
percent of all entities registered to receive procurement dollars had 
complete and current Representations and Certifications in ORCA. Today 
all procurement registrants in SAM have current and completed 
Representations and Certifications.
    In July 2012, at migration there were approximately 221,000 active 
procurement registrants in CCR; only about 64,000 were compliant with 
Representations and Certifications. As of May 27, 2014, there were in 
excess of 355,000 registered entities for contracts and 100 percent of 
these were compliant for Representations and Certifications.
    As is evidenced by the number of active registrants, excluding 
those only seeking grants and financial assistance, the number of 
eligible registrants has increased over time, as many historical 
registrants continue to renew their registrations.
    The IAE continues to work with the Federal community and 
registrants to improve access and functionality including updating SAM 
with Helper Text in plain English, implementing an open data 
Application Programming Interface (API) for users to be able to track 
status in real time, and implementing live chat at the help desk. As 
the Environment transitions into the planned three-core with API future 
state, the common services platform will standardize user identity and 
access management, further enhancing ease of use.
              federal government property broadband access
    Question. In 2012, Congress enacted the Middle Class Tax Relief and 
Job Creation Act (Public Law 112-96), which directed GSA to develop a 
master contract to govern the placement of wireless service antenna 
structures on buildings and other property owned by the Federal 
Government. This plan would both enhance the wireless industry's 
ability to deliver high speed wireless broadband service and create 
revenue for the Treasury. The law required this plan to be completed 
within 60 days of enactment. After little progress was made, President 
Obama issued an Executive Order directing agencies to tackle this 
assignment. Yet, it is my understanding that more than 2 years after 
the deadline, this work is still not complete.
    What is the status of this project?
    Answer. GSA drafted the master contract within the 60-day period 
mandated by section 6409 of Public Law 112-96. Given that the contract 
is to be used by executive landholding agencies to facilitate 
streamlined contracting with private sector telecommunications carriers 
for the installation of the carrier's antennas on Federal facilities, 
the master contract is based on the contract GSA uses to outlease space 
for private sector antenna installations at GSA controlled facilities.
    Question. When do you expect that a master siting contract will be 
finished and available for use?
    Answer. The master contract is finished and available for use by 
executive landholding agencies to document an agreement between the 
United States and the private sector telecommunications company 
concerning the installation of the carrier's antenna on Federal 
property. The contract is publicly available at http://www.gsa.gov/
portal/content/191703.
                        federal fleet management
    Question. According to a July 2013 Government Accountability Office 
(GAO) report, Federal agencies spend about $3 billion annually to 
acquire, operate, and maintain 450,000 Federal vehicles. President 
Obama has directed agencies to determine their optimal fleet 
inventories and set targets for achieving these inventories by 2015 
with the goal of a more cost-effective fleet. GAO offered a series of 
recommendations to achieve this goal, and notes that GSA agreed with 
the recommendations.
    Has the GSA completed its development and published guidance for 
agencies on estimating indirect fleet costs? If so, could you please 
provide a status update?
    Answer. GSA has completed its development and published guidance 
for agencies on estimating indirect fleet costs. We issued GSA Bulletin 
FMR B-38, Indirect Costs of Motor Vehicle Fleet Operations, on February 
20, 2014. This bulletin provides guidance to Executive agencies 
regarding the estimation, identification, categorization, and reporting 
of indirect costs of operating a fleet of motor vehicles.
    Question. What is the amount of cost savings Congress and taxpayers 
can expect from a smaller, more modern fleet?
    Answer. GSA is tasked with coordinating a Governmentwide process 
whereby agencies implement vehicle allocation methodologies for right-
sizing their fleets. Right-sizing is not solely about reducing costs, 
it is about configuring the fleets to optimally support the agencies' 
missions. This may entail eliminating unnecessary vehicles, which would 
reduce their associated costs, but it also may encompass acquiring more 
appropriate vehicles and shifting between vehicle types. For example, 
an agency may find that a minivan is more efficient use of resources 
than a large sport utility vehicle (SUV); or a particular mission may 
be more effectively achieved by using a low greenhouse gas emitting 
compact sedan rather than a larger passenger vehicle. In 2013 a 
significant shift to subcompact sedans from large, medium, and compact 
sedans occurred with subcompacts increasing by 6,501 vehicles while the 
large, medium, and compact sedan categories were reduced by 10,915 
vehicles.
    Additionally, the agencies are under statutory and other mandates 
to meet targets for acquiring alternative fuel vehicles, consuming more 
alternative fuel and less petroleum, meeting environmental goals, and 
enhancing safety. While some of these efforts may reduce costs in the 
long run, in some situations they may actually increase up-front costs. 
While cost-consciousness and reducing waste and inefficiency is always 
a major goal, it is balanced by the need to invest in a more modern, 
safe, and efficient fleet.
    Question. How many Federal employees currently support the 
acquisition, operation, and maintenance of the Federal vehicle fleet?
    Answer. The acquisition, operation and maintenance of the Federal 
vehicle fleet are the responsibility of the individual agencies. 
Although agencies report overhead costs to GSA, the number of Federal 
employees supporting these areas are determined by the individual 
agencies and not reported to GSA. In some agencies fleet management is 
often an ancillary function performed by employees with other duties.
    Question. Of the $3 billion overall cost of fleet management, how 
much can be attributed to acquisition of new vehicles? What percentage 
can be attributed to operation of the vehicles? How much does the 
Government spend to maintain the fleet?
    Answer. Agencies' spending specifically to purchase vehicles 
(excluding the United States Postal Service (USPS)) in 2013 was $1.06 
billion, a 10-year low, down from over $1.9 billion in 2009. Overall 
fleet costs (also excluding USPS) were $2.825 billion in 2013, 
consisting of $875 million (31 percent of the total) in depreciation, 
$339 million (12 percent) in maintenance, $117 million (4 percent) in 
indirect costs, $32 million (1 percent) for commercial leases, $1.009 
billion (36 percent) to lease vehicles from GSA, and $452 million (16 
percent) for fuel.
    Question. Has GSA explored using private sector technologies that 
would allow Federal employees to check out vehicles, much like leading 
short-term vehicle rental companies?
    Answer. Following the lead of popular commercial car sharing 
ventures, GSA is actively pursuing similar initiatives to help Federal 
agencies reduce costs, improve efficiencies, optimize vehicle use and 
support sustainability. GSA's goal is to drive agency cost savings 
while allowing agencies to focus resources on their mission instead of 
ancillary services.
    GSA is interested in being able to provide its Federal customers a 
variety of transportation solutions designed to fit a customer's 
vehicle needs. For example, for customers that only need transportation 
intermittently, it may be more beneficial to use a car sharing service 
in lieu of renting, leasing and/or purchasing a vehicle.
    GSA has launched several car sharing initiatives and pilots to 
identify which is in the best interest of the Government. In December 
2013, GSA launched a pilot for a car sharing service through the newly 
developed GSA Fleet Vehicle Dispatch Reservation Module. The module 
allows customers to combine GSA fleet leased vehicles and agency owned 
vehicles in GSA's Federal Fleet Management System within a given agency 
into motor pools, schedule vehicle reservations, dispatch vehicles to 
drivers, and generate reservation and utilization reports. Agencies can 
track vehicle utilization and determine where one could potentially 
reduce the number of vehicles to increase their fleet efficiency and 
productivity through this car sharing solution. After a successful 
pilot period, GSA launched the tool for Governmentwide use on March 31, 
2014.
    Another pilot is planned to supplement the Federal fleet by 
utilizing commercially available hourly rentals that offer pilot 
customers the ability to reserve a car by the hour or by day, to meet 
official business needs requiring local travel. A third pilot will 
focus on utilizing car sharing technology on existing GSA fleet 
vehicles located in the downtown Chicago area. The goal is to research, 
procure, test, and evaluate various car sharing technologies and tools. 
The results from these car sharing solutions will be evaluated to 
identify best practices for vehicle sharing, examine business models 
and technologies that facilitate car sharing, and identify any 
obstacles that may inhibit agencies from effectively sharing vehicles.
    Question. Has GSA considered installing technologies to monitor 
driving patterns and improve the operation and usage of vehicles?
    Answer. GSA is dedicated to bringing Federal customers innovative 
products and services to more efficiently and effectively manage their 
motor vehicle fleets. GSA continually researches new technologies aimed 
to improve the overall efficiency of the Federal fleet. Recently GSA 
entered into a partnership with the National Highway Traffic Safety 
Administration (NHTSA) to ensure the Federal fleet is a leader in 
safety technology. Together, a pilot will be conducted to focus on the 
effectiveness of three main technologies: forward collision alert, lane 
departure warning and back up camera systems. Piloting these advanced 
vehicle technologies affords GSA and NHTSA the opportunity to implement 
measures, receive immediate feedback, and conduct analysis that have 
the potential to mitigate poor driving behavior.
    Additionally, GSA is beginning to offer vehicle monitoring 
solutions to Federal agencies that will have the capability to collect 
information regarding vehicle locations, driver behavior, utilization, 
and unsafe driving practices.
                           gsa it schedule 70
    Question. GSA developed IT Schedule 70 as an acquisition vehicle 
for agencies to have direct access to products and services from more 
than 5,000 certified industry partners. How is GSA's Schedule 70 
helping or hindering the Government's ability to acquire innovative 
technologies and IT services?
    Answer. The IT Schedule 70 program continues to help the Government 
acquire innovative technologies. As a part of the Multiple Award 
Schedules, Schedule 70 supports agencies acquiring innovative 
technologies and IT services by providing pre-competed, on-demand 
contracts with over 4,700 industry partners. The majority of these 
Schedule 70 partners are small businesses. The pre-competed Schedule 70 
contracts help to reduce acquisition times and redundancy in agency 
acquisitions. These Schedule 70 benefits are available to help Federal, 
State, and local agencies.
    IT Schedule 70 is designed to allow quick, unassisted agency 
acquisitions of technology. In addition, IT Schedule 70 offers greater 
flexibility so agencies can tailor their own requirements at the order 
level and leverage other acquisition approaches such as Blanket 
Purchase Agreements (BPAs) to eliminate the need for agency-specific 
and redundant indefinite delivery/indefinite quantity contracts. The 
Schedules' flexibility gives agency contracting offices the choice to 
retain control of their procurements, including requirements 
development, evaluation, award and administration.
    GSA is also working to help the Government's ability to acquire 
innovative technologies and services that have yet to be introduced to 
the Federal Government, through its Special Item Number (SIN) 132-99, 
Introduction of New Information Technology Services and/or Products. 
This allows offerors and vendors to add new and innovative information 
technology products and services to IT Schedule 70 that would be 
otherwise unclassified and out of scope to the other SINs under the 
program. Moreover, it provides a new service, function, task, or 
attribute that may provide a more economical or efficient means for 
Federal agencies to accomplish their mission.
    Finally, for agencies that require additional assistance, GSA also 
offers full-service IT acquisition options through our Assisted 
Acquisition Services.
    Question. What is GSA doing today to ensure that the IT schedules 
are efficient, competitive, and delivering value to the agency 
customers and taxpayers?
    Answer. GSA is currently undertaking a large scale effort to 
reshape and improve the Multiple Award Schedule (MAS) program to ensure 
the IT Schedule 70 contracts are efficient, competitive, and deliver 
value to agency customers and taxpayers. These changes are a direct 
result of customer feedback, the evolving acquisition environment, and 
changing market conditions.
    The IT Schedules Program is also focused on increasing 
competitiveness through better pricing and price visibility, increased 
compliance, and meaningful and timely program data. All GSA Schedules 
are migrating to a Dynamic Pricing Model to reduce prices and pricing 
variability across Schedules contracts and demonstrate savings to 
customer agencies. The goal of Dynamic Market Pricing is to provide 
relevant transactional level data at both the MAS and order level so 
agencies can negotiate better pricing. This is achieved through 
capturing transactional data collected on various Federal Strategic 
Sourcing Initiative (FSSI) Solutions at the Blanket Purchase Agreement 
(BPA) level to reduce price variability and increase data quality and 
spend analysis. In addition, ``Raising the Bar'' language was added to 
MAS solicitations (April 2014) that mandated broad offering 
availability for products and services, part number standardization, 
and Most Favored Customer (MFC) pricing, which alone does not 
constitute fair and reasonable pricing. GSA is also implementing 
services labor category standards and pricing and addressing 
manufacturer part number standardization via a Mass Modification for 
all SINs with products to existing contractors.
    While the above actions also deliver greater value to agencies, GSA 
is taking additional steps to implement solutions to enhance customer 
service and make MAS easier to use. GSA has added a new live chat 
feature on the Web site and a centralized toll-free number and e-mail 
address to make it easier and more efficient for agencies to contact 
GSA to get answers and needed support. GSA has launched the IT 
Solutions Navigator tool and other self-service options to help 
agencies find the best IT contract for the specific requirements. GSA 
is exploring leveraging e-commerce platforms to ensure customers have 
the information they need to make informed buying decisions.
                        gsa tech initiative 18f
    Question. GSA has launched a new pilot program called 18F. My 
understanding is this program is designed to help identify and address 
targeted IT challenges in Government and help provide solutions.
    Can you please share the long-term strategy behind 18F?
    Answer. 18F will be successful in the short term if we (1) properly 
scale the team to meet customer demand; (2) partner with several 
additional agencies and ship great products for those agencies early 
and often; and (3) provide a measurable increase in our agency 
partners' ability to deliver on their missions. In the long term, we 
hope our efforts will serve as a successful model for procuring, 
building and delivering digital services that are the norm in 
Government IT.
    Question. How many employees does GSA plan to hire?
    Answer. Currently, 18F has budgeted for 54 full time staff in 
fiscal year 2014. The success of the program will dictate how many 
staff GSA will eventually hire in the long term. 18F operates as a 
reimbursable service, and, if there is sufficient demand, the 
organization will scale appropriately.
    Question. How does this program help create stronger competition in 
the acquisition market?
    Answer. 18F will create stronger competition in the acquisition 
marketplace in three ways. First, 18F hopes to demonstrate that agile 
software development and lean practices are a more successful method of 
building and delivering technology. Success will lead more agencies to 
adopt these methods bringing companies into the marketplace who 
specialize in this type of work. Second, by demonstrating a less risky 
way of delivering technology, agencies will be less reluctant to 
modernize and develop information technology systems and services, 
opening up Federal expenditures that have been dedicated to operations 
and maintenance. Last, 18F will create demand for well functioning 
digital services from the public. To meet this growing demand, agencies 
will need to acquire appropriate services, platforms, and even 
infrastructure, which will increase competition and grow the 
acquisition marketplace.
    Question. Can you please identify agencies who have reached out to 
18F with specific IT challenges or projects? How many projects were 
there? What is the capacity of 18F to assist agencies in this process?
    Answer. Currently, there are 16 agencies that have made serious 
inquiries with 18F on projects that would benefit from the partnership. 
Eight of those agencies have either signed or are in the process of 
signing an interagency agreement. 18F is in various stages of business 
development on 24 projects across those agencies. 18F will only take on 
projects that it is confident in being able to meet the needs of the 
agency partner. If demand increases for 18F's services, GSA will work 
to staff the program accordingly.
                                 ______
                                 
            Questions Submitted to Hon. Katherine Archuleta
                Questions Submitted by Senator Tom Udall
                   increased pay and hire authorities
    Question. I am aware that 18F and the Digital Service are using 
schedule A hiring authority and that direct hire authority is available 
for Information Technology (IT) Management (Information Security) (GSA-
2210, GS-9 and above, Governmentwide and nationwide), but not all IT 
positions.
    Given the high demand and competition for IT-related positions, and 
because the private sector can often pay higher salaries for such 
positions, what increased hire and pay authorities are under 
consideration for IT positions that don't currently have any and what 
types of positions would these be?
    What other types of hiring and pay incentives beyond those now 
available to Government employees and agencies should be contemplated 
for recruitment and retention of IT specialists?
    Answer. The Office of Personnel Management (OPM) is reviewing 
current authorities to determine what additional flexibilities may help 
agencies, as well as ensuring that agencies are aware of the tools 
already available to meet staffing needs through existing 
flexibilities, authorities, and incentives. Agencies have considerable 
authority to provide additional direct compensation in certain 
circumstances to support their recruitment and retention efforts, or to 
request further flexibilities from OPM. Such compensation tools include 
special rates, critical pay, student loan repayments, and recruitment, 
relocation, and retention incentives.
    For example, OPM has established higher special rates of pay for IT 
specialists, computer engineers, and computer scientists to address 
staffing problems in certain entry/developmental grades within the 
General Schedule pay system. While the fiscal year 2013 the annual quit 
rate for IT specialists was 1.6 percent (below the Governmentwide 
average), special rates and other existing flexibilities can be used to 
target subpopulations of IT specialists, such as cyber security 
experts, where there may be staffing challenges.
                 effect of not investing in it budgets
    Question. For the past several years, IT budgets at agencies have 
been cut. This has affected projects that are designed to save money 
once implemented. Can you discuss some of the effects at your agency of 
the inability to implement planned projects?
    Answer. OPM released a Strategic IT Plan in March, fulfilling a 
commitment to strive to modernize IT that I made during my confirmation 
process. OPM developed the Strategic IT Plan to ensure our IT supports 
and aligns to our agency's strategic plan and that OPM's mission is 
fulfilled. It provides a framework for the use of data throughout the 
human resources lifecycle and establishes enabling successful practices 
and initiatives that define OPM's IT modernization efforts. Some parts 
of the plan will require us to shift resources, while others may 
require additional funding. OPM will develop project-specific work 
plans within the leadership and governance structure established by 
this strategic plan. In developing these work plans, OPM will determine 
funding needs and opportunities for cost avoidance and savings.
 25 point implementation plan to reform federal information technology 
                               management
    Question. In 2010, the Office of Management and Budget (OMB) issued 
the 25 Point Implementation Plan To Reform Federal Information 
Technology Management, which detailed action items for OPM and other 
agencies in order to deliver more value to the American taxpayer. 
Please provide an update on the current status of those action items 
assigned to OPM. For those action items not completed, please explain 
why.
    Answer. OPM launched a Project Manager Community of Practice (PM 
CoP) that fosters the development of IT program and project managers. 
OPM has collaborated with the Project Management Institute (PMI) so 
that participants can earn continuing education units through training, 
presentations, and mentoring to earn or maintain Project Management 
Professional (PMP) certification. Likewise, using the IT Program 
Management Career Path Guide, OPM focuses on developing new project 
managers through training, mentoring and providing hands on experience 
with projects. The PM CoP also partnered with the General Services 
Administration (GSA) for implementation of the Federal Acquisition 
Institute Training Application System (FAITAS) tool so OPM can track PM 
development and certifications.
    Working with the Chief Information Officers (CIO) Council and OMB, 
OPM has developed the IT Program Management Career Path Guide and 
recommended training curriculum for the newly established IT Program 
Management job title. It builds upon the IT Program Management 
Competency Model and provides guidance to Federal agencies on the 
creation and improvement of the IT Program Management career path.
    OPM also updated the Job Family Standard for the GS-2210 series to 
include the IT Program Manager definition which covers work that 
involves managing one or more major multi-year IT initiatives of such 
magnitude they must be carried out through multiple related IT 
projects.
    OPM worked with the Office of Management and Budget (OMB) to add 
the title IT Program Manager to the Job Family Standard for Information 
Technology, and to develop IT Program Manager competencies and the IT 
Program Management Career Path Guide. The Federal Acquisition 
Certification for program and project managers (FAC-P/PMs) builds upon 
this work and adds core-plus specialized certifications, the first one 
being in the area of IT. This development supports the administration's 
Smarter IT Delivery Agenda. The Smarter IT Delivery Agenda aims to 
increase customer satisfaction with top Government digital services; 
decrease the percentage of Federal Government IT projects that are 
delayed or over budget; and increase the speed with which qualified 
talent is hired and deployed to work on Government IT projects.
    Finally, agencies can use the Intergovernmental Personnel Act to 
allow for the temporary assignment of personnel, including IT program 
managers, between the Federal Government and State and local 
governments, colleges and universities, Indian tribal governments, 
federally funded research and development centers, and other eligible 
organizations.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    demographic challenges of aging information technology workforce
    Question. The Federal information technology (IT) workforce is 
aging. According to the Office of Personnel Management (OPM), 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just 4 percent of 
the Federal IT workforce is under 30 years of age.
    What are we doing to address the demographic challenges with 
regards to the IT workforce?
    Answer. The current Initiative to Close Cybersecurity Skill Gaps is 
led by the OPM Director along with the subject matter expertise 
provided by the initiative's sub-goal leaders from the Office of 
Science and Technology in the Executive Office of the President and the 
National Initiative for Cybersecurity Education. In addition, OPM is an 
active collaborative partner within the Federal cyber and human 
resources communities; the Chief Human Capital Officers Council; the 
Chief Information Officers Council; the National Initiative for 
Cybersecurity Education (NICE) project; and among Federal agencies to 
raise awareness about the vital need for strategic workforce planning 
across Government and within agencies to ensure that agencies have the 
capability to obtain the IT and cybersecurity workforce they need now 
and in the future.
    Strategic workforce planning includes insightful decisionmaking 
that relies on evidence-based analyses such as the demographic 
challenges cited above; the knowledge that the national labor market 
itself is shrinking; and that our talent pipeline in IT and cyber 
skills need strengthening. IT and cyber hiring and development 
opportunities, given the current economic environment, are key 
decisions each agency is addressing, as the competition nationally and 
globally for these skills will be fierce over the next decade.
    OPM is also working with technology departments at colleges and 
universities to ensure that the talent pipeline is growing and will 
have the IT and cyber skills needed by the agencies. In addition to 
promoting IT and cyber disciplines, OPM reaches out to the education 
and academia sector to increase its awareness of Federal employment 
opportunities and the Federal job application process. Student 
internships can start as early as the high school level and graduates 
of community colleges and universities are also encouraged to apply for 
employment. Just this past year, OPM launched a new outreach effort to 
recruit and onboard science, technology, engineering, and mathematics 
(STEM) graduates; the Presidential Management Fellowship (PMF) 
program's new PMF-STEM portfolio attracts applicants with IT and cyber 
skills in disciplines such as computer science, computer engineering 
and computational analytics.
    In working with Federal hiring officials, our outreach guidance 
provides agencies with up-to-date information on how to message their 
opportunities, encourages them to work within their communities to 
strengthen the local talent pipeline, the availability of hiring and 
pay flexibilities, and provides workforce planning tools that enable 
them to plan for and get the workforce they need. Our objective, given 
the current fiscal environment, is to raise and leverage the 
capabilities of the Federal agencies to get the IT and cyber workforce 
they need, now and in the future, when the national and global labor 
markets are progressively smaller and more competitive. This outreach 
also allows the Federal Government to reach communities like the 
veterans community. In fiscal year 2012, military veterans comprised 
28.9 percent of total hires, marking the highest percentage of military 
veterans newly hired into the Federal Government in over 20 years. As 
part of our efforts on recruitment for cyber positions, OPM has worked 
with many partners, including State programs that service veterans.
    Since mid-February, OPM has made presentations (face-to-face or 
virtually) at 36 schools, 14 of which are participants in Scholarship 
for Service (CyberCorps), and 13 of which are Centers of Academic 
Excellence Institutions. OPM has also developed a detailed outreach 
plan and set a goal of partnering with a total of 22 universities and 
colleges prior to the end of fiscal year 2014 in order to expand our 
recruitment and outreach presence.
    OPM is also promoting academic alliances with universities and 
colleges so that our existing workforce can retain, enhance or develop 
their skills. An example is OPM's recent 2014 alliance with the 
University of Maryland University College that offers discount tuition 
opportunities to Federal employees and their dependents. Similar 
efforts like this are under consideration with universities and 
colleges that offer degrees and coursework in IT and cyber skills as 
well. In addition, the National Initiative for Cybersecurity Education, 
with OPM and the Chief Information Officer Council as collaborative 
partners, offers a clearinghouse resource for our employees to use in 
planning for and getting the training they need.
                      interdisciplinary workforce
    Question. Increasingly, private sector companies have a workforce 
that is interdisciplinary in that they understand both business and 
technology. In comparison, many companies and former Government 
employees have complained to my staff about the lack of 
interdisciplinary skills in the Federal workforce--the program managers 
have only program management skills. The IT professionals are only 
familiar with IT. Acquisition workforce is trained in acquisition but 
not the other areas.
    To what extent are training funds in your budget designed to help 
develop a workforce that increasingly requires interdisciplinary 
skills?
    Answer. Cross-fertilization of technical professional skills such 
as IT, cyber and acquisition is part of the career development models 
and programs for Federal agencies. OPM along with the Federal agencies 
and the various interagency councils encourage IT, cyber and 
acquisition employees to consider and pursue career development 
opportunities that strengthen their skills in program and project 
management and that develop their familiarity in other disciplines akin 
to their work environment. For example, since 2010 when the Office of 
Management and Budget (OMB) issued the 25 Point Implementation Plan To 
Reform Federal Information Technology Management, OPM and the Federal 
agencies have taken the following actions that recognize this need for 
cross-fertilization of business acumen with the technology IT and cyber 
skills.
  --OPM designed and issued a formal IT program management career path. 
        Working with the Chief Information Officers (CIO) Council and 
        OMB, OPM's IT Program Management Career Path Guide recommends 
        training curriculum for the newly established IT Program 
        Management job title. It builds upon the IT Program Management 
        Competency Model and provides guidance to Federal agencies on 
        the creation and improvement of the IT Program Management 
        career path.
  --OPM updated the Job Family Standard for the Information Technology 
        2210 occupational series to include the IT Program Manager 
        definition which covers work that involves managing one or more 
        major multi-year IT initiatives of such magnitude they must be 
        carried out through multiple related IT projects.
  --OPM provides guidance to and encourages Federal agencies to use the 
        Intergovernmental Personnel Act to allow for the temporary 
        assignment of personnel, including IT and cyber program 
        managers, between the Federal Government and State and local 
        governments, colleges and universities, Indian tribal 
        governments, federally funded research and development centers, 
        and other eligible organizations.
    This cross-fertilization of business and program management 
disciplines for the IT, cyber and acquisition disciplines is also 
encouraged by the Federal leadership and agencies in other key mission 
critical occupations such those in the science, technology, engineering 
and mathematics disciplines.
    OPM revised its Hiring Managers Applicant Satisfaction Survey for 
fiscal year 2014 so that cyber hiring managers can report how satisfied 
they are with the quality of cyber candidates for their vacancies and 
identify what type of cyber work is being addressed in their vacancies. 
This will give us insight into the demand and flow of cyber work in our 
hiring actions and development activities and will enable us to be 
strategically focused on getting and retaining the high caliber IT and 
cyber workforce agencies need. For this fiscal year, as of June 12, 
2014, the survey has received 24,186 total responses with 681 of those 
responses indicating that the applicant performed cyber work.
    Question. Where are IT and personnel investments going? How well 
are you tracking how IT investments are aligned to the strategic plans 
of agencies?
    Answer. Cyber skills are particularly sensitive to the changing 
external forces of technology and the national security and economic 
prosperity. Additionally, it is important that whenever an employee is 
brought into the Federal Government and performs well that the Federal 
Government do everything possible to retain that individual. Part of 
this responsibility lies in making sure that person feels fulfilled by 
the training opportunities that are available to him or her.
    OPM's Employee Viewpoint Surveys reflect that overall, the current 
Federal workforce is very interested in receiving training that will 
foster their development. OPM also knows that having the agility and 
funding levels and staff capacity to provide the right developmental 
training at the right time is a key factor in employee retention.
    OPM partnered recently with the Chief Information Officers 
Council's workforce survey that provided employees with a self-
assessment tool of their cyber skills. Over 23,000 responses were 
received; the March 2013 reported results give Federal agencies insight 
about the skills their employees have and those that are needed. 
Through the Closing Skill Gaps Initiative, OPM encourages the cyber and 
human resources communities to use these results to design development 
opportunities to refresh and update talent.
    OPM is also reaching out, as part of the President's Second Term 
Management Agenda and the Closing Skill Gaps Initiative, to partner 
with the National Initiative for Cybersecurity Education-Department of 
Homeland Security (NICE-DHS) clearinghouse resource effort on the 
National Institute of Standards and Technology (NIST) Web portal so 
that training and development activities can become a part of a 
Governmentwide university environment for Federal employees and 
agencies.
                efficiencies in hiring qualified talent
    Question. One common complaint amount Federal agencies is the time 
consuming and burdensome nature of the hiring process. One flexibility 
that agencies do not currently have is the ability to share lists of 
best qualified candidates for similar jobs. For example, it my 
understanding that if one agency conducts a search that results in a 
limited number of candidates with the specific skill set, and the 
agency is only able to hire one, another agency looking to fill the 
same position is not allowed to access the names of the other 
candidates. Instead, each agency is required to conduct its own lengthy 
search, delaying hiring and slowing down the ability of agencies to 
make progress on important projects.
    Do you believe modifying the underlying statute to allow agencies 
to share their list of best qualified candidates would help agencies 
hire quicker and more effectively?
    Answer. As you may know, in 2010, OPM submitted to the House of 
Representatives and the Senate draft legislation that would permit 
agencies to share resumes and select from among top candidates who have 
competed for similar positions at another agency, were assessed, and 
were determined by the other agency to be among the best qualified 
candidates for the job. Should Congress develop similar such 
legislation, OPM would be happy to examine it.
                   pathways program for cyber talent
    Question. Director Archuleta, in your testimony you discuss OPM's 
work to enhance the recruitment and retention of cyber security and IT 
professionals, particularly students. One tool you did not mention was 
the Pathways internship programs, which allow agencies to non-
competitively convert students and recent graduates. Many agencies have 
reported difficulties in utilizing the program due to the large number 
of applications they receive resulting from public notice, inadequate 
ways to assess candidates without experience and inability to target 
specific talent sources.
    What is OPM doing to make sure that the Pathways programs are an 
effective pipeline for bringing mission-critical entry level IT talent 
into Federal agencies?
    What is OPM doing to educate agencies on the use of this 
recruitment tool? Finally, what can Congress do to help increase the 
use and effectiveness of the program?
    Answer. Pathways is designed to be an inclusive program, that 
permits agencies to recruit from all segments of the population. One of 
its goals is to expose recent graduates and students to Government 
service, in order to encourage them to consider becoming further 
involved in Government service as an immediate or long-term career 
goal. By definition, therefore, a strong response from applicants is a 
good thing, not a problem. Nevertheless, as with any recruitment 
process, it is important for agencies to develop valid approaches to 
assessment that permit them to identify the best candidates efficiently 
and effectively.
    OPM is working through the STEM community and with technology 
departments at colleges and universities and examining hiring 
flexibilities to recruit and onboard STEM graduates. The Presidential 
Management Fellowship (PMF) program and the pilot STEM track helped to 
attract applicants with cyber skills in disciplines such as 
cybersecurity and information security.
    OPM has held a number of Webinars, briefings, and training and 
specific agency sessions to educate human resources professionals and 
hiring managers on how to use the program. OPM has implemented monthly 
meetings with agency Pathways Program Officers to address global and 
specific issues related to the program. In addition, OPM is also 
finalizing additional guidance and frequently asked questions that will 
aid in making sure that agencies have information that they can use for 
the effective implementation of this program.
                                 ______
                                 
                Questions Submitted to Hon. David Powner
                Questions Submitted by Senator Tom Udall
                 general information technology reform
    Question. What are the top five reforms needed to improve Federal 
information technology (IT) spending so that it is more efficient and 
effective?
    Answer. Given the magnitude of the Federal Government's annual IT 
budget, which is expected to be more than $82 billion in fiscal year 
2014, it is important that agencies leverage all available 
opportunities to ensure that their IT investments are acquired in the 
most effective manner possible. To do so, agencies can rely on the 
Office of Management and Budget's (OMB's) initiatives such as:
  --the IT Dashboard, a public Web site that provides information on 
        760 major investments at 27 Federal agencies, totaling almost 
        $41 billion;
  --the mandated use of incremental IT development, the deployment of 
        IT capabilities or functionality in release cycles no longer 
        than 6 months;
  --TechStat sessions, which are face-to-face meetings to terminate or 
        turn around IT investments that are failing or are not 
        producing results;
  --the Federal Data Center Consolidation Initiative, which seeks to 
        save $3 billion by fiscal year 2015 by reducing the cost of 
        data center hardware, software, and operations; and
  --PortfolioStat sessions, which we estimate could save more than $5.8 
        billion, are annual reviews of agencies' IT investments to 
        eliminate duplication, move to shared services, and improve 
        portfolio management processes.
    We have examined each of these initiatives and made numerous 
recommendations to further increase their efficiency and 
effectiveness.\1\ For example, we recommended that OMB make Dashboard 
information available independent of the budget process, and that 
selected agencies appropriately categorize IT investments and address 
identified weaknesses.\2\ In addition, we recommended that OMB develop 
and issue realistic and clear guidance on incremental development and 
that selected agencies update and implement their incremental 
development policies to reflect OMB's guidance. We have also made 
recommendations to individual agencies participating in PortfolioStat 
to improve their implementation of PortfolioStat requirements. We have 
ongoing work reviewing the status of the implementation of these 
recommendations.
---------------------------------------------------------------------------
    \1\ GAO, Data Center Consolidation: Strengthened Oversight Needed 
To Achieve Cost Savings Goal, GAO-13-378 (Washington, DC: Apr. 23, 
2013); Information Technology: Additional Executive Review Sessions 
Needed To Address Troubled Projects, GAO-13-524 (Washington, DC: June 
13, 2013); Information Technology: Additional OMB and Agency Actions 
Are Needed To Achieve Portfolio Savings, GAO-14-65 (Washington, DC: 
Nov. 6, 2013); IT Dashboard: Agencies Are Managing Investment Risk, but 
Related Ratings Need To Be More Accurate and Available, GAO-14-64 
(Washington, DC: Dec. 12, 2013); and Information Technology: Agencies 
Need To Establish and Implement Incremental Development Policies, GAO-
14-361 (Washington, DC: May 1, 2014).
    \2\ GAO-14-64.
---------------------------------------------------------------------------
                   identifying failing it investments
    Question. How well do the PortfolioStat and TechStat processes 
identify high risk or failing IT investments that may need to be 
canceled? How many such investments were canceled or put back on track 
through such processes? Should such tools be used more widely by 
Federal agencies?
    Answer. While PortfolioStat was initially intended to focus on 
commodity IT,\3\ OMB only recently updated its PortfolioStat guidance 
in May 2014 to also ensure that critical IT investments deliver 
intended impacts and meet customer needs. However, OMB's TechStat 
sessions--face-to-face meetings to terminate or turn around IT 
investments that are failing or are not producing results--are more 
suited to identify high risk or failing IT investments that may need to 
be canceled.
---------------------------------------------------------------------------
    \3\ According to OMB, commodity IT includes services, such as 
enterprise IT systems (e-mail; identity and access management; IT 
security; Web hosting, infrastructure, and content; and collaboration 
tools); IT infrastructure (desktop systems, mainframes and servers, 
mobile devices, and telecommunications); and business systems 
(financial management, grants-related Federal financial assistance, 
grants-related transfer to State and local governments, and human 
resources management systems).
---------------------------------------------------------------------------
    In June 2013, we reported that OMB and selected agencies had held 
multiple TechStats and determined that, as of April 2013, OMB reported 
conducting 79 TechStats, which focused on 55 investments at 23 Federal 
agencies.\4\ Further, four selected agencies--the Departments of 
Agriculture, Commerce, Health and Human Services (HHS), and Homeland 
Security (DHS)--conducted 37 TechStats covering 28 investments. About 
70 percent of the OMB-led and 76 percent of agency-led TechStats on 
major investments were considered medium to high risk at the time of 
the TechStat. We further reported that OMB and selected agencies 
tracked and reported positive results from TechStats, with most 
resulting in improved governance. We also found that OMB reported in 
2011 that Federal agencies achieved almost $4 billion in lifecycle cost 
savings as a result of TechStat sessions. However, we were unable to 
validate the reported outcomes and associated savings because OMB did 
not provide supporting artifacts or demonstrate the steps that OMB 
analysts took to verify the agencies' data. We subsequently recommended 
that OMB require agencies to report on how they validated the outcomes. 
OMB generally agreed with this recommendation.
---------------------------------------------------------------------------
    \4\ GAO, Information Technology: Additional Executive Review 
Sessions Needed To Address Troubled Projects, GAO-13-524 (Washington, 
DC: June 13, 2013).
---------------------------------------------------------------------------
    Agencies could use TechStats more frequently. In our 2013 report, 
we found that the number of at-risk TechStats held was relatively small 
compared to the current number of medium- and high-risk major IT 
investments. Specifically, the OMB-led TechStats represented roughly 
18.5 percent of the investments across the Government that had a 
medium- or high-risk chief information officer (CIO) rating. For the 
four selected agencies, the number of TechStats represented about 33 
percent of the investments that had a medium- or high-risk CIO rating. 
We concluded that, until OMB and agencies develop plans to address 
these weaknesses, the investments would likely remain at risk. We 
further recommended that OMB require agencies to conduct TechStats for 
each IT investment rated with a moderately high- or high-risk CIO 
rating on the IT Dashboard. OMB generally agreed with this 
recommendation.
                     canceling failing it projects
    Question. What tools do agencies have to terminate IT investments 
that are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, what tools do agencies have to replace 
these terminated investments with new commercial IT solutions?
    Answer. As previously mentioned, agencies can utilize TechStat 
sessions to terminate or turn around IT investments that are failing or 
are not producing results. These meetings involve OMB and agency 
leadership and are intended to increase accountability and transparency 
and improve performance. OMB has told us that these sessions have 
resulted in investments that were either terminated or reduced in 
scope. Further, according to the former Federal chief information 
officer, the efforts of OMB and Federal agencies to improve management 
and oversight of IT investments have resulted in almost $4 billion in 
savings.
    In addition to TechStat sessions, our Information Technology 
Investment Management (ITIM) framework can be used by agencies to 
improve their organizational processes and measure progress in 
attaining them, including ensuring that investments are delivering 
expected benefits.\5\ As depicted in the following figure, the 
organization ensures that mission needs are met during the control 
phase. If the project is not meeting expectations or if problems have 
arisen, steps are quickly taken to address the deficiencies. If mission 
needs have changed, the organization is able to adjust its objectives 
for the project and appropriately modify expected project outcomes. The 
following figure illustrates the central components of the IT 
investment approach.
---------------------------------------------------------------------------
    \5\ GAO, Information Technology Investment Management: A Framework 
for Assessing and Improving Process Maturity (Supersedes AIMD-10.1.23), 
GAO-04-394G (Washington, DC: Mar. 1, 2004).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If an agency elects to terminate an IT investment, OMB guidance on 
the acquisition of IT requires that agencies maximize the use of 
commercial services and off-the-shelf technology.\6\
---------------------------------------------------------------------------
    \6\ OMB, Guidance On Exhibits 53 And 300--Information Technology 
and E-Government (2012).
---------------------------------------------------------------------------
                     transition to cloud computing
    Question. How well are Federal agencies implementing ``cloud 
first'' policies to drive efficiencies and savings through greater use 
of cloud computing services?
    Answer. In July 2012, we found that each of the seven selected 
agencies \7\ that we reviewed incorporated cloud computing requirements 
into their policies and processes, and implemented at least one service 
by December 2011.\8\ However, two agencies did not plan to meet OMB's 
deadline to implement two additional services by June 2012, but did 
plan to do so by the end of the year. As a result, we recommended that 
the seven agencies develop key planning information, such as estimated 
costs and legacy IT systems' retirement plans, for existing and planned 
services. The agencies generally agreed with these recommendations.
---------------------------------------------------------------------------
    \7\ The selected agencies were the Departments of Agriculture, 
Health and Human Services, Homeland Security, State, and Treasury; the 
General Services Administration and the Small Business Administration.
    \8\ GAO, Information Technology Reform: Progress Made but Future 
Cloud Computing Efforts Should Be Better Planned, GAO-12-756 
(Washington, DC: July 11, 2012).
---------------------------------------------------------------------------
    We have ongoing work looking at OMB's Cloud First initiative, where 
we are assessing agency progress in utilizing cloud-based solutions, 
determining the extent to which agencies experienced cost savings when 
such solutions have been deployed, and identifying any challenges 
agencies are facing as they use cloud computing.
                   federal data center consolidation
    Question. I would like to ask about discrepancies between Federal 
departments and agencies when it comes to data center consolidation and 
optimization. Which agencies or departments seem to be taking the most 
advantage of such opportunities to create savings and efficiencies? 
Which agencies or departments seem to lag behind?
    Answer. Of the 24 agencies participating in OMB's data center 
consolidation initiative, we believe the Departments of Defense 
(Defense) and Homeland Security (DHS) are two of the agencies that show 
the most potential for achieving planned savings and efficiencies. 
Specifically, as we testified in February 2014,\9\ Defense reported 
1,922 facilities although its original goal was to consolidate from 936 
data centers to 392 and save an estimated $2.2 billion. This increase 
in inventory opens the possibility of consolidating even more centers 
and realizing billions in cost savings. Further, DHS plans to reduce 
the number of its large data centers from 40 to 3 and recently reported 
consolidation savings of $108 million through fiscal year 2013.
---------------------------------------------------------------------------
    \9\ GAO, Information Technology: Leveraging Best Practices and 
Reform Initiatives Can Help Defense Manage Major Investments, GAO-14-
400T (Washington, DC: Feb. 26, 2014).
---------------------------------------------------------------------------
    Regarding agencies that have been challenged to achieve their 
consolidation goals, we have ongoing work looking at OMB's data center 
consolidation initiative, including evaluating the extent to which 
agencies have achieved planned cost savings through their consolidation 
efforts and identifying agencies' notable consolidation successes and 
challenges in achieving cost savings. We plan to report later this year 
on each of the agencies' savings to date and where there is opportunity 
for greater savings.
                      top priority it investments
    Question. How can OMB help ensure the success of the 
administration's top priority IT investments?
    Answer. While OMB's and agencies' recent efforts have resulted in 
greater transparency and oversight of Federal spending, continued 
leadership and attention are necessary to build on the progress that 
has been made. OMB is periodically reviewing the status of investments 
through its oversight of the IT Dashboard and its TechStat process. 
However, as we recommended in 2013, OMB needs to continue to hold 
TechStat sessions for major investments, hold agencies accountable for 
the performance of their investments, and make Dashboard information 
available independent of the budget process. Without this continued 
oversight, top priority investments may remain at risk. Additionally, 
with the possibility of over $5.8 billion in savings from the data 
center consolidation and PortfolioStat initiatives, OMB and agencies 
should continue to identify and pursue consolidation opportunities, by 
implementing a range of our recommendations intended to increase to 
efficiency and effectiveness of Federal IT.

                         CONCLUSION OF HEARING

    Senator Udall. The subcommittee is hereby adjourned. Thank 
you.
    [Whereupon, at 3:40 p.m., Wednesday, May 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
